Report No. DODIG-2012-120                 August 22, 2012




               Special Plans and Operations



     Assessment of DoD Wounded Warrior Matters -
   Wounded Warrior Battalion - West Headquarters and
              Southern California Units
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Our mission is to to provide assessment oversight that facilitates
                                                                                                                     informed, timely decision-making by senior leaders of the DoD and
                                                                                                                     the U.S. Congress, addressing priority national security objectives.
      Vision
         One professional team strengthening the integrity, efficiency, 

                   and effectiveness of the Department of Defense 
                                                  General Information
                               programs and operations. 

                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department 
                                                               Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the 

                                                                                                                                                           400 Army Navy Drive
                  Department's mission and serve the public interest.

                                                                                                                                                        Arlington, VA 22202-4704




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference   Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
                                       INSPECTOR GENERAL
                                        DEPARTMENT OF DEFENSE
                                        4800 MARK CENTER DRIVE
                                     ALEXANDRIA, VIRGINIA 22350-1500




                                                                                   August 22, 2012

MEMORANDUM FOR DISTRIBUTION

SUBJECT: Assessment of DoD Wounded Warrior Matters- Wounded Warrior Battalion-West
         Headquarters and Southern California Units (Report No. DODIG-2012-120)

        This report discusses the U.S. Marine Corp's Wanior Care and Transition Programs at
Camp Pendleton and Twenty Nine Palms, California and is the fourth in a series of site reports
that will discuss the care, management, and transition of recovering Service members.

       We are providing this repoti for review and comment. We considered management
comments on a draft of this repoti when preparing the final report. Some of these comments
were patiially responsive and require additional comments.

            We request additional comments on recommendations by September 28, 2012 as
follows:

        •     Secretary of the Navy: We request additional comments on Recommendations
              C.l.l., C.3.1.

        •     Undersecretary of Defense for Personnel and Readiness: We request additional
              comments on Recommendations C.9., D.1.1 .

       •      Office of the Secretary of Defense Health Affairs: We request notification be
              provided as progress is made towards updates in Recommendation 0.4.1.

       •      Surgeon General of the Navy and Chief, Bureau of Medicine and Surgery and Navy
              Medicine West: We request additional comments on Recommendations D.1.2.,
              D.1.3, D.2.1., D.2.2, D.3., and D.4.2. (a) (b).

       •     Commandant of the Marine Corps: We request additional comments on
             Recommendations A.1.2., C.2., C.3.2., C.3.3., CA. , and C.5.1.

       •     Deputy Commandant for Manpower and Reserve Affairs: We request additional
             comments on Recommendation C.6.

         DOD Directive 7650.3 requires that recommendations be resolved promptly. If possible,
send a .pdf file containing your comments in electronic format (Adobe Acrobat fil e only) to
spo@dodig.mil. Copies of your comments must have the actual signature of the authorizing
official for your organization. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them over
the SECRET Internet Protocol Router Network (SIPRNET).
Am bas sa or Kenneth P. Moorefield
Deputy I pector General
  Special Plans and Operations
DISTRIBUTION:

UNDERSECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
  DEPUTY UNDERSECRETARY OF DEFENSE FOR WOUNDED WARRIOR CARE AND
     TRANSITION POLICY
  ASSISTANT SECRETARY OF DEFENSE FOR HEALTH AFFAIRS
  ASSISTANT SECRETARY OF DEFENSE FOR RESERVE AFFAIRS
DIRECTOR, JOINT STAFF
   JOINT STAFF SURGEON
COMMANDER, U.S. CENTRAL COMMAND
COMMANDER, U.S. EUROPEAN COMMAND
COMMANDANT OF THE MARINE CORPS
  DEPUTY COMMANDANT FOR MANPOWER AND RESERVE AFFAIRS
  COMMANDER, WOUNDED WARRIOR REGIMENT
  MEDICAL OFFICER OF THE MARINE CORPS (HEALTH SERVICES)
  COMMANDER, MARINE CORPS INSTALLATIONS-WEST
  COMMANDING OFFICER, WOUNDED WARRIOR BATTALION-WEST
  COMMANDING OFFICER, WOUNDED WARRIOR BATTALION- EAST
COMMANDER, WARRIOR TRANSITION COMMAND
SECRETARY OF THE NAVY
  SURGEON GENERAL OF THE NAVY AND CHIEF, BUREAU OF MEDICINE AND
     SURGERY
  COMMANDER, NAVY MEDICINE- WEST
  COMMANDER, NAVY MEDICINE- EAST
  COMMANDING OFFICER, NAVAL MEDICAL CENTER SAN DIEGO
  COMMANDING OFFICER, NAVAL HOSPITAL, CAMP PENDLETON
  COMMANDING OFFICER, NAVAL HOSPITAL, TWENTYNINE PALMS
  COMMANDING OFFICER, NAVAL HOSPITAL CAMP LEJEUNE
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT AND
   COMPTROLLER)
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
INSPECTOR GENERAL, DEPARTMENT OF THE ARMY
NAVAL INSPECTOR GENERAL
MARINE CORPS INSPECTOR GENERAL
INSPECTOR GENERAL, OFFICE OF THE SECRETARY OF VETERANS AFFAIRS
GOVERNMENT ACCOUNTABILITY OFFICE

SENATE COMMITTEE ON APPROPRIATIONS, SUBCOMMITTEE ON DEFENSE
SENATE COMMITTEE ON ARMED SERVICES
SENATE COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
HOUSE COMMITTEE ON APPROPRIATIONS, SUBCOMMITTEE ON DEFENSE
HOUSE COMMITTEE ON ARMED SERVICES
HOUSE COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM
This Page Intentionally Left Blank
Assessment of DoD Wounded Warrior Matters –                                   Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                          August 22, 2012


                 Results in Brief: Assessment of DoD
                 Wounded Warrior Matters – Wounded
                 Warrior Battalion – West Headquarters
                 and Southern California Units
What We Did                                               to the Warriors themselves. We recommend that
                                                          the WWBn-West leadership and staff, as well as
We assessed whether the Wounded Warrior                   other identified organizations, consider
Battalion-West (hereafter, WWBn-West) and                 Warriors’ comments as discussed in this report
appropriate supporting organizations’ programs            so they are cognizant of Warriors’ views and
responsible for the care, management, and                 concerns and can take appropriate action.
transition of Wounded Warriors (who include
Wounded, Ill, or Injured Marines, hereafter,              What We Recommended
Warriors) located at Marine Corps Base Camp
Pendleton (hereafter Camp Pendleton), Marine              We recommend that the appropriately identified
Corps Base Camp Twentynine Palms (hereafter               organizations:
Twentynine Palms), and Naval Medical Center               • Implement processes to reduce lengthy
San Diego were managed effectively and                        Warrior transition times.
efficiently. Specifically, we evaluated the               • Establish a dedicated medical officer,
missions, policies, and processes in place to                 battalion aid station, or appropriate
assist Warriors in their recovery and return to               equivalent for WWBn-West.
duty status or transition to civilian life, and the       • Implement policy prohibiting Warriors from
specific programs for Wounded Warriors with                   serving as WWBn-West staff.
Traumatic Brain Injury and Post Traumatic                 • Implement policy that appropriately
Stress Disorder.                                              accommodates Warriors’ transition location
                                                              preferences.
What We Found                                             • Implement programs that enable support
We identified several initiatives implemented by              persons to effectively contribute to
WWBn-West and other identified organizations                  Warrior’s healing and transition.
that we believed to be noteworthy practices for           • Ensure that computer systems used to
supporting the comprehensive care, healing, and               facilitate Warriors’ healing and transition
transition of Warriors. Further, we observed that             interface appropriately.
the WWBn-West leadership and staff and other              • Properly resource Warrior transportation
identified organizations were fully dedicated to              requirements at Twentynine Palms.
providing the best available care and services for        • Ensure End of Active Duty Service Dates
helping Warriors heal and transition.                         requirements do not interfere with Warrior
                                                              healing and transition.
We also identified a number of significant
                                                          • Identify Warriors eligible and ineligible to
challenges that we recommend the WWBn-West
                                                              transfer Post 9-11 G.I. Bill benefits.
leadership and staff as well as other identified
organizations address. Resolving these                    • Develop policies and procedures for
challenges will increase program effectiveness                determining effective medical case manager
in providing quality and timely care and services             patient loads.
in support of the Warriors’ healing and                   • Improve policies and procedures for
transition.                                                   medication management, poly pharmacy and
                                                              medication reconciliation.
Finally, we recognized as a result of this                • Ensure access to medical care is within
assessment, that it was important to give a voice             established standards.


                                                      i
Assessment of DoD Wounded Warrior Matters –                                    Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                           August 22, 2012



Management Comments and Our Response
Those offices listed on the recommendations table below either concurred or non-concurred with
comments to our recommendations. Responses to 20 recommendations were either responsive, or
partially responsive, all requiring additional comments. Therefore, we request additional comments on
recommendations by September 28, 2012.

Recommendations Table
              Management                      Recommendations Requiring               No Additional
                                                        Comment                     Comments Required
Undersecretary of Defense for                 C.9., D.1.1.
Personnel and Readiness
Office of the Assistant Secretary of          D.4.1.
Defense, Health Affairs
Secretary of the Navy                         C.1.1, C.3.1.
Surgeon General of the Navy and               D.2.1., C.4., D.1.2., D.1.3.,
Chief, Bureau of Medicine and                 D.2.2, D.3., D.4.2a., D.4.2.b.
Surgery and Commander, Navy
Medicine West
Commandant of the Marine Corps and            A.1.2., C.2., C.3.2., C.3.3,       A.1.1., B.1., C.5.2.
Commander, Wounded Warrior                    C.4., C.5.1.                       C.7.1., C.7.2., C.8.
Regiment
Deputy Commandant for Manpower                C.6
and Reserve Affairs
Commander, Marine Corps                                                          C.8.
Installations-West

Please provide comments by September 28, 2012




                                                    ii
Table of Contents
Results in Brief ............................................................................................................................... i
Introduction ................................................................................................................................... 1
           Objectives ........................................................................................................................... 1
           Background ......................................................................................................................... 2
Part I - Noteworthy Practices .................................................................................................... 11
           Observation A. Noteworthy Practices for Wounded Warrior Battalion - West .............. 13
           Observation B. Noteworthy Practices for Navy Medicine Supporting Wounded Warrior
           Battalion-West .................................................................................................................. 21
Part II - Challenges ..................................................................................................................... 31
           Observation C. Challenges for Wounded Warrior Battalion- West ................................. 33
           Observation D. Challenges for Navy Medicine Supporting Wounded Warrior Battalion –
           West .................................................................................................................................. 75
Part III - Warrior Speak ............................................................................................................ 97
Appendix A. Scope, Methodology, and Acronyms ............................................................... 109
Appendix B. Summary of Prior Coverage ............................................................................. 113
Appendix C. Reporting Other Issues ..................................................................................... 115
Appendix D. Wounded Warrior Battalion-West Patient Referral Questionnaire ............ 117
Appendix E. Management Comments ................................................................................... 125
Assessment of DoD Wounded Warrior Matters –                        Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                               August 22, 2012




                              This Page Intentionally Left Blank
Assessment of DoD Wounded Warrior Matters –                                      Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                             August 22, 2012



Introduction
Objectives
The broad objective of this ongoing assessment is to determine whether the DoD programs for
the care, management, and transition of recovering Service members wounded during
deployment in Operation Iraqi Freedom or Operation Enduring Freedom were managed
effectively and efficiently. 1

Specific Objectives
Our specific objectives were to evaluate the missions, the policies, and processes of:

    •   Military units, specifically the Army and Marine Corps, established to support the
        recovery of Service members and their transition to duty status in Active or Reserve
        Components 2 or to civilian life; and

    •   DOD programs for Service members affected with Traumatic Brain Injury (TBI) and
        Post Traumatic Stress Disorder (PTSD).

Assessment Approach
We conducted this assessment in response to a request to DoDIG made by Congressman Walter
B. Jones (R-NC) in February 2010. Congressman Jones had received complaints from
constituents about incidents that allegedly occurred at the Wounded Warrior Battalion-East
(WWBn-East) at Camp Lejeune, North Carolina. As a result of meetings with Congressman
Jones and his staff, we agreed to systematically assess Army and Marine Corps Wounded
Warrior matters.

This is the fourth of six scheduled site assessments that will be conducted at Army and Marine
Corps Warrior transition units. To obtain unbiased data, not unduly reflecting the views of
either the supporters or detractors of the program, we used a two-pronged approach to select our
respondents. First, we determined how many Service members were required to be interviewed,
then we applied a simple random sample approach to determine the Service members we should
interview, as described in Appendix A. For the purposes of the WWBn-West assessment we
performed 68 individual and five group Warrior interviews.

Second, during our two-week Camp Pendleton visit, we spoke with all available members of the
key groups responsible for the Warriors care, including unit commanders, staff officers, and
WWBn-West military staff, as well as civilian staff and contractors. A list of the meetings and

1
  The Marines referred to in this assessment were wounded, ill and injured personnel who were under the
responsibility of the Wounded Warrior Battalion-West in Camp Pendleton, California. The Wounded Warrior
Regiment estimates that approximately 60 percent of Marines in the Wounded Warrior Battalions were combat
wounded.
2
  The Marine Corps is a component of the United States Department of the Navy and is comprised of Active Duty
Marines and Reserve Marines. The Army is comprised of two distinct and equally important components, the
Regular Army (the Active Component), and the Army National Guard and the Reserve (the Reserve Components).


                                                      1
Assessment of DoD Wounded Warrior Matters –                            Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                   August 22, 2012

interviews conducted at WWBn-West, Naval Medical Center San Diego, Naval Medical Center
Camp Pendleton and Naval Medical Center Twentynine Palms, along with the scope,
methodology, and acronyms of this assessment are listed in Appendix A. The prior coverage of
this subject area is discussed in Appendix B.

We focused our observations and corresponding recommendations on what we learned at Camp
Pendleton and corresponding sites at Twentynine Palms and Naval Medical Center San Diego.
However, they may have implications for other Wounded Warrior units and should be called to
the attention of higher headquarters responsible for these programs.

It is important to give a “voice” to the Warriors assigned to WWBn-West and including their
comments helps to illustrate our observations, discussions, conclusions and recommendations.
Refer to Part III for Warriors’ remarks that amplify our observations, discussions, conclusions
and recommendations.

Additional reports and/or assessments may be subsequently performed by the DoD Office of the
Inspector General on DoD Wounded Warrior matters or other related issues as they are
identified. A current list of specific issues, concerns, and challenges that we identified at the
WWBn-West that may be addressed in future assessments and/or reports to organizations other
than those located at the Army and Marine Corps installations we visited are discussed in
Appendix C.

Background
U.S. Marine Corps Wounded Warrior Regiment
The 34th Commandant of the Marine Corps, Gen. James T. Conway, in his 2006 Planning
Guidance, highlighted his vision of taking care of Wounded Warriors and their families. As a
result, the U.S. Marine Corps Wounded Warrior Regiment (WWR) was established in 2007 to
provide and facilitate non-medical care to combat and non-combat wounded, ill and injured
Marines, and Sailors attached to or in direct support of Marine units and their family members
in order to assist them to return to active duty or transition successfully to civilian life.

The Regimental Headquarters element, located in Quantico, Virginia, maintains administrative
and operational control of two Wounded Warrior Battalions located at Marine Corps Base
Camp Pendleton, California (WWBn-West) and Marine Corps Base Camp Lejeune, North
Carolina (WWBn-East). The Regimental Headquarters provides unity of command and unity of
effort through a single Commander who provides guidance, direction, and oversight to the
Marine Corps Warriors non-medical care process and ensures continuous improvements to care
management and the seamless transition of recovering Marines.

The mission of the WWR, according to their Promulgation Statement, is the following:

               The Wounded Warrior Regiment will provide and facilitate
               assistance to wounded, ill, and injured Marines, Sailors
               attached to or in support of Marine units, and their family
               members, throughout the phases of recovery.


                                                2
Assessment of DoD Wounded Warrior Matters –                                           Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                  August 22, 2012

The WWR’s motto is “Still in the fight” which helps to focus a recovering Marine on “ability”
vs. “disability.” The WWR strives to focus the mindset of these Warriors on their ability to
overcome their disabilities and personal challenges to thrive in all areas of their lives. The
WWR considers focusing on ability provides the psychological and emotional support to
encourage healing and a quicker adaptation to injury and leads to an increased ability for these
Warriors to thrive within their new “normal.”

Since the WWR stood up in April 2007 it has provided support to nearly 27, 377 wounded, ill,
and injured Marines. This support included Call Center contact, administrative support
(benefits and compensation), healthcare referral, and family support, among others.
Approximately 60 percent of these Marines were wounded in combat, and 40 percent had
suffered injuries not associated with combat.

As stated in the United States Marine Corps, Wounded Warrior Regiment Handbook: “Once a
Marine, always a Marine” is an enduring commitment the WWR upholds. Whether Marines are
wounded in combat, fall ill, or are injured in the line of duty, the WWR mission is to
serve the total wounded, ill and injured force: Active Duty, Reserves, retired, and Veteran
Marines.

Wounded Warrior Battalions
The Wounded Warrior Battalion-West is located at Marine Corps Base Camp Pendleton,
California, while the Wounded Warrior Battalion-East is located at Marine Base Camp Lejeune,
North Carolina. These battalions have Detachments located at Military Treatment Facilities
(MTFs) and at Department of Veterans Affairs (VA) Polytrauma 3 Rehabilitation Centers.
                              Table 1. Wounded Warrior Battalion Locations
          Wounded Warrior Battalion - West Sites                   Wounded Warrior Battalion - East Sites
    Naval Medical Center San Diego, CA                       Naval Hospital Camp Lejeune, NC

    Naval Hospital Camp Pendleton, CA                        Naval Hospital Portsmouth, VA
    Naval Hospital Twentynine Palms, CA                      Walter Reed National Military Medical Center, Bethesda,
                                                             MD 4
    VA Polytrauma Center, Palo Alto, CA                      Andrews Air Force Base, MD
    Tripler Army Medical Center, Honolulu, HI                San Antonio Military Medical Center, San Antonio, TX
    Naval Hospital Okinawa, Japan                            VA Polytrauma Center, Minneapolis, MN
                                                             VA Polytrauma Center, Tampa Bay, FL
                                                             Landstuhl Regional Medical Center, GE

3
  “Polytrauma” is termed by the VA to describe injuries to multiple body parts and organs occurring as a result of
blast-related wounds experienced in Operation Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF).
Traumatic brain injury (TBI) frequently occurs as part of poly-trauma in combination with other disabilities, such
as amputations, auditory and visual impairments, spinal cord injury (SCI), post-traumatic stress disorder (PTSD),
and other medical conditions. Due to the severity and complexity of their injuries, Veterans and Service members
with polytrauma can require an extraordinary level of coordinated and integrated clinical and other support
services.
4
  The 2005 Defense Base Realignment and Closure Commission recommended that DoD establish a new Walter
Reed National Medical Center on the site of the current National Navy Medical Center in Bethesda, Maryland.
The last patients at Walter Reed Army Medical Center were transported August 27, 2011 to the new location at
Walter Reed National Military Medical Center.


                                                         3
Assessment of DoD Wounded Warrior Matters –                                         Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                August 22, 2012

Active and Reserve Marines and other support personnel working for the Wounded Warrior
Regiment at the detachment sites are the primary interface with Warriors and their families.
Specifically, through ongoing and personal interactions, they assist families with non-medical
issues (e.g. pay, entitlements, travel and transportation, temporary lodging, etc.) allowing
families to focus on their Warriors’ recovery. Additionally, they coordinate care and resources
provided by governmental agencies and non-governmental benevolent organizations including
the scheduling of special event and educational opportunities.

Each detachment commander reports directly to their respective battalion commander (e.g.
WWBn - East or West.) The battalion commander reports to the Wounded Warrior Regiment
commander. The U.S. Marine Corps relies on the other military services, the VA, or the
civilian healthcare network to provide for the medical needs of Warriors. Specifically, the
healthcare provided to each Warrior is coordinated by the closest MTF or VA. These MTF or
VA care teams consist of, but are not limited to, military personnel, physicians, nurses,
medics/corpsmen, medical case managers, and specialty providers such as TBI and behavioral
health specialists (e.g. psychiatrists, psychologists, social workers, and family counselors) and a
myriad of outside organizations offering resources to the Warriors.

The WWBn detachments and MTFs provide this critical support to Warriors who are referred
and meet the eligibility criteria for entrance in the WWBn. Eligibility criteria generally require
that a wounded, ill, or injured Marine has a medical condition that will require 90 or more days
of medical treatment and/or rehabilitation. Other considerations a commander can use to
determine whether a Marine should be referred to a WWBn include the following: 1) Three or
more medical appointments required per week; 2) Command cannot support transportation to
and from appointments; and 3) the Marine cannot serve a function in their parent command due
to his or her injuries or illness.

Personnel Support of the Wounded Warrior Battalions
There are several members of the team that support individual Warrior recovery and transition
including, among others, the Warrior’s Section Leader, Medical Case Manager, Primary Care
Manager and Recovery Care Coordinator.

Specifically, the following is a brief description of each member’s roles and responsibilities.

    •   Section Leader – is a military Service member (senior non-commissioned officer) 5 who
        plays a key leadership role in supporting the Marine through the recovery process and
        helps them complete actions necessary to meet their transition goals as outlined in their
        Comprehensive Transition Plan (CTP) 6. The Section Leader combines the discipline
        and standards of the Marine Corps with an understanding of the obstacles Warrior
5
  A senior non-commissioned officer is an enlisted member of the armed forces, appointed to a rank conferring
leadership over lower-ranking personnel.
6
  The primary tool used to coordinate a recovering Marine’s and their family’s care is the Comprehensive
Transition Plan (CTP). This plan is based on information from the Marine’s recovering needs assessment, which
takes into consideration various components such as employment, housing, financing, counseling, family support,
disability evaluation process, among others. The CTP is referred to as a “life map” for the recovering Marine and
their family and reflects their medical and non-medical goals and milestones from recovery and rehabilitation to
community reintegration.


                                                        4
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012

       Marines face while serving as their advocate to ensure coordinated medical and non-
       medical recovery efforts. WWR guidelines state that the objective is for Section
       Leaders to support their wounded, ill and injured Marines on a 1:10 ratio. Note: The
       Wounded Warrior Regiment subsequent to our visit renamed the CTP to the Comprehensive
       Recovery Plan (CRP) which is a framework addressing a Wounded, Ill, and Injured Marine’s
       and family’s needs through the phases of recovery, rehabilitation, and reintegration. The
       Wounded Warrior Regiment requested that we incorporate this new terminology, see page 133.

   •   Medical Case Manager – is usually a civilian employee who “assesses, plans,
       implements, coordinates, monitors and evaluates options and services” to meet the
       Warriors’ complex health needs. The medical case manager helps to coordinate medical
       appointment schedules and other medical related activities.

   •   Primary Care Manager (PCM) – is either a military or civilian healthcare provider
       (e.g. physician, physician’s assistant, or nurse practitioner) who is the medical point of
       contact and healthcare advocate for the Warrior. Primary Care Managers provide
       primary oversight and continuity of healthcare and are to ensure the level of care
       provided is of the highest quality. They are the gateway to all specialty care (such as
       behavioral health specialists or orthopedic surgeons) and they coordinate with other
       physicians to ensure that the Warriors are getting the treatment that they need.

   •   Recovery Care Coordinator (RCC) – is usually a civilian who serves as the Warrior’s
       primary point of contact to help them define their individual goals for recovery,
       rehabilitation, and community reintegration. Additionally, the RCC identifies the
       services and resources needed to achieve these goals and develops the CTP (now CRP)
       that guides the Warrior during their transition.

Marine Corps Base Camp Pendleton, California
The mission of Camp Pendleton is to operate a training base that promotes the combat readiness
of the Operating Forces and the mission of other tenant commands by providing training
opportunities, facilities, services and support responsive to the needs of Marines, Sailors and
their families. Camp Pendleton is the home base for the 1st Marine Expeditionary Force which
comprises the 1st Marine Division, 1st Marine Logistics Group and elements of the 3rd Marine
Air Wing. Camp Pendleton is also home to many tenant units, including Marine Corps
Installation-West, 1st Marine Special Operations Battalion, Wounded Warrior Battalion-West,
Marine Corps Air Station at Munn Field, Marine Corps Tactical Systems Support Activity,
Marine Corps Recruit Depot, San Diego Weapons & Field Training Battalion, Marine Corps
and Army Reserve Forces, the Navy's Assault Craft Unit Five, Naval Hospital and 1st Dental
Battalion. The Naval Hospital provides primary medical care to service members and their
families stationed at Camp Pendleton. The Naval Hospital Commander does not exercise
command and control over the Wounded Warrior Battalion-West. Rather, the Naval Hospital
Commander provides direct medical support to the Wounded Warrior Battalion-West as he does
for all other units at Camp Pendleton. The Wounded Warrior Battalion-West organizational
structure that supported the Warriors in the battalion is shown in Figure 1, page 6.




                                                5
Assessment of DoD Wounded Warrior Matters –                            Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                   August 22, 2012

                         Figure 1. Wounded Warrior Battalion – West




Camp Pendleton Wounded Warrior Battalion- West
The mission of the Wounded Warrior Battalion-West is:

               The Wounded Warrior Battalion will provide and facilitate
               assistance to wounded, ill, and injured Marines, Sailors attached
               to or in support of Marine units, and their family members,
               throughout the phases of recovery in order to assist in
               rehabilitation and transition.

The services provided by WWBn-West include: oversight of the USMC wounded ill and
injured processes; non-medical case management; accountability and tracking; pay, benefits,
charitable support, employment and vocational rehabilitation benefits assistance; DoD to VA
transition; and Traumatic Service member’s Group Life Insurance (TGSLI) assistance.

WWBn-West is made up of a headquarters element in support of:

           •   Alpha Company, Camp Pendleton
           •   Detachment Naval Hospital Camp Pendleton
           •   Detachment Naval Medical Center San Diego
           •   Detachment Twentynine Palms
           •   Detachment Palo Alto, California
           •   Detachment Hawaii
           •   Detachment Okinawa


                                                6
Assessment of DoD Wounded Warrior Matters –                            Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                   August 22, 2012

As of early April, 2011, the WWBn-West had approximately 166 Marines, Sailors and civilian
professionals dedicated to ensuring the health, welfare, and morale of 368 Warriors assigned to
WWBn-West. At the time of our assessment, 170 of these Warriors were assigned to Camp
Pendleton, 131 were assigned to Naval Medical Center San Diego, 40 were assigned to
Detachment Hawaii, 21 were assigned to Detachment Twentynine Palms, and six were assigned
to Detachment Palo Alto. WWBn-West also tracked an additional approximately 3,229
Warriors.

WWBn-West contained an Operations Section with a Call Cell staff, Non-Medical Case
Managers, and Recovery Care Coordinators (RCCs) which supported wounded, ill and injured
Marines who were attached to WWBN-West but physically remained with their parent
commands.

The Regiment’s nerve center is the Wounded Warrior Operations Center, which serves as the
central point of contact for all non-medical care management issues. The Operations Section
enables the Battalion to extend support to wounded, ill or injured Marines and their families
throughout the phases of recovery with a variety of services to include advocacy, resource
identification, and referral into the Battalion, information distribution, and care coordination.
The Call Center and Non-medical Managers reach out and support active duty Warriors who are
not attached to WWBN-West and remain with their parent commands. The staff provides them
with assistance on a wide variety of issues, including but not limited to: benefits and
entitlements, Social Security Disability Insurance (SSDI) and TSGLI claims, GI Bill, transition
assistance, charitable organization resources, and mental health outreach. The mission of the
Wounded Warrior Battalion West Call Center is to support the Marine Corps Wounded Warrior
Regiment’s efforts in providing customer care services for marines and their families through
qualitative support from an 8 hour, 5 days a week Call Center. The Call Center conducts
outreach calls to active duty Warriors who remained with their parent commands or returned to
their parent commands from the WWBn, receives calls for assistance, and engages in follow-on
monitoring to ensure issue resolution. The Call Center’s purpose is to provide customer service
while ensuring the ongoing well-being of wounded, ill, and injured Marines and their families.
Wounded, ill, and injured Marines and their families may contact the Call Center for advice
and/or support for many issues, including:

                    •   Benefits
                    •   TSGLI
                    •   Pay and Entitlements
                    •   SSDI
                    •   Awards (Purple Hearts)
                    •   Veterans Administration
                    •   GI Bill
                    •   Employment/Education
                    •   Psychological Health Concerns
                    •   Traumatic Brain Injury Concerns
                    •   Post-Traumatic Stress Disorder Concerns
                    •   Counseling support on a variety of issues



                                                7
Assessment of DoD Wounded Warrior Matters –                                  Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                         August 22, 2012

The geographic spread of Wounded Warrior Battalion-West is greater than any other Wounded
Warrior unit encountered during this project because the bulk of the Battalion is split between
three separate Southern California locations. We visited the Naval Medical Center San Diego
detachment of WWBn-West April 4-8, 2011 then continued with WWBn-West organization
and Naval Hospital Camp Pendleton located at Camp Pendleton April 11-22, 2011. While we
were at Camp Pendleton, we sent a two person team to Twentynine Palms to conduct interviews
at the Naval Hospital Twentynine Palms and the WWBn-West detachment located there.
During our site visits, we observed WWBn-West operations and formations, visited Warrior
living quarters and WWBn-West and Camp Pendleton medical facilities, surveyed certain
operations at the medical facilities, and examined pertinent documentation. We also had
meetings and interviews, ranging from unit commanders and staff officers to civilian staff and
contractors.

WWBn-West had a very limited number of medical personnel that directly supported the
battalion. The majority of the Warriors’ medical care was provided by U.S. Navy hospitals
located at Naval Medical Center San Diego, Naval Hospital Camp Pendleton and Naval
Hospital Twentynine Palms, with the remainder of the needed services being coordinated by the
TRICARE healthcare contractor utilizing off-base civilian healthcare providers and facilities.

Of the Warriors assigned to WWBn-West as of April 22, 2011, approximately 60 percent were
combat wounded in the Iraq or Afghanistan theaters of operations.

Between April 2007 and the completion of our site visit on April 22, 2011, WWBn-West had a
total of 416 Marines either currently assigned or already transitioned. Table 2 shows the status
of those Warriors.

          Table 2. Status of Warriors Who Transitioned through WWBn-West
 Return to Duty                                                                               36
 Transitioned from the U.S. Marine Corps to Civilian Life                                    180
 Deceased                                                                                      5
 Discharged for Administrative or Adverse Action                                               3
 Remain Assigned                                                                             192
NOTE: These numbers include three Marine Reservists who had transitioned through WWBN-West. All three
Reservist Marines returned to duty with their Reserve Unit.

Naval Medical Center San Diego
There are approximately 250,000 people in San Diego County eligible to receive care at
Naval Medical Center San Diego (NMCSD), the largest academic medical center in Navy
Medicine. Over 95,000 beneficiaries are enrolled for primary care and many thousands more
receive specialty care. This care is provided by more than 6,600 military and civilian staff.
To augment that staff and to expand the scope of services available to its patient population,
Naval Medical Center San Diego has taken the lead in introducing many innovative
partnership and resource sharing programs with the Veteran’s Administration and other
civilian health systems and providers.



                                                   8
Assessment of DoD Wounded Warrior Matters –                                       Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                              August 22, 2012

Naval Medical Center San Diego is first and foremost a military command. The center has
five medical mobilization teams including the hospital ship USNS Mercy. These teams
deploy to the Western Pacific and Southeast Asia at various times during the year. It is the
center’s mission to deliver top-quality, patient centered health care; prepare and deploy
military personnel in support of combatant commander requirements; and shape the future of
military medicine through education, training, and research.

Naval Hospital Camp Pendleton
Camp Pendleton is a large base comprising approximately 250 square miles located on
federal land, approximately 35 miles north of San Diego and 100 miles south of Los Angeles.
Naval Hospital Camp Pendleton is a 72 bed facility.

Naval Hospital Twentynine Palms
The hospital contains 22 beds but has room to expand to 37. The hospital has an Emergency
Medical Department, four operating rooms, a seven-bed Desert Beginnings Labor Delivery
Recovery and Postpartum Unit, a 15-bed Multi-Service Ward for inpatient care, and a modern
full-service pharmacy, laboratory, radiology departments and physical therapy clinic.

Traumatic Brain Injury and Post Traumatic Stress Disorder
Two increasingly common diagnoses for recovering Service members were TBI 7 and PTSD. 8
TBI occurs when someone receives a direct blow or a jolt to their head that may disrupt the
function of the brain. Service members may sustain TBIs when exposed to a blast or explosion
(sometimes on multiple occasions), which may lead to serious symptoms that may not be
immediately apparent. There are three different levels of TBI (mild, moderate, and severe)
based on the severity of damage to the brain.

PTSD is an anxiety disorder or condition that develops after someone has experienced or
witnessed a life-threatening or traumatic event, which may include a combat event. PTSD
symptoms often begin immediately after the traumatic event but may not be evident until years
later. A traumatic event leading to PTSD is one that most likely causes an intense emotional
reaction of fear, hopelessness, or horror.

The Defense and Veterans Brain Injury Centers (DVBIC) at Naval Medical Center San Diego
and Camp Pendleton typically serve service members from all branches who are stationed on
the west coast to include Arizona, Southern California, Hawaii, and Nevada. Outreach services
from Camp Pendleton extend to Twentynine Palms CA, Alaska, Nevada, and Fort Irwin, CA for
mass TBI screenings and provider education. The DVBIC provides optimal care and treatment
for service members with TBI. Service members referred to the DVBIC receive specialized
TBI consultations, a comprehensive evaluation, and an individualized treatment plan.
Additional services include: coordination of other specialty services, duty status determination,
7
  The definition of TBI is from multiple sources, including “Types of Brain Injury,” Brain Injury Association of
America, October 15, 2008; and “Force Health Protection and Readiness Quick TBI and PTSD Facts,” Force
Health Protection and Readiness, October 15, 2008.
8
  The definition of PTSD is from multiple sources, including “Force Health Protection and Readiness Quick TBI
and PTSD Facts,” October 15, 2008; and Jessica Hamblen, PhD, “What is PTSD?” National Center for PTSD, U.S.
Department of Veterans Affairs, October 15, 2008.


                                                       9
Assessment of DoD Wounded Warrior Matters –                             Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                    August 22, 2012

and recommendations to medical boards. Additionally, Warriors suffering with a TBI are
offered a wide range of classes and training to educate them about their conditions in order to
facilitate their rehabilitation. Service members also have the opportunity to participate in TBI
research.

The Naval Medical Center San Diego offers the Overcoming Adversity and Stress Injury
Support (OASIS) program for service members who required treatment when their combat
PTSD has not improved with outpatient treatment, as well as the Post Traumatic Stress Disorder
Intensive Outpatient Program (PTSD IOP) program. Refer to Observation B.3., page 29.




                                                10
Assessment of DoD Wounded Warrior Matters –        Report No. DODIG-2012-120
Wounded Warrior Battalion – West                               August 22, 2012




                    Part I - Noteworthy Practices




                                              11
Assessment of DoD Wounded Warrior Matters –                       Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                              August 22, 2012




                             This Page Intentionally Left Blank




                                              12
Assessment of DoD Wounded Warrior Matters –                          Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                 August 22, 2012



Observation A. Noteworthy Practices for
Wounded Warrior Battalion - West
We observed two noteworthy practices that the Wounded Warrior Battalion-West leadership
instituted with respect to providing quality services for Warriors.

A.1. Use of Free, Publicly Available Online Calendars

A.2. Internships and Educational Opportunities

These noteworthy practices may be applicable for utilization at other U.S. Marine Corps or
Army Wounded Warrior locations, as well as Army Warrior Transition Units, and should be
considered for implementation.




                                              13
Assessment of DoD Wounded Warrior Matters –                        Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                               August 22, 2012




                              This Page Intentionally Left Blank




                                              14
Assessment of DoD Wounded Warrior Matters –                                             Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                    August 22, 2012



A.1. Use of the Free, Publicly Available Online Calendars
    Wounded Warrior Battalion – West integrated use of free publicly available online calendars
    to keep Warriors informed of medical appointments, meetings, and other Warrior transition
    activities. As a result, support staff and Warriors avoided potential conflicts with scheduled
    appointments and meetings and, in addition, Warriors had easier access to leadership
    guidance and other useful information regarding resources.

A.1. Background
It was recognized that internet based capabilities are integral to operations across the
Department of Defense. 9 Free publicly available online calendars are internet based
capabilities in the form of time-management web applications that allow events to be stored
online. Calendars can be viewed from any location that has internet access. Multiple calendars
can be added and shared, allowing various levels of permissions for the users. This enables
collaboration and sharing of schedules between individuals and groups.

It is required to guarantee that all wireless electronic communication transmissions of Warriors’
health information 10 containing individual identifiable health information, 11 protected health
information, or electronic protected health information, 12 are in compliance with the Health
Insurance Portability and Accountability Act (HIPAA). 13 This includes each time Warriors are
reminded of medical appointments by using free publicly available, internet based online
calendars.
9
  Directive-Type Memorandum (DTM) 09-026, “Responsible and Effective Use of Internet-based Capabilities”
Change 3, January 9, 2012.
10
   Health Information is any information, whether oral or recorded in any form or medium, that is created or
received by a health care provider, health plan, public health authority, employer, life insurer, school or university,
or health care clearinghouse; and relates to the past, present, or future physical or mental health or condition of an
individual; the provision of healthcare to an individual; or the past, present, or future payment for the provision of
healthcare to an individual.
11
   Individually Identifiable Health Information is a subset of health information, including demographic
information collected from an individual, and is created or received by a healthcare provider, health plan,
employer, or health care clearinghouse; and relates to the past, present, or future physical or mental health or
condition of an individual; the provision of healthcare to an individual; or the past, present, or future payment for
the provision of healthcare to an individual; and that identifies the individual; or with respect to which there is a
reasonable basis to believe the information can be used to identify the individual.
12
   Protected Health Information is defined as individually identifiable health information, held or maintained by a
covered entity or its business associates acting for the covered entity that is transmitted or maintained in any form
or medium (including the individually identifiable health information of non-U.S. citizens). This includes
identifiable demographic and other information relating to the past, present, or future physical or mental health or
condition of an individual, or the provision or payment of healthcare to an individual that is created or received by
a healthcare provider, health plan, employer, or health care clearinghouse. Electronic Protected Health Information
is individually identifiable health information transmitted by electronic media and/or maintained in electronic
media.
13
   The Health Insurance Portability and Accountability Act is a US law designed to provide privacy standards to
protect patients' medical records and other health information provided to health plans, doctors, hospitals and other
health care providers. Developed by the Department of Health and Human Services, these standards provide
patients with access to their medical records and more control over how their personal health information is used
and disclosed. They represent a uniform, federal floor of privacy protections for consumers across the country.
HIPAA took effect on April 14, 2003.

                                                          15
Assessment of DoD Wounded Warrior Matters –                                         Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                August 22, 2012



The HIPAA Privacy Rule safeguards the privacy of protected health information. The HIPAA
Security Rule, a subset of the HIPAA Privacy rule, safeguards electronic protected health
information, which is individually identifiable health information created, received, maintained
or transmitted in electronic media form by a covered entity. 14

The Department of Health and Human Services issued the HIPAA Privacy Rule and subset
Security Rule and has been given authority to implement and enforce both rules. 15 According
to this Department, the HIPAA Security Rule does not prohibit communication of individual
identifiable health information or protected health information by e-mail or other electronic
means. Information can be sent over wireless electronic communications as long as it is
adequately protected. In general, the U.S. Department of Health and Human Services allows
e-mailing information such as appointment reminders. The U.S. Department of Health and
Human Services asserts that all efforts should be made to ensure e-mails containing an
individual’s health information:

     •   Only contain the minimum amount of information needed
     •   Are only e-mailed to confirmed addresses
     •   Are only e-mailed to persons who consent

The U.S. Department of Health and Human Services also has recommended that appointment
reminders should include appropriate privacy notices.

A.1. Discussion
During this assessment, we observed that WWBn-West used GOOGLE, one of many free
publicly available online calendars to keep Warriors, staff and support personnel informed of
Warriors’ medical appointments, meetings, and other activities. The Wounded Warrior
Regiment explained that no policy existed that mandated the use of internet-based calendars for
Warriors or staff. The Wounded Warrior Regiment stated however that the use of internet-
based calendars was found to be a solid organizational tool for Wounded Warriors as well as
staff at WWBN-West and was adopted as a best practice.

Regarding the proper handling of Warriors’ medical information posted on internet based,
online calendars, in accordance with DoD 6025.18-R, “DoD Health Information Privacy
Regulation,” January 2003and NAVMEDCENINST 6025.1, (Navy Medical Center Instruction)
all Wounded Warrior staff members were held to the same Health Insurance Portability and
Accountability Act requirements as Naval Medical Center and Naval Hospital Staff and the
appropriate training was required for all staff members.




14
   A Covered Entity is a health plan, a health care clearinghouse, or a health care provider who transmits health
information in electronic form in connection with a transaction for which Health and Human Services has adopted
a standard.
15
   NIH Publication Number 03-5388, “Protecting Personal Health Information in Research: Understanding the
HIPAA Privacy Rule,” Page i.


                                                       16
Assessment of DoD Wounded Warrior Matters –                             Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                    August 22, 2012

The Wounded Warrior Battalion-West Commander stated that in regards to the use of
GOOGLE calendar, Warriors posting their schedule on GOOGLE calendar was for him a “best
practice.”

Additionally, one WWBn-West Company First Sergeant (E-8) explained that the use of
GOOGLE calendar enabled WWBn-West staff to follow what each Warrior was doing to
achieve medical recovery and facilitate transition to civilian life, when appropriate. He
described GOOGLE calendar as user-friendly because it could be tracked without use of a
government computer. He concluded that the use of GOOGLE calendar had been very helpful
because most of the young Marines used smart-phones to maintain their schedules.

The Active Duty NCO Warriors (E-5 thru E-7) also explained that all Warriors have g-mail
accounts on which they can use the GOOGLE calendar function.

Furthermore, the Recovery Care Coordinators conveyed their conviction that the use of
Personal Digital Assistants had been beneficial for some Warriors and the use of its GOOGLE
calendar function had enabled Warriors to effectively track and attend appointments. The
Recovery Care Coordinators noted that the use of GOOGLE calendar especially helped
Warriors with TBI-related memory problems to stay on schedule.

A.1. Conclusion
During our assessment, we observed that the Wounded Warrior Battalion-West had integrated
the use of a free publicly available online calendar as a mechanism to keep Warriors informed
of medical appointments, meetings, and other key activities. This had allowed support staff and
Warriors to avoid potential conflicts with their various scheduled appointments and meetings. It
also enabled easier access to leadership guidance regarding resources being made available to
Warriors intended to facilitate their healing and transition.

We observed that guidance was in place that held Wounded Warrior staff members to the same
Health Insurance Portability and Accountability Act (HIPAA) requirements as Naval Medical
Center and Naval Hospital staff and that the appropriate training was required for all Wounded
Warrior staff members. However, if the scope of the use of internet based, online applications to
manage Wounded Warrior transitions increases beyond medical appointments, meetings, and
other Warrior transition activities, the policies for handling electronic protected health
information and compliance with the HIPAA Privacy Rule and Security Rule need to be
adjusted appropriately.

A.1. Warrior Speak
Refer to Part III, A.1 for Warriors’ remarks that amplify our observations, discussions,
conclusions and recommendations.

A.1 Recommendations, Management Comments, and Our Response

      A.1.1. We recommend the Commander, Wounded Warrior Regiment ensure
      all procedures for handling electronic protected health information are
      compliant with HIPAA requirements.


                                               17
Assessment of DoD Wounded Warrior Matters –                         Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                August 22, 2012

Commandant of the Marine Corps Comments
The Commandant of the Marine Corps concurred with comment to our recommendation. The
Commandant explained that the Wounded Warrior Regiment ensures HIPAA compliance to
include annual personnel training requirements.

Our Response
The Commandant of the Marine Corps comments are responsive and the actions meet the intent
of the recommendation. No further action is required.

       A.1.2. We recommend the Commander, Wounded Warrior Regiment implement
       policy that ensures the use of HIPAA compliant, wireless electronic
       communications to notify Warriors of medical appointments is only done with the
       consent of the Warrior, and that the notifications contain applicable privacy
       notices, the minimum amount of information needed, and are only e-mailed to
       confirmed addresses.

Commandant of the Marine Corps Comments
The Commandant of the Marine Corps concurred with comment to our recommendation. The
Commandant stated that the Wounded Warrior Regiment will implement the recommended
policy regarding the handling of wireless electronic communications within 90 days.

Our Response
The Commandant’s comments are responsive and the actions meet the intent of the
recommendation. However, in response to the final report, we request that the Commander,
Wounded Warrior Regiment provide a copy of the signed policy regarding the handling of
wireless electronic communications.




                                              18
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012



A.2. Internships and Educational Opportunities
 WWBn-West staff identified internships and educational opportunities for Warriors based on
 “end-state transition desires” and future job potential. As a result, Warriors were linked to
 internships and/or educational activities appropriate for their healing and transition.

A.2. Background
The current guidance for attendance in an internship, educational endeavor, or employment was
established in the Wounded Warrior Regiment’s Handbook. The handbook articulated that the
Wounded Warrior Regiment’s Lines of Operation Programs are: Mind, Body, Spirit, and
Family. Mind encompassed internships, education, and employment. WWBn-West’s observed
practice was that Marines were encouraged to participate in internships through OPERATION
WAR FIGHTER, sponsored by the Department of Defense. For education, Marines were
encouraged to participate in off-duty education initiatives using applicable Veterans Affairs
(VA) education benefit programs, including the GI Bill, Tuition Assistance and Veterans
Educational Assistance. In addition, Marines were offered opportunities to undergo vocational
training utilizing on-base assets. Internships and educational opportunities were acquired and
developed by the Internal Transition Office.

A.2. Discussion
During this assessment, we observed that WWBn-West made a concerted effort to have
Warriors engaged in work internships and educational opportunities that were based upon
Warriors’ desires and needs, but also ensured these activities were committed to a productive
use of Warrior’s time in support of their recovery and their transition.

The WWBn-West Commander explained that, in regards to internships and education, all
Warriors were required to submit a mandatory 30-hour workweek schedule which included
internships and classes. He went on to explain that since the implementation of the 30-hour
workweek schedule program, Warriors were no longer reported to be spending excessive time
sitting around the barracks watching TV or playing video games.

The Active Duty Staff Sergeant Warriors (E-6) indicated in interviews that internships and
educational opportunities had been based upon their professional interests and needs. The
consensus of the group was that their definition of a successful transition was to “finish school
so we can get a job.” Two of the Warriors in the group interview had already attended
“Troops-to-Truckers”, a vocational program, and another Warrior had taken some college
classes in support of his transition to civilian life.

The Active Duty Junior Enlisted Warriors (E-1 thru E-3) explained that their daily routine
included 5 hours of productive time which included involvement in internships and schooling.

Furthermore, the Recovery Care Coordinators explained that most Warriors utilized their time
to their best advantage with educational pursuits and internships.



                                                19
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012



A.2. Conclusion
During our assessment, we observed that the Wounded Warrior Battalion-West identified
internships and educational opportunities for Warriors based on “end-state transition desires”
and future job interests and potential. Warriors were linked to internships and/or educational
activities appropriate for their recovery and transition. We determined that overall Warriors
believed that the internships and educational opportunities available were productive.

A.2. Warrior Speak
Refer to Part III, A.2. for “Warrior Speak” that amplifies this observation.

A.2. Recommendation
       This noteworthy practice may be applicable for utilization at other Wounded
       Warrior Battalions as well as Army Warrior Transition Units, and should be
       considered for prompt implementation, where appropriate.




                                                20
Assessment of DoD Wounded Warrior Matters –                           Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                  August 22, 2012



Observation B. Noteworthy Practices for Navy
Medicine Supporting Wounded Warrior
Battalion-West
We observed three noteworthy practices that the leadership of Navy Medicine units supporting
Wounded Warrior-West instituted with respect to providing quality services for Warriors.

B.1. Equal Access to Medical Care

B.2. Consolidation of Warrior Services

B.3. Post-Traumatic Stress Disorder Services

These noteworthy practices may be applicable for utilization at other U.S. Marine Corps
Wounded Warrior locations, as well as Army Warrior Transition Units, and should be
considered for implementation.




                                               21
Assessment of DoD Wounded Warrior Matters –                        Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                               August 22, 2012




                              This Page Intentionally Left Blank




                                              22
Assessment of DoD Wounded Warrior Matters –                             Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                    August 22, 2012



B.1. Equal Access to Medical Care
Warriors and support staff did not report any difference in access to medical care for Active
Duty and Reservists. As a result, we found no indication that medical care delivery was
provided unequally between Active Duty and Reserve Wounded Warriors.

B.1. Background
In May 2010 United States Senator Ron Wyden and Congressman Kurt Schrader contacted the
Inspector General, Department of Defense, concerning medical treatment entitlements available
to the returning soldiers of the Oregon National Guard. They requested we investigate this issue
as well as the medical treatment entitlements for Guard and Reserve soldiers at all Warrior
Transition Units and mobilization and demobilization.

B.1. Discussion
During this assessment we did not find any evidence that access to medical care or medical care
delivery was provided unequally to Active Duty and Reservists. Note that between April 2007
and April 2011 WWBn-West had a total of three Reservists either assigned or attached.

One Primary Care Manager (PCM) at Naval Medical Center San Diego stated there was no
difference in access to medical care between Reserve and Active Duty personnel. The PCM
acknowledged that there have been complaints in the past that Reservists were not getting the
same quality care. In her opinion, this resulted in a lot of outside interest. She concluded by
stating how she felt that Reservists’ access to medical care is very good now.

The WWBn-West PCM at Naval Hospital Camp Pendleton indicated there were no differences
in access to medical care services received by Active Duty and Reservists. The PCM explained
that the challenges with Reservists, in regards to medical care, were primarily greater with
administrative paperwork, not medical care access or delivery.

The PCMs at Naval Hospital Twentynine Palms stated that all recovering service members,
regardless of status (Active Duty or a Reservist) received the same quality medical care. These
PCMs also felt that there were no differences in the access to medical care between those
serving in Active Duty and the Reserves.

The Nurse Case Managers at Naval Medical Center San Diego all indicated that there was no
difference in access to medical care between the Active Duty and Reservist Warriors. They
commented that every Warrior received any surgery they needed.




                                               23
Assessment of DoD Wounded Warrior Matters –                                          Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                 August 22, 2012

The Nurse Case Managers at Naval Medical Camp Pendleton also expressed that there was no
difference in access to medical care between the Active Duty and Reservist Warriors. They
explained that in reference to access for Reservists, there was effective coordination with
Utilization Management to ensure everyone received required appointments. 16

The Nurse Case Managers at Naval Hospital Twentynine Palms expressed that there was no
difference in access to medical care between the Reservist and Active Duty Warriors. They
explained that it was more difficult to manage Reservist Warriors due to requirements but
assured us that the care provided was not different.

Furthermore, the Recovery Care Coordinators (RCCs) at Naval Medical Center San Diego
reiterated that there was no difference in access to medical care services provided to the Active
Duty and Reservist Warriors.

The Camp Pendleton RCCs also stated that there was no difference in access to medical care
between the Active Duty and Reservist Warriors. The RCCs commented though, that the
Reservist Warriors often had problems with their administrative paperwork.

The Naval Hospital Camp Pendleton, Traumatic Brain Injury (TBI) Clinic staff also believed
that there was no difference in Active Duty and Reserve Personnel access to medical care. They
added, however, that the Reservists were always challenged with more administrative
paperwork as compared to Active Duty Warriors.

The WWBn-West Detachment-Twentynine Palms Medical Administration Staff Non-
Commissioned Officer-in-Charge (NCOIC) and section leaders explained they had additional
administrative paperwork that applied specifically to Reservist Warriors. This section tracks
and manages the non-medical and medical care of wounded, ill and injured Reservist Marines.
This section usually only extends Reserve Marine Warriors’ orders for short periods so that they
require regular renewal. Sometimes the administrative renewal process is not done correctly
and a Reservist Marine will not get paid.

B.1. Conclusion
The medical and administrative personnel that we interviewed indicated equitable access to
medical care was provided for Active Duty and Reservist Warriors. However, we did note that
some Reservist Warriors experienced unique administrative difficulties, although there were no
indications that these administrative difficulties significantly disrupted Reservists’ healthcare.

B.1. Warrior Speak
Refer to Part III, B.1. for “Warrior Speak” that amplifies this observation.

16
   The key elements of an effective Utilization Management process (utilization review, case management, and
discharge planning) provide a basic foundation for evaluation of care and services, and development of best clinical
practices such as practice guidelines, critical pathways, and clinical outcomes studies. Utilization review is a
systematic evaluation of the necessity, appropriateness, and efficiency of the use of health care services,
procedures, and facilities. It includes reviews and evaluations of the following: 1) Prospective: Proposed admission
or course of treatment. 2) Concurrent: Care while it is being provided. 3) Retrospective: Care after it is provided.


                                                        24
Assessment of DoD Wounded Warrior Matters –                         Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                August 22, 2012

B.1. Recommendation, Management Comments, and Our Response
      B.1. We recommend the Commander, Wounded Warrior Regiment ensure
      relevant battalion staff and administration personnel who support Reservist
      Warriors receive adequate training so that Reservist Warriors’ recovery and
      transitions are not delayed or negatively affected by administrative
      procedures.

Commandant of the Marine Corps Comments
The Commandant of the Marine Corps concurred with comment to our recommendation. The
Commandant agreed that all personnel within the Wounded Warrior Regiment and WWBn-
West staff should have adequate knowledge of the unique administrative requirements of the
Reservists on Medical Hold and in the Integrated Disability Evaluation System process. The
Commandant explained that there is no difference between how a mobilized Reserve Marine is
administratively handled in comparison to an Active Duty Marine at the end of enlistments or
officer’s contracts. He further explained that the Wounded Warrior Regiment provides staff
reserve-specific computer-based training modules and the Regiment’s virtual resource center
includes information on reserve-specific issues.

Our Response
The Commandant’s comments are responsive and the actions meet the intent of the
recommendation. No further action is required.




                                              25
Assessment of DoD Wounded Warrior Matters –                                         Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                August 22, 2012



B.2. Consolidation of Warrior Transition Services
 Naval Hospital Camp Pendleton developed a mechanism for consolidating services vital to
 Warrior transition processes. As a result, key resources were co-located to advocate for and
 deliver Warriors services in a unified engagement to promote and expedite the Warriors’
 transition to civilian life.

B.2. Background
One key resource assisting Warrior recovery and transition was the Disability Evaluation
System (DES) 17 Attorney. The DES Attorney, per the Integrated Disability Evaluation System
(IDES), ensured legal counsel was available to the Wounded Warrior at no cost. 18 The DES
Attorney’s office supported the entire base and was not specific to the Wounded Warrior
battalion even though a large number of clients were from WWBn-West.

Another key resource was the Veterans Affairs Military Service Coordinator (VA MSC). The
VA MSC counsels Warriors on the VA’s portion of the IDES process, help Warriors with
their claim development, including the completion of VA Form 21-0819 (Parts II-IV), and
determine what specific examinations and consults will be required to fully examine and
document the referred and claimed medical condition(s). The MSC, depending on local
arrangements, will schedule the appointments for the necessary VA Compensation and
Pension examinations.

A third key resource was the Limited Duty (LIMDU) coordinator. The LIMDU coordinator
was appointed by the Marine commander and serves as the command’s point of contact during
the IDES processing.




17
   According to DoD regulations, the Disability Evaluation System should include a medical evaluation board
(MEB), a physical evaluation board (PEB), an appellate review process and a final disposition. The services should
assign each member a PEB liaison officer to help navigate the system. The MEB is an informal process initiated
by the medical treatment facility. The MEB includes at least two active duty physicians who compile, assess and
evaluate the medical history of a service member and decide whether the individual should return to duty. If the
MEB determines that the member has a medical condition that is incompatible with continued military service, the
case is referred to a PEB. The PEB is a formal fitness-for-duty and disability determination that may recommend
one of the following four outcomes: 1) Return the member to duty; 2) Place the member on the temporary
disability retired list (TDRL); 3) Separate the member from active duty, or 4) Medically retire the member.
Balancing the significance of the member’s condition against the requirements and duties that the service member
is expected to perform determines the PEB outcome.
18
    Directive-Type Memorandum (DTM) 11-015, “Integrated Disability Evaluation System (IDES)”, 19 December
2011, establishes procedures for the respective Military Departments to ensure legal counsel is available to the
Service Member during the IDES in accordance with the standards for legal support. In accordance with Military
Department regulations, uniformed or civilian legal counsel of the Military Department concerned may, at no cost
to a member, represent the member before DoD at all steps of the PEB determinations. Uniformed or civilian legal
counsel of the Military Department concerned may represent a member before the VA during the pre-separation
portion of the IDES process if the representative complies with part 14 of title 38, Code of Federal Regulations.

                                                       26
Assessment of DoD Wounded Warrior Matters –                                           Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                  August 22, 2012

A fourth key resource important to Warrior recovery and transition was the Navy Hospital
Medical Board staff. The Navy Hospital Medical Board staff was responsible for Temporary
Limited Duty Boards, Medical Evaluation Boards, and Temporary Disability Retired Lists. 19

A fifth key resource was the Physical Evaluations Board 20 Liaison Officer (PEBLO), who was
responsible for evaluating all cases of potential physical disability.

In November, 2011, the Naval Hospital Camp Pendleton’s Integrated Disability Evaluation
System (IDES) office moved to a building less than 100 yards from the current WWBn-West
barracks. The building consolidated the entire IDES team to include: the PEBLOS; both the
military personnel and civilians who initiate the IDES process and the military personnel who
advise service members on their ratings; the Veterans Administration Military Service
Coordinator responsible to review Service members medical records and schedules Veterans
Administration clinical examinations; and the IDES attorney responsible to review board
packages with Service members prior to packages being signed and sent to the Physical
Evaluation Board in Washington D.C., as well as assisting Service member in the event the
findings are different than expected and a reconsideration or formal board hearing is requested.




19
   The Naval Medical Center San Diego, Medical Boards staff is responsible for: 1) Temporary Limited Duty
Boards (TLD) This office monitors active duty (Navy and Marine Corps) personnel who incur a condition, illness
or serious injury that temporarily limits their ability to perform their assigned duties. For Navy and Marine Corps
members, the period of Temporary Limited Duty (TLD) will not exceed 16 months, cumulative, before they are
either returned to Full Duty or referred to the Physical Evaluation Board (PEB) for fitness to remain on active duty
determination. Reserve personnel are not eligible to be placed on TLD; their cases are forwarded to the PEB to
determine whether they are physically qualified to remain in a reserve status. If initial TLD is granted for 8
months, and an extension or renewal is required, the medical treatment facility shall submit the request to service
headquarters (Commander, Navy Personnel Command, Millington, TN or Commandant of the Marine Corps,
Quantico, VA), as appropriate. Service headquarters may approve additional TLD or direct the medical treatment
facility to refer the case to the PEB. 2) Medical Evaluation Board (MEB) The Medical Board office processes
medical evaluation boards (MEB) which are then forwarded to the Physical Evaluation Board (PEB) located at the
Washington Navy Yard, Washington, DC. It is the professional judgment of the attending physician and not the
decision of the service member whether a MEB should be convened. Service personnel should know that the
attending physician has a responsibility to both the service member and the military branch of service to dictate a
medical board when the service member has incurred a condition, illness or serious injury that is considered
unfitting for further military service. The PEB, alone, determines whether or not the service member rates a
disability finding. SECNAVINST 1850.4 series governs this process. 3) Temporary Disability Retired List
(TDRL) The Medical Board office schedules service members who receive an unfit finding from the Physical
Evaluation Board of 30% or greater with a TDRL reevaluation every 18 months as service headquarters may direct.
The condition is considered temporary and must be evaluated periodically over a five year period in accordance
with Title 10, United States Code, Section 1210.
20
   The PEB is a fact-finding board that evaluates all cases of physical disability on behalf of the Marine/Sailor and
the Service in accordance with the Secretary of the Navy Instruction 1850.4E (Disability Evaluation Manual). The
PEB investigates the nature, cause, degree of severity, and probable permanency of the disability concerning the
service member referred to the board. The board evaluates the physical condition of the service member against
the physical requirements of his/her particular office, grade, rank or rating. The PEB provides a full and fair
hearing as required by § 1214, Title 10, United States Code (10 U.S.C 1214), and makes findings and
recommendations required by law to establish the eligibility of a service member to be retained on active duty due
to fitness, or separated or retired from the service because of a physical disability.


                                                         27
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012

B.2. Discussion
During our assessment, we observed that Naval Hospital Camp Pendleton had co-located five
key services into one central location within the hospital for ease of Warrior access, continuity,
and communication. The Camp Pendleton VA MSC, Physical Evaluations Board Liaison
Officer, Medical Transcription Supervisor, all considered the co-location of these services into
one central location as exemplary.

The DES Attorney Advisor explained that their office and staff are co-located with the medical
board office in the hospital and the co-location has turned out to be a key enabler for the
Warriors. Because of the co-location, the DES attorney could establish positive working
relationships with all those involved. Reportedly, this co-location has accelerated the disability
process as well as improved the quality of medical board administrative packages.

Furthermore, the Nurse Case Managers initially responsible for making all appointments for
Warriors explained that it had been made easier since most services were offered in a single
location.

B.2. Conclusion
Co-locating five key services vital to Warriors’ recovery and transition into one central location
at Naval Hospital Camp Pendleton was reported to be a positive initiative. The co-location of
services whose processes depended upon each other to support Warriors has enhanced their
recovery and transition.

B.2. Warrior Speak
Refer to Part III, B.2. for “Warrior Speak” that amplifies this observation.

B.2 Recommendation
       This noteworthy practice may be applicable for utilization at other Wounded
       Warrior Battalions, as well as Army Warrior Transition Units, and should be
       considered for prompt implementation, where appropriate.




                                                28
Assessment of DoD Wounded Warrior Matters –                         Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                August 22, 2012



B.3. Post-Traumatic Stress Disorder Services
 Naval Medical Center San Diego offered two Post-Traumatic Stress Disorder treatment
 programs to assist Warriors in their recovery and transition.

B.3. Background
The Naval Medical Center San Diego implemented two programs that assisted Warriors with
Post-Traumatic Stress Disorder.

One program was the Overcoming Adversity & Stress Injury Support (OASIS). OASIS was a
10-week residential treatment program designed to assist Active Duty service members and
Guard and Reserve service members on activated status when their combat Post Traumatic
Stress Disorder (PTSD) had not improved with outpatient treatment. The program began with a
comprehensive 2- week intensive stabilization process providing treatment focused solely on
developing coping skills. Additionally, the program offered medication management, cognitive
behavioral therapies, and intensive focus on sleep problems, group and individual therapy,
vocational rehabilitation, integrative treatment approaches such as yoga and meditation, and
weekly opportunities for community outreach. The goal of community outreach was interaction
between Warriors and members of the local community and representatives of institutions
within the local community.

The second program was the Post Traumatic Stress Disorder Intensive Outpatient Program
(PTSD IOP). PTSD IOP was an evidence-based 8-week therapeutic curriculum designed to
help Wounded Warriors struggling with combat stress symptoms. The program began in
February 2010 and was based upon research into the effects of traumatic stress. The program
mirrored successful programs at Walter Reed Army Medical Center, the Department of
Veterans Affairs, and Landstuhl Regional Medical Center. It emphasized the development of
adaptive coping skills to include anger management, relaxation training, effective
communication, parenting, and relationship skills. A family support and education group was
offered each week for spouse and family members.

B.3. Discussion
The OASIS program staff explained that the program assisted Warriors with recovery from
PTSD. After Warriors were discharged from OASIS, they continued with after-care meetings
twice a month and received ongoing support from Armed Services YMCA and Veterans Village
of San Diego, as well as collaboration with Veterans Affairs (VA) in support of vocational
development.

Furthermore, the Nurse Case Managers at Naval Hospital San Diego described how the PTSD
IOP program had assisted Warriors with PTSD. They explained that the PTSD IOP program
was started locally by a psychologist based on a similar program at the Army hospital in
Landstuhl Germany. It was a volunteer program. The program was initiated because the
available Mental Health resources could not keep up with the demand for mental health
services. The Defense and Veterans Brain Injury Center headquartered in Washington DC, with
an office at Camp Pendleton, provided significant support.
                                              29
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012

B.3. Conclusion
During our assessment, we observed that Naval Medical Center San Diego Hospital instituted
the OASIS and PTSD IOP programs for Warriors to address their PTSD issues, which has had a
beneficial impact on the recovery of some Warriors.

B.3. Warrior Speak
Refer to Part III, B.3. for “Warrior Speak” that amplifies this observation.

B.3. Recommendation
       This noteworthy practice may be applicable for utilization at other Wounded
       Warrior Battalions, as well as Army Warrior Transition Units, and should be
       considered for prompt implementation wherever needed.




                                                30
Assessment of DoD Wounded Warrior Matters –           Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                  August 22, 2012




                               Part II - Challenges




                                              31
Assessment of DoD Wounded Warrior Matters –                       Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                              August 22, 2012




                             This Page Intentionally Left Blank




                                              32
Assessment of DoD Wounded Warrior Matters –                             Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                    August 22, 2012



Observation C. Challenges for Wounded Warrior
Battalion- West
We identified nine challenges that need to be addressed by WWBn-West’s leadership and staff
to help ensure the most successful and effective support for the care, healing, and transition of
Warriors. These challenges are identified as follows:

       C.1. Lengthy Transition Times

       C.2. Lack of Dedicated Primary Medical Care Management for Camp Pendleton
            Warriors

       C.3. Use of Warriors for Battalion Staff Duties

       C.4. Consideration of Warriors Recovery and Transition Location Preferences

       C.5. Lack of Sufficient Support for Warriors Family Members and Support Persons

       C.6. Lack of Adequate Computer System Interfaces Used to Track Warrior Recovery
            and Transition Progress

       C.7. Travel Challenges for Warriors at Twentynine Palms

       C.8. End of Active Duty Service Dates Impact on US Government Military
            Identification Cards and Base Pass/Vehicle Decals Expiration Dates

       C.9. Ineligibility to Transfer Unused Post 9-11 G.I. Bill Benefits

We believe that addressing these challenges will increase the effectiveness of WWBn-West’s
management and staff in providing quality and timely care and services in support of the
recovering Marines and their transition.




                                                33
Assessment of DoD Wounded Warrior Matters –                       Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                              August 22, 2012




                             This Page Intentionally Left Blank




                                              34
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012



C.1. Lengthy Transition Time
 Warriors’ healing and transition was comprised of treatment, a medical board, a physical
 evaluation board, a transition phase, and reintegration back to military duty or to civilian
 status. WWBn-West Warriors spent an average of 24 months healing and transitioning which
 was longer than the length of time established by the Integrated Disability Evaluation System.
 As a result, the prolonged transition period had potential negative effects on some Warrior’s
 healing and transition.

C.1. Background
Transition Timeline (Reference Figure 2, page 36)
The first step in the transition process is to treat the Warrior until it is determined that the
Warrior has reached Optimal Medical Benefit. Optimal Medical Benefit is defined by DoD
Instruction 1332.38, “Physical Disability Evaluation,” November 14, 1996, as the point of
hospitalization or treatment when a member’s progress appears to be stabilized; or when,
following administration of essential initial medical treatment, the patient’s medical prognosis
for being capable of performing further duty can be determined.

The Integrated Disability Evaluation System begins at the point it is determined a Warrior has
reached Optimal Medical Benefit. The goal to complete the Integrated Disability Evaluation
System is 295 calendar days for the Active Component and 305 days for the Reserve
Component. To accomplish this goal the IDES is scheduled in four phases:

   •   Medical Evaluation Board Phase: Active Component- 100 calendar days
                                       Reserve Component- 140 calendar days

   •   Physical Evaluation Board Phase: Active Component: 120 calendar days
                                        Reserve Component: 120 calendar days

   •   Transition Phase: 45 calendar days (may be exceeded to allow service member to take
       authorized leave and/or permissive temporary duty)

   •   Reintegration Phase: 30 calendar days (Active Duty Only)

If at the point of Optimal Medical Care, it is determined that a Warrior cannot be returned to
full duty status and his or her ability to continue military duty, even in a medically restricted
status, remains in question, it is the responsibility of the medical community to refer that
Warrior to a Medical Evaluation Board (MEB). On the basis of medical examinations and the
Warrior’s medical records, the MEB identifies and documents any conditions that may limit the
Warrior’s ability to serve in the military.

The Warrior’s case is then evaluated by a Physical Evaluation Board (PEB) to make a
determination of fitness or unfitness for duty. If the Warrior is found to be unfit due to medical
conditions incurred in the line of duty, the PEB assigns a percentage rating for those unfit
conditions and the Warrior is discharged.

                                                35
Assessment of DoD Wounded Warrior Matters –                             Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                    August 22, 2012



                      Figure 2. Integrated Disability Evaluation System




C.1. Discussion
According to the Wounded Warrior Regiment, the average number of days a Warrior spent from
the time they entered WWBn-West until they transitioned out of WWBn-West was
approximately 24 months. For comparison, the average number of days a Warrior spent from
the time they entered WWBn-East (the other Marine Corps transition battalion) until they
transitioned out of WWBn-East was also approximately 24 months. Furthermore, the average
number of days the Medical Evaluation Board took for a Warrior in WWBn-West was 197
days. For comparison, the average number of days the Medical Evaluation Board took for a
Warrior in WWBn-East was 245 days. Additionally, a data review from September 2010
indicated that for 22% of all Warriors, over 3 years had passed since their original injuries with
no referral to a Medical Evaluation Board or a return to duty.

In September, 2011, WWBn-West organized an Operational Planning Team to assess best-
practices and shortfalls across the battalion. As a result, in February, 2012, WWBN-West Order
3010.1, “Campaign Plan,” was published in order to focus the battalion efforts and standardize
processes across all five Lines of Operation, (Medical, Mind, Body, Spirit, and Family). The
standardization of these processes allowed the battalion’s main effort, the Recovery Team, to



                                               36
Assessment of DoD Wounded Warrior Matters –                            Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                   August 22, 2012

accurately track individual Warriors through the four phases of their medical recovery as well as
focus all approved assets and resources on the individual Marine at the appropriate time.

In November, 2011, the Naval Hospital Camp Pendleton’s Integrated Disability Evaluation
System (IDES) office moved to a building less than 100 yards from the current WWBn-West
barracks. The building consolidated the entire IDES team to include: the PEBLOS; both the
military personnel and civilians who initiate the IDES process and the military personnel who
advise service members on their ratings; the Veterans Administration Military Service
Coordinator responsible to review Service members medical records and schedules Veterans
Administration clinical examinations; and the IDES attorney responsible to review board
packages with Service members prior to packages being signed and sent to the Physical
Evaluation Board in Washington D.C., as well as assisting Service member in the event the
findings are different than expected and a reconsideration or formal board hearing is requested.
Additionally more leadership and administrative support was identified and hired. These
actions, in conjunction with WWBn-West’s diligence in ensuring that necessary documentation
for the IDES process was submitted in a timely manner resulted in Camp Pendleton advancing
from one of the poorest IDES performing military treatment facilities to one of the top
performers within the Department of the Navy. As of May, 2012, the number of WWBn-West,
Camp Pendleton Marines who have been in the MEB Phase beyond the 100 day goal is less
than 5 percent.

During our assessment, we observed that the Warriors, WWBn-West staff, medical personnel
and other Warrior support personnel perceived that the length of the medical board process
attributed to lengthy transition times.

The Wounded Warrior Bn-West commander commented that the “long pole in the tent” is the
medical board. He explained that the average time a Warrior was in his battalion was
approximately 15 to 16 months. In his opinion, the ideal goal for a Warrior to heal and
transition in the Warrior battalion would be 12 months.

A WWBn-West Company First Sergeant (E-8) explained that many Warriors going through the
medical board process complained that the medical board process took too long.

During a group interview with the Staff Sergeant Warriors (E-6), one Warrior explained that he
had to work with his Medical Board Liaison Officer (similar to a PEBLO) in San Diego for over
1 year before his medical package finally was sent in to start his medical board.

A Warrior Primary Care Manager explained that the current medical board process had to
change because the requirements were too intense. She specifically cited the requirements for
computed tomography scans and neuro-psychiatric testing. She went on to explain that the
primary focus should be on transitioning Warriors more quickly than the current process.

The Behavioral Health team at the Camp Pendleton Deployment Health Center also referred to
the medical board process as “too long.”




                                               37
Assessment of DoD Wounded Warrior Matters –                             Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                    August 22, 2012

Two Warrior Battalion volunteers with experience working with Vietnam Veterans, homeless
veterans, and veterans of Iraq and Afghanistan deployments acknowledged that there were too
many “trappings” in the current transition process that made it difficult for Warriors to
transition.

More importantly, during our assessment we also observed that Warriors, WWBn-West staff,
assigned medical personnel, and other Warrior support personnel perceived that the lengthy
transition times in the Warrior battalion negatively affected some Warriors’ recovery and
transition.

A Warrior Company First Sergeant (E-8) was concerned about the length of time Warriors were
in the battalion. He described that his biggest challenge was how to keep the Warriors
motivated during the prolonged periods they had to wait for their medical boards.

A Warrior Primary Care Manager explained that it was important to figure out how to transition
Warriors in a timelier manner because, in her opinion, the longer a Warrior stayed in the
Warrior battalion, the more likely a Warrior would abuse alcohol or take risks that would
ultimately get them into trouble.

The TBI Clinic staff at the Naval Hospital Camp Pendleton noted that the more time Warriors
spent in the “man cave” environment at the Warrior battalion, the less productive and more
frustrated the Warriors became. The TBI Clinic staff said that the Warriors with whom they
dealt at the Warrior battalion barracks often felt useless. The staff went on to discuss how they
needed more administrative help with tracking the progress of Warriors’ paperwork, obtaining
Warriors’ records, and assisting Warriors with their medical and physical evaluation boards.

It was also the opinion of the Camp Pendleton Deployment Health Center, Behavioral Health
team that staying in the Warrior battalion for an extended period of time actually put Warriors at
risk of having something negative happening.

According to the Recovery Care Coordinators at Camp Pendleton, free time for a Warrior with
Traumatic Brain Injuries (TBI) was helpful when the Warrior was initially assigned to the
Warrior battalion. They went on to explain that too much free time, which usually occurred the
longer a Warrior was in transition, had negative consequences for Warriors.
The Camp Pendleton Family Readiness Officer offered that she thought the longer the Warriors
remained in the battalion, the sicker they became.

Two Warrior battalion volunteers with experience working with Vietnam Veterans, homeless
veterans, and veterans of Iraq and Afghanistan deployments stated that they felt the current
recovery and transition processes “almost enticed the Warriors to stay sick.”

C.1. Conclusion
We acknowledge the ongoing work that is conducted by the DoD, Department of Veterans
Affairs, and others to rectify the multitude of issues and concerns facing the length of time it
takes for processing the boards, evaluations, and paperwork required for Warriors to transition.
We also acknowledge the proactive work by the WWBn-West to ensure Warriors stay engaged


                                               38
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012

in activities that enhance transition, focus on Warriors’ abilities and build “Espirit de Corps”
throughout the lengthy transition times. However, based on information gathered during this
assessment at all levels, there was a strong belief that the lengthy transition times caused by the
prolonged processing of boards, evaluations, and paperwork was contributing to a negative and
even counterproductive environment for the Warriors which was not conducive to their
recovery and transition.

After our assessment of Camp Lejeune, Wounded Warrior Battalion-East, we recommended
that the Commander, Wounded Warrior Regiment, track each separate phase of the Integrated
Disability Evaluation System (IDES) process and report each time a Warrior exceeded the
prescribed timeline of an IDES phase to Deputy Commandant, Manpower and Reserve Affairs
for action.

The Commanding Officer, Wounded Warrior Regiment concurred with this recommendation.
The Commanding Officer explained that the Wounded Warrior Regiment currently generated a
weekly brief for the Deputy Commandant, Manpower and Reserve Affairs that captured the
status of Warriors in the Medical Board Evaluation and Physical Evaluation Board phases. By-
name rosters of Warrior cases exceeding phase processing goals were provided bi-weekly to the
Bureau of Medicine and Surgery (BUMED). The Commander further explained that there were
ongoing efforts to improve IDES performance. He noted that in addition to hosting regular
BUMED teleconferences with IDES stakeholders, the Deputy Commandant, Manpower and
Reserve Affairs provided Marine Corps leadership with detailed IDES information, which has
resulted in their ability to work closer with the Regional Medical Commanders on specific
issues impacting IDES performance.

C.1. Warrior Speak
Refer to Part III, C.1. for “Warrior Speak” that amplifies this observation.

C.1. Recommendations, Management Comments, and Our Response
       C.1.1. We recommend that the Secretary of the Navy take action to ensure that
       each phase of the Integrated Disability Evaluation System process is accomplished
       within the established timelines for every Warrior assigned or attached to the
       Wounded Warrior Battalions.

Secretary of the Navy Comments
The Secretary of the Navy provided comment to our recommendation. The Secretary explained
that he is committed to ensuring the fair and timely disability evaluation of Recovering
Warriors. Under the current Integrated Disability Evaluation System (IDES) structure, 295 days
appears to be an unrealistic goal. The Department of the Navy (DoN) is continually reviewing
staffing, procedures, and technology to implement the seamless transition of its Marines and
Sailors within the IDES and reduce the average number of days to complete the processing.
Recognizing portions of the IDES process are dependent on processing outside of their control,
the DoN notes important accomplishments in the areas within our control.

Furthermore, the Secretary explained the IDES timeline goal of 295 days was established to
reduce the legacy joint DoD/VA DES processing of 540 days. In April 2012, processing time


                                                39
Assessment of DoD Wounded Warrior Matters –                            Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                   August 22, 2012

for USMC was 316 days and 355 days for Navy. Within the 295 day goal, there are four
phases: Medical Evaluation Board (MEB) Phase (100 days); Physical Evaluation Board (PEB)
Phase (120 days); Transition Phase (45 days); and VA Benefits Phase (30 days). Although DoN
is meeting the MEB and PEB phase goals, they are exceeding the Transition Phase and VA
Benefits Phase by an average of 22 days and 31 days respectively.

Finally, the Secretary commented that to come closer to the 295 day overall IDES goal in a fair
and timely manner, the DoN has implemented the following major actions:

   •   Convened monthly Video Teleconferencing (VTC) involving key IDES personnel from
       BUMED, PEB, VA, and Service Headquarters;
   •   Improved staffing at MEBs in FY11 by hiring 10 doctors and 37 additional case
       managers for those locations needing additional, targeted support and hiring 23
       additional MEB doctors in FY13 will complete resource requirements;
   •   Increased PEB staffing by 47 percent and leveraged a point-to-point case file transfer
       methodology. DoN is currently moving 75 percent of Navy and 69 percent of USMC
       PEB cases through the PEB Phase in less than 120 days;
   •   Significantly reduced average time spent in MEB Phase by leveraging existing
       technology to streamline development of the Narrative Summary (NARSUM).
       Currently, 86 percent of Navy and 73 percent of USMC cases are meeting the 100-day
       goal;
   •   Leveraged existing technologies by instituting the Electronic File transfer of all IDES
       cases and desk-top IT applications to build operational reporting capabilities at the MTF
       using the Veteran’s Tracking Application (VTA);
   •   Presently developing a technology solution and/or process improvement between the
       VA and Service Headquarters regarding the DD-214 transfer to reduce Transition Phase
       and VA Benefits Phase time; and
   •   Senior leadership participation and collaboration across the DoN, within the OSD, and
       with the VA

More detailed information regarding the major actions being implemented are found at
Appendix E, pages 138-139.

Our Response
The Secretary of the Navy’s comments are responsive and meet the intent of the
recommendation. However, in response to the final report, we request that the Secretary
provide an update to determine if the implemented actions have made an overall improvement
to the processing of Marines and Sailors in a fair and timely manner within the IDES process.

       C.1.2. We recommend the Commander, Wounded Warrior Regiment implement
       processes to determine when Warriors’ conditions improve to the point they can be
       released from the Wounded Warrior Battalion and complete their transition at an
       alternate location, as appropriate.




                                              40
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012

Commandant of the Marine Corps Comments
The Commandant of the Marine Corps non-concurred with comment to our recommendation.
The Commandant explained that the Wounded Warrior Regiment has primary oversight on the
non-medical care of wounded, ill, and injured Marines. This care includes transition and
discharge. The Commandant further explained that generally, only the most acute cases are
joined to the Wounded Warrior Regiment. Transferring a wounded, ill, or injured Marine from
a Wounded Warrior Regiment to an “alternate location,” presumably another unit, would defeat
the purpose of having a single unit with oversight and potentially place the wounded, ill, or
injured Marine is a position of being served by a unit less prepared to assist with his or her non-
medical needs.

Our Response
We acknowledge that Marine Corps Order 6320.2E, “Administrative and Processing of
Hospitalized Marines,” November 1, 2007, addresses providing prompt and complete
administrative assistance to injured/ill/hospitalized Marines. Furthermore, Wounded Warrior
Regiment Order 6300.1A, “Administrative Procedures for Acceptance of Wounded, Ill, Injured,
or Hospitalized Personnel to the Wounded Warrior Regiment,” July 27, 2011, identifies the
Wounded Warrior Regiment as having primary oversight on the non-medical care of wounded,
ill, and injured Marines. We consider the Commandant’s comments to be responsive and meet
the intent of the recommendation. No further action is required.




                                                41
Assessment of DoD Wounded Warrior Matters –                                       Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                              August 22, 2012



C.2. Lack of Dedicated Primary Medical Care Manager for
Camp Pendleton Warriors
     Wounded Warriors assigned to Camp Pendleton did not have a dedicated Battalion Surgeon,
     Medical Officer, Battalion Aid Station or appropriate equivalent. As a result, these Warriors
     were assigned to a Primary Care Manager at Naval Hospital Camp Pendleton where they had
     to compete with other beneficiaries for access to care.

C.2. Background
A brief description of a Battalion Aid Station, Battalion Surgeon and/or Medical Officer,
Primary Care Manager, and Internist are provided to clarify the operational environment in
which Observation C.2. is made.

Battalion Aid Station
The mission of the Battalion Aid Station is to serve as the primary medical treatment facility for
the unit, conducting sick-call and primary health services support for the battalion. The
Battalion Aid Station is the focal point for all medical administrative matters for the battalion to
include all Medical Boards. The Battalion Aid Station is under the direction of the Battalion
Surgeon. There are usually two Medical Officers within a Battalion Aid Station, the Battalion
Surgeon and the Assistant Battalion Surgeon, as well as the appropriate number of independent
duty and general duty corpsmen. 21

Battalion Surgeon and/or Medical Officer
The Battalion Surgeon or Medical Officer is a special staff officer who advises the battalion
commander on matters pertaining to the medical and healthcare support of battalion personnel
and supervises patient treatment, planning, and organization. 22

Primary Care Manager (PCM)
A Primary Care Manager performs routine medical duties of a general practitioner and
maintains the medical welfare of patients. PCMs diagnose and treat patients suffering from
diseases and disorders and conduct routine medical examinations for organic and functional
diseases and abnormalities using standard tests and procedures as well as referring patients to
specialty medical care and managing the overall integrated care of patients. 23

Internist
An Internist diagnoses and treats patients suffering from disease and disorders of internal
organs. 24


21
   United States Marine Corps Field Training Battalion-East, Camp Lejeune, Field Medical Service Technician
1501
22
   United States Marine Corps Field Training Battalion-East, Camp Lejeune, Field Medical Service Technician
1501
23
   Manual of Navy Officer Manpower and Personnel Classifications, Volume I
24
   Manual of Navy Officer Manpower and Personnel Classifications, Volume I


                                                      42
Assessment of DoD Wounded Warrior Matters –                             Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                    August 22, 2012

C.2. Discussion
During our assessment we observed that the Warriors and WWBn-West staff perceived that the
Camp Pendleton Warriors’ recovery and transitioning was negatively affected because the
battalion at Camp Pendleton did not have a dedicated Battalion Aid Station, dedicated PCM, or
equivalent medical services support capability appropriate to support the Warriors physically
located at Camp Pendleton.

During our group interview with the Active Duty Senior Enlisted Warriors (E-7 and E-8) at
Camp Pendleton, they all agreed that the battalion needed a Battalion Aid Station.

Likewise, the Active Duty Staff Sergeant Warriors (E-6) at Camp Pendleton all agreed that the
battalion needed its own medical officer.

The Active Duty Sergeant Warriors (E-5) at Camp Pendleton explained that the battalion
needed its own medical officer and the correct number of corpsmen. They explained that
because they did not have these, it took up to 3 weeks to medically in-process into the battalion
and they had problems getting prescriptions filled and medical appointment referrals.

The Active Duty Corporal Warriors (E-4) at Camp Pendleton explained that the battalion
needed a doctor or medical officer. One Warrior described how their current medical officer
saw a lot of other base personnel so there were only two or three appointments a day for the
Warriors. Another Warrior stated they got more timely care when they were back in the fleet
and competed with five times as many people for appointments.

The Junior Enlisted Warriors (E-1 thru E-3) at Camp Pendleton described how they did not
understand why they did not have a medical officer in the Warrior battalion.

Furthermore, one WWBn Company First Sergeant (E-8) explained that the Camp Pendleton’s
Warrior battalion PCM was assigned to the Navy hospital so only approximately six Warriors
could be seen per week. He was concerned that there was no sick-call for the Warriors because
they had no battalion surgeon and indicated that this was a problem. Another senor ranking
member of the WWBn-West Command Staff stated he believed the Warrior battalion needed its
own Battalion Aid Station.

Finally, the WWBn-West Commander stated that the Warrior battalion at Camp Pendleton
needed its own medical officer.

According to the one PCM at Naval Hospital Camp Pendleton, he was the only PCM
responsible for every one of the WWBn-West’s approximately 160 Warriors at the time
of the interview. He explained that he was an Internist assigned to the Naval Hospital
Camp Pendleton and was responsible for the primary care for approximately 650
internal medicine patients in addition to the Warriors. Because of his patient load, he
normally allotted three to four daily appointments to the Warriors. He also normally
conducted four WWBn-West appointments per week to admit Warriors to the battalion.




                                               43
Assessment of DoD Wounded Warrior Matters –                            Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                   August 22, 2012

Besides managing the Warriors’ primary care and his internal medicine patients, he was
responsible for covering the inpatient ward at the Naval Hospital Camp Pendleton once every 4
weeks; it used to be only once every 6 weeks but that had changed due to a decrease in the
number of providers. His ward rounds averaged caring for 4 to 5 internal medicine patients as
well as another 5 family practice patients. His other responsibilities required him to conduct
patient rounds with the family practice providers and have indirect oversight over family
practice residents. Additionally he oversaw up to six sick call appointments per day for
emergencies, medication refills, and other medical needs.

During our assessment, this PCM recommended that someone other than an internal medicine
provider serve as the PCM manager for the Warriors at Camp Pendleton. He explained that
only ten percent of the Warriors had true internal medicine needs. He further explained that the
Warriors needed their own dedicated PCM, not someone who was responsible for an entirely
separate patient population besides the Warriors. He recommended that a family practice
physician, physician assistant or nurse practitioner could be utilized. A “collateral” internal
medicine physician, which was the current situation, was not the answer. He also suggested that
having two dedicated Navy corpsman along with a dedicated physician would be sufficient to
manage the primary care needs of the Warriors at Camp Pendleton.

Additionally, during our group interview with the Camp Pendleton Nurse Case Managers and
Call Center staff, they agreed that if the Warriors had their own dedicated doctor (Primary Care
Manager), the Nurse Case Managers would have the required access to Warriors records that
they required and would have one central person with whom to coordinate Warriors’ Service
Members Group Life Insurance Traumatic Injury Protection Program forms. Their concern was
that the current PCM worked for the Navy hospital and not the battalion. The Nurse Case
Managers agreed that there needed to be a full-time PCM for the Warriors at Camp Pendleton
instead of a collateral PCM which was the current arrangement. They stated that the battalion at
Camp Pendleton also needs an Independent Duty Corpsman, family nurse practitioner or
physician assistant, in addition. The Nurse Case Managers also said that having a dedicated
PCM with support staff for the Warriors at Camp Pendleton was essential.

One Nurse Case Manager explained that it was noted by several Nurse Case Managers that
there was a problem with access to care for Warriors caused by not having a dedicated PCM and
offered these as typical examples:

   • A Warrior had elevated blood pressure readings but it took him 2 months to see a Primary
     Care Manager

   • A Warrior had significant sleep difficulties and it took him one and a half weeks to see a
     Primary Care Manager

   • A Warrior had bad dermatological problems with his feet and it took him 3 weeks to see
     his Primary Care Manager.




                                               44
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012

Furthermore, the WWBn-West Recovery Care Coordinators at Camp Pendleton explained that
the bottleneck to Warriors’ access to acute and specialty care was caused by not being able to
see a PCM for the referral required to obtain an acute and specialty medical care appointment.
They also expressed the need for a dedicated PCM for the Camp Pendleton Warriors. They
went on to describe that the Camp Pendleton’s current PCM was an internal medicine doctor
who had over 160 Warriors assigned during our site visit, plus an additional patient load of over
500 patients at the Navy hospital.

Also, it was the opinion of a WWBn-West Navy Corpsman that there was a problem because
the Warriors did not have a dedicated PCM. In his opinion, the Warriors needed “their own
guy.” He further explained that the current situation was that the Warriors’ current PCM at
Camp Pendleton had to see other patients at the hospital. Consequently Warriors could only get
three appointments per day and only two appointments per day on Tuesdays.

C.2. Conclusion
We acknowledge that Navy Medicine and Naval Hospital Camp Pendleton have made
concerted efforts to provide the best possible medical care for Warriors at Camp Pendleton so
they may successfully transition. However, during our assessment, we observed that the
Warrior battalion at Camp Pendleton did not have the dedicated Battalion Surgeon, Medical
Officer, Battalion Aid Station or other appropriate medical personnel to exclusively support the
Warriors. As a result, all Warriors at Camp Pendleton were assigned to a PCM who had
competing priorities at the Naval Hospital Camp Pendleton. This resulted in Warriors having to
compete with other beneficiaries for access to care, caused excessive wait times for primary
care appointments and reduced the time and attention available for the PCM to focus on Warrior
care, thus negatively affecting Warrior healing and transitioning.

C.2. Warrior Speak
Refer to Part III, C.2. for “Warrior Speak” that amplifies this observation.

C.2. Recommendation, Management Comments, and Our Response
      C.2. We recommend the Medical Officer of the Marine Corps (Health Services)
      identify the correct configuration for a Battalion Surgeon, Medical Officer,
      Battalion Aid Station or other appropriate equivalent medical services to
      provide dedicated Primary Care Management (PCM) support for Warriors at
      Camp Pendleton.

Commandant of the Marine Corps Comments
The Commandant of the Marine Corps concurred with comment to our recommendation. The
Commandant explained that the Medical Officer of the Marine Corps (Health Services) will
work with the Wounded Warrior Regiment, Navy Bureau of Medicine and Surgery (responsible
for the in-garrison medical care missions), and other stakeholders to identify health service
support manning requirements to provide health service staff functions, dedicated primary care
management, and coordination of health services for Marines and Sailors at Wounded Warrior
Battalion-West, as well as other Wounded Warrior units. The Commandant concluded that a
proposed health services manning solution will be formulated by June 1, 2012.



                                                45
Assessment of DoD Wounded Warrior Matters –                                         Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                August 22, 2012

Additionally, the Commander, Wounded Warrior Regiment concurred with comments in which
he stated they strongly support the recommendation and will work with the Medical Officer of
the Marine Corps and Navy Medicine to address the recommendation.

Navy Medicine West Comments
The Chief of Staff, Navy Medicine West non-concurred with comment to our recommendation.
The Chief explained that in September 2011, the Naval Hospital Camp Pendleton embedded a
Navy Primary Care Manager within WWBn-West. This Primary Care Manager’s sole patient
empanelment is the 220 Warriors assigned at Camp Pendleton. This contrasts with a typical
civilian ‘concierge” panel of 850 to 900 patients, a typical civilian empanelment of 2400
patients, or a typical military empanelment of 1300 patients. With this dedicated Naval
Hospital Camp Pendleton, Primary Care Manger in the military treatment facility, the Warriors
reap the benefits of enrollment within a Medical Home Port, 25 same-day access to primary care,
secure messaging capabilities with their healthcare team, and active management of their
healthcare.

Furthermore, the Chief, Navy Medicine West explained that Warriors’ primary care
management provided by Marine Corps Health Services personnel vice Navy Medicine and
Naval Hospital Camp Pendleton would result in risk of fragmented medical care and
communications challenges as the Warriors accessed specialty care within the military treatment
facilities.

Our Comments
The Commandant of the Marine Corps and the Commander, Wounded Warrior Regiment’s
comments are responsive. However, Navy Medicine West comments are partly responsive, in
that they based their non-concurrence on who would provide the dedicated primary care
management for the Warriors, not how. The intent of the recommendation was to ensure
provisions were considered for dedicated primary care management support for the Warriors
regardless of which service provided the care (Marine vs. Navy). In response to the final report,
we request that the Commandant of the Marine Corps provide a synopsis of the June 1, 2012
manning solution for health services staff functions as mentioned in his comments.




25
  Medical Home Port provides primary care in a way that best meets the needs of beneficiaries Medical Home Port
ensures that care is all-inclusive and integrated with all other care provided within the health care system. Care
delivered through Medical Home Port includes, but is not limited to, readiness, prevention, wellness, behavioral
health, and disease management.


                                                       46
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012



C.3. Use of Warriors for Battalion Staff Duties
 The WWBn-West utilized Warriors assigned to recover and transition as Battalion staff. As
 a result, some of these Warriors had to partition their time between recovering, transitioning,
 and performing staff duties. Therefore, these Warriors risked having their recovery and
 transition delayed or otherwise negatively affected because they missed recovery and
 transition appointments and did not have adequate time to address all medical conditions.

C.3. Background
In a follow-up with the Wounded Warrior Regiment concerning its policy utilizing Warriors as
staff, the Regiment’s response stated that Wounded Warriors were not to be used as official
battalion staff though they were permitted to perform some staff functions when those staff
duties complemented their recoveries. The Regiment emphasized that Commanders know
through guidance that a Warrior’s recovery was his or her number one mission and staff duties
are not permitted to interfere with recovery. It is the opinion of the Regiment that utilizing
Warriors to augment staff was a way to enable the Warrior to assist other Warriors and to gain a
sense of self-worth, as well as to ensure they were ready to transition back to duty or to civilian
life.

According to the Regiment, Warriors were used to augment battalion staffs but were not
identified in the Table of Organization Line Numbers (the document which prescribes the
organizing, staffing, and equipping of the Warrior battalion). Warriors augmented sections in
billets commensurate with their rank and abilities. Pursuant to a follow up of this assessment,
the Regiment informed our team that WWBn-East and West had Warriors serving in positions
such as: section leader; assistant section leader; deputy family readiness officer; assistant
operations chief; operations clerk; company first sergeant; company clerk; Warrior Athletic
Reconditioning Program officer-in-charge and staff-noncommissioned officer; battalion aid
station corpsman; and company corpsman.

In May, 2012, the Commandant of the Marine Corps informed our team that WWBn-West had
significantly improved manpower strength, most notably in the Section-Leader-to-Warrior ratio.

C.3. Discussion
While the mission of Warriors assigned to the WWBn is to heal and transition, we observed
instances where Warriors were also assigned WWBn-West staff duties. There was a concern
that could create a situation that made it difficult for a Warrior to successfully and timely
complete his or her own recovery and transition while being responsible for other Warriors.
There was also the concern that this could negatively affect Warriors when other Warriors by
virtue of positions of authority had access to subordinate Warriors’ medical information.




                                                47
Assessment of DoD Wounded Warrior Matters –                                            Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                   August 22, 2012

Of particular concern:

•    WWBn-West utilized Warriors as First Sergeants. 26 These Warriors had command
     responsibilities as senior enlisted persons. These Warriors’ responsibilities were to advise
     officers and discipline enlisted Marines/Warriors.
•    WWBn-West utilized Warriors as Section Leaders.

         •   As Section Leaders these Warriors were expected to:

             •    Demonstrate the Marine Corps’ core values of Honor, Courage and Commitment
             •    Demonstrate integrity and sound judgment
             •    Lead by example and uphold the reputation of the Marine Corps
             •    Hold others accountable to Marine Corps standards 24 hours a day, seven days a
                  week
             •    Show enthusiasm in being a Marine and inspire others
             •    Perform in an unsupervised capacity
             •    Demonstrate situational awareness and sound judgment
             •    Seek and accept responsibility for the success / failures of Warriors under their
                  supervision
             •    Take ownership of and seek assistance in dealing with difficult situations
             •    Effectively communicate with and favorably relate to the Warrior population
             •    Maintain a high level of mental development, emotional stability, physical
                  readiness, and spiritual strength
             •    Successfully perform in a high stress environment with Warriors who may be
                  physically and / or mentally compromised
             •    Demonstrate ability to manage personal affairs (family and marital relationships,
                  personal finances, etc.) with maturity and judgment
             •    Feel comfortable and be personable among strangers and military and civilian
                  personnel of varying ranks and pay grades 27



26
   US Marine Corp Military Occupation Code (MOS 8999) First Sergeant: Assists the commander as senior
enlisted Marine in the unit. Acts as principal enlisted assistant to the commander. Keeps apprised of all policies of
the commander. Disseminates information to the unit's enlisted personnel regarding such policies. Reports to the
commander on the status of matters pertaining to the efficient operation of the command. Counsels subordinate
unit noncommissioned officers as required to improve the general effectiveness of the command. Interviews and
counsels enlisted personnel on pertinent professional and personal matters that may affect the efficiency of the
command. Assists the commander in the conduct of office hours, requests mast, and meritorious mast. Participates
in ceremonies, briefings, confer commander. Assists in supervision of clerical and administrative matters; training
functions and the employment of the command in garrison and in the field; logistic functions such as billeting,
transportation, and messing; inspections and investigations; personnel management; and daily routine. Assumes
other duties designated by the commander. Duties: (a) Communicates ideas effectively at all levels. (b) Possesses
to the highest degree the faculty for working in harmony with officers, other noncommissioned officers, and
civilians. (c) Possesses a comprehensive understanding of Marine Corps organization, missions, and staff
procedures in units of company level. Related Classifications: Human Resources, Training, and Labor Relations
Specialists.
27
   United States Marine Corps Wounded Warrior Regiment Handbook

                                                         48
Assessment of DoD Wounded Warrior Matters –                               Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                      August 22, 2012

          •   As Section Leaders, these Warriors were responsible for:

              •   Providing accountability and tracking of other Warriors’ progress through the
                  Lines of Operation; Medical, Mind, Body, Spirit, Family
              •   Serving as mentors and advocates for Warriors under their supervision
              •   Providing small unit leadership and discipline required to help Warriors under
                  their supervision heal mentally, physically, and emotionally 28

•     WWBn-West utilized Warriors as corpsman. These Warriors were responsible for:

          •   Conducting battalion Town Hall Meetings every Tuesday
          •   Conducting battalion Post Traumatic Stress Disorder (PTSD) group sessions every
              Wednesday
          •   Conducting Warrior administration requirements for:
                 • Warrior/Patient Intakes
                 • Daily Medical Records Updates
                 • Medical Record Reviews
          •   Conducting medical reconciliation for newly assigned Warriors with Primary Care
              Managers (PCMs) and pharmacists
          •   Conducting quarterly Warrior medical reconciliation
          •   Consulting the battalion referral board on attaching or assigning Marines to WWBn-
              West
          •   Acting as Warrior Medical Liaison (responsibilities similar to a Nurse Case
              Manager)
          •   Managing the Warrior Underwater Treadmill program
          •   Managing the Warrior Strength program and the Comprehensive Combat Resolution
              program

Both Warriors and WWBn-West staff stated that it was their opinions that Warriors assigned to
Warrior battalions to recover and transition should not be assigned staff duties.

The WWBn-West Commander stated that his battalion needed its own Active Duty First
Sergeants who were not Warriors.

Also, Active Duty Senior Enlisted Warriors (E-7 and E-8) held the position that Warriors
should not be staff because it caused problems; but they would not elaborate on the types of
problems encountered.

Just as important, during our assessment we observed that the medical staff supporting the
Warriors felt that Warriors assigned to Warrior battalions to recover and transition should not be
diverted by being assigned staff duties.

The Wounded Warrior PCM explained that one Warrior platoon corpsman was kept busy
screening sick call, other medical-related activities, driving patients, and making appointments
28
     United States Marine Corps Wounded Warrior Regiment Handbook

                                                    49
Assessment of DoD Wounded Warrior Matters –                            Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                   August 22, 2012

for other Warriors. He believed that using this Warrior corpsman as battalion staff was not a
good practice but had resulted from a staffing shortage in the WWBn.

Additionally, the Chief Hospital Corpsman (a Master Chief Petty Officer, E-9) vehemently
stated “Do not use Warrior corpsman as staff; it takes away from the corpsman’s own
transition.” He went on to explain that if the battalion continued to use Warrior corpsman for
staff, every effort had to be made to make sure the Warrior corpsman was stable both mentally
and physically to handle the position.

One Warrior Company corpsman was asked if WWBn-West was the best place for him to
recover and transition. He replied…“not both as a patient and a corpsman.” He went on to
explain that he had undiagnosed problems that he had not had time to address because there
were almost 200 Warriors in the battalion and as one of the only corpsmen to provide assistance
to these Warriors, he was running around “like a chicken.” He went on to describe how he has
missed a lot of his medical and other transition appointments because he was responsible for
scheduling Warriors initial intake appointments with the PCM; performing as a Leading Petty
Officer; ensuring all Warrior medical history was correct; and maintaining the monthly status
report to track:

   •   Limited Duty Paperwork
   •   Physical Evaluation Board Paperwork
   •   Dates of Injury
   •   Points of Contact at last command
   •   Medications

He was also responsible for maintaining the weekly missed appointment sheet for all WWBn-
West Warriors. The corpsman expressed that he did not like the stipulation of “must do
additional duties” for corpsmen assigned to WWBn-West. He believed that this had resulted
since the Navy would not make corpsman billets available for WWBn-West so the corpsmen
assigned as Warriors would continue to be staff as well. At the time of the assessment there
were four corpsmen Warriors in WWBn-West. Three of the four were leaving so the remaining
corpsman risked having to handle the corpsmen responsibilities for the entire WWBn-West.
The corpsman’s concern was that one corpsman could not handle everyone. He also explained
that he believed WWBn-West overall ran a good program when it came to internships but that
he worked too much and did not have enough time to take advantage of any internship
opportunities.

It was the position of the Transition Center staff at the Naval Medical Center San Diego that
Warriors should not be used as staff.

The WWBn-West Recovery Care Coordinators also stated that they believed that Warriors
should not be staff.




                                               50
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012

C.3. Conclusion
We acknowledge that the Wounded Warrior Regiment focuses its efforts on the successful
recovery and transition of its Warriors. The Regiment utilized Warriors to augment staff,
believing that it enhanced Warrior transition. The Regiment gave local Commanders leeway in
their authority to maintain this practice. Our observations demonstrated, however, that local
opinion by WWBn-West leadership, support staff, medical personnel, and the Warriors
themselves contended that this practice should not occur since it actually interfered with
recovery and transition.

C.3. Warrior Speak
Refer to Part III, C.3. for “Warrior Speak” that amplifies this observation.

C.3. Recommendations, Management Comments, and Our Response
       C.3.1. We recommend that the Secretary of the Navy fully staff Wounded Warrior
       Battalions with non-Warrior Marine Corps and Navy personnel.

Deputy Assistant Secretary of the Navy, Military Manpower and
Personnel Comments
The Deputy Assistant Secretary of the Navy, Military Manpower and Personnel concurred with
comment to our recommendation. The Assistant Secretary explained that staffing the Wounded
Warrior Battalions is supported by existing resourcing and programming processes. He further
explained that the management of the Wounded Warrior population should leverage Marine and
Sailor assignment to staff positions where appropriate, particularly in support of Marines who
intend to return to dull duty.

Our Response
While not agreeing to prohibit Warriors from ever serving on staff, the Deputy Assistant
Secretary of the Navy, Military Manpower and Personnel comments are responsive and meet
the intent of the recommendation. However, in response to the final report, and as noted in
C.3.2., and C.3.3., we request that the Commandant of the Marine Corps provide the signed
policy which addresses assignment of Warriors to staff positions.

       C.3.2. We recommend the Commander, Wounded Warrior Regiment implement
       policy that Warriors assigned to Warrior battalions to recover and transition will
       not be assigned staff positions that require Warriors to lead or have authority over
       other Warriors.

       C.3.3. We recommend that the Commander, Wounded Warrior Regiment
       implement policy that Corpsman Warriors assigned to Warrior battalions to
       recover and transition will not be assigned corpsman responsibilities.




                                                51
Assessment of DoD Wounded Warrior Matters –                           Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                  August 22, 2012

Deputy Assistant Secretary of the Navy, Military Manpower and
Personnel Comments
The Deputy Assistant Secretary of the Navy, Military Manpower and Personnel concurred with
comment to recommendations C.3.2. and C.3.3. The Assistant Secretary explained that the
Wounded Warrior Battalion will establish policy within 90 days to address this matter and allow
for wounded, ill, and injured Marines to serve in staff positions only on a case-by-case basis.
Depending upon the overall comprehensive transition plan of a wounded, ill, and injured
Marine, as well as his/her compliance with the five Lines of Operation programs, we have
established that some Marines flourish in staff positions. Staff positions provide certain
wounded, ill, and injured Marines a feeling of self-worth, especially those Marines who wish to
return to full duty.

Our Comments
The Deputy Assistant Secretary of the Navy, Military Manpower and Personnel comments are
responsive and meet the intent of the recommendation. However, in response to the final report,
we request that Commandant of the Marine Corps provide the signed policy which addresses
assignment of Warriors to staff positions.




                                              52
Assessment of DoD Wounded Warrior Matters –                             Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                    August 22, 2012



C.4. Consideration for Warriors’ Recovery and Transition
Location Preferences
 Warriors’ requests for alternative locations to recover and transition were not always
 approved. As a result, some Warriors had to recover and transition at Camp Pendleton when
 they felt another location either closer to home, families, and support persons or closer to
 future locations for residence, work and/or education would be more beneficial. Therefore,
 some Warriors felt they had to delay constructive, meaningful transition activities until they
 either transferred from Camp Pendleton to another location or separated from the Marine
 Corps.

C.4. Background
During a follow-up for this assessment with the Wounded Warrior Regiment, the Wounded
Warrior Regiment informed our team that there was no official policy concerning where a
Warrior would heal and transition. According to the Wounded Warrior Regiment, each Warrior
was examined by medical doctors and Command on a case-by-case basis to determine the best
location for the Warrior’s recovery and transition. The factors taken into consideration
included: medical care needed, availability of treatment facilities, transition plans and goals,
family location, Warrior conduct, and whether the Warrior needed a structured and/or
supervised environment.

C.4. Discussion
During this assessment, Warriors expressed that their preference for alternative locations to heal
and transition were not always approved.

An Active Duty Gunnery Sergeant Warrior (E-7) explained that he felt that being at the Palo
Alto Veterans Affair Poly-Trauma Center was better for him than being at Camp Pendleton. He
went on to explain that he stayed at the Palo Alto medical facility for one year before being
assigned to Camp Pendleton but still does most of his follow-up at Palo Alto. He was
concerned that he could not stay at Palo Alto indefinitely and that it was not right that he had no
choice where he got his care. He understood that the military wanted to “take care of their own”
but they needed to “let go” and do what is best for the Marine.

Additionally, a Reservist Staff Sergeant Warrior (E-6) described how his family was in
Phoenix, Arizona, and every time he wanted to see them he needed to spend money to travel
home. He was trying to get assigned to Yuma, Arizona, so he could be closer to home. His
request was to either send his whole family to Camp Pendleton or send him home. He went on
to describe that during a visit home 2 weeks prior to our assessment, his wife was struggling to
take care of the children and household alone while maintaining her job. He described that it
felt like he was “dumping a sack of potatoes” on his wife because he could not be at home.
(NOTE: Yuma Arizona is the home of Marine Corp Air Station Yuma and US Army Yuma
Proving Grounds. The nearest Warrior Transition Unit is the US Army’s Fort Huachuca
Warrior Transition Unit-Separate Company, which is approximately four hours from Yuma).



                                                53
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012

An Active Duty Sergeant (E-5) explained that his family owned a business and he wanted to get
out of the Marine Corps as soon as possible and move on with his life. He recommended letting
Warriors go on “Home Awaiting Orders” because they would be better off with their families
rather than having to check in at the battalion all the time. He explained that Warriors who are
not originally from the Camp Pendleton area would be better off at home with their families
rather than at Camp Pendleton. He concluded by saying, “It will not work for everybody but I’d
rather be with my family than here filling idle time.”

Another Active Duty Sergeant Warrior (E-5) expressed the belief that he would be better served
if he was closer to his family because the separation was hard on everyone.

An Active Duty Corporal Warrior (E-4) explained that he was currently talking to his section
leader to see if he could work with a Reserve unit back in his hometown in Montana to be able
to start networking with police, colleges, and universities. He said he needed the face time
where he plans to permanently transition and felt his transition would be better at home. He
went on to explain that his Recovery Care Coordinator got him a lot of job offers from local
companies in the San Diego area but that he wants to go back home and work.

An Active Duty Lance Corporal Warrior (E-3) described how he was “pretty much setting
himself up for success” and that he had a job lined up at Northrop Grumman but lost it because
he was waiting for his medical board to be processed. He understood that the Marine Corps
want the Warriors to heal but there are other hospitals to which the Marine Corps can transfer
Warriors so Warriors can maintain their care while they move on with their lives. He further
explained he would be starting school on the 21st of April, 2011 for his certification, but again,
really wanted to be back in Texas to do more schooling.

C.4. Conclusion
We acknowledge that the Wounded Warrior Regiment strives to consider each Warrior’s
situation on a case-by-case basis to determine the best location for the Warrior to recover and
transition. However, we observed that there was no official policy that identified where a
Warrior could heal and transition, and that practices in place were not supportive of transition
for a number of Warriors who wished to be closer to home, families, or areas where they
planned to work.

C.4. Warrior Speak
Refer to Part III, C.4. for “Warrior Speak” that amplifies this observation.

C.4. Recommendation, Management Comments, and Our Response
       C.4. We recommend the Commander, Wounded Warrior Regiment, implement
       official policy that determines the location of Warriors’ recovery and transition
       based on factors that include Warriors’ preferences.




                                                54
Assessment of DoD Wounded Warrior Matters –                            Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                   August 22, 2012



Commandant of the Marine Corps Comments
The Commandant of the Marine Corps non-concurred with comment to our recommendation.
The Commandant explained that Marine Corps Order 6320.2D, “Administrative and Processing
of Hospitalized Marines,” and Wounded Warrior Regiment Order 6300.1A, “Administrative
Procedures for Acceptance of Wounded, Ill, Injured, or Hospitalized Personnel to the Wounded
Warrior Regiment,” adequately address the location preference for Warrior’s recovery and
transition and that additional policy is not required to satisfy the DoD IG’s recommendation.

Our Comments
The Commandant’s comments are responsive. We acknowledge that Marine Corps Order
6320.2E, “Administrative and Processing of Hospitalized Marines,” November 1, 2007,
addresses providing prompt and complete administrative assistance to injured/ill/hospitalized
Marines. Additionally, enclosure (2) of that order does take into consideration whether a
medical facility is close to the Marine’s parent command. Furthermore, Wounded Warrior
Regiment Order 6300.1A, “Administrative Procedures for Acceptance of Wounded, Ill, Injured,
or Hospitalized Personnel to the Wounded Warrior Regiment,” July 27, 2011, Section 4.c (4)
(b), page 4, states that “certain considerations must be addressed prior to assignment or
transferring a Marine, specifically, what is the geographic location of the family support system
for the Marine.” However, in response to the final report, we request the Commandant provide
any updates or additional guidance that indicates that a Marines’ preference will be taken into
consideration while determining the most appropriate location for their recovery and transition.




                                               55
Assessment of DoD Wounded Warrior Matters –                             Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                    August 22, 2012



C.5. Lack of Sufficient Support for Warriors’ Family Members
and Support Persons
 Warrior families and other support persons did not always receive needed preparation or
 training to fully contribute to their Warrior’s recovery and transition. Therefore, Warriors’
 family and support persons felt unable to fully contribute to their Warrior’s healing and
 transition. As a result, Warriors’ healing and transition risked being delayed and/or
 negatively affected.

C.5. Background
During this assessment we observed that agencies such as the Family Readiness Office
recognized the need for more Warrior family and support person training. However, we did not
observe a standardized training or support program for Warriors’ families or other support
persons to help assist with their Warrior’s transition.

C.5. Discussion
During this assessment, we observed that Warriors and WWBn-West staff felt there were
opportunities to better prepare family members and other support persons to positively
contribute to their Warrior’s healing and transitions.

The WWBn-West Commander noted that there was no Traumatic Brain Injury/Post-Traumatic
Stress Disorder (TBI/PTSD) training for family members or other support persons. The
commander recommended there be more TBI/PTSD training for family members and other
support persons. The commander also recommended identifying and implementing other
transition activities and opportunities for family members as well as other support persons
needed to improve the Warrior healing and transition process.

An Active Duty Staff Sergeant (E-6) Warrior’s spouse described how she “felt kind of lost.”
She described how she thought the WWBn-West needed a better orientation for the spouses
because the spouses received little or no help. The Staff Sergeant described that his orientation
to WWBn-West was “OK” but that there was no orientation for his spouse. The Warrior’s
spouse further described how there was a lack of programs for the children; especially older
children. The children were left out of the healing and transition process and there was a lack of
family activities that particularly involved older children. She went on to express her concern
that, with regard to the spouses, their Warriors have different diagnoses, and therefore need
different types of support. Her concern was that spouse and support person needs were as
diverse as the Warrior needs and were not being met.

The Active Duty Sergeant Warriors (E-5) specifically identified opportunities to better prepare
family members and other support persons to support their Warrior’s healing and transitions.
They agreed that there was a specific need to offer Parenting Classes and Family
Communications Classes.




                                                56
Assessment of DoD Wounded Warrior Matters –                               Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                      August 22, 2012

Just as important, during this assessment, we observed that WWBn-West medical and other
support staff also believed that there were opportunities to better prepare family members and
other support persons to contribute to their Warrior’s healing and transitions.

The Primary Care Managers at Twentynine Palms would like to have seen better support for
Warrior families, and the Nurse Case Managers and Call Center staff at Camp Pendleton agreed
that more could be done for the families.

Additionally, the Family Support Coordinator explained that Warriors’ families were often
overwhelmed because they did not understand what was going on or what was going to happen
with their Warriors. She went on to recommend that a program needed to be put into place that
assisted Warriors, particularly family members that quit their jobs to become full-time non-
medical attendants.

Furthermore, the WWBn-West Family Readiness Officer explained that there were no PTSD
classes for spouses. Beginning May 2011, the Family Readiness Office began holding these
monthly classes.

Two WWBn-West volunteers with prior experience working with Vietnam Veterans, homeless
veterans, and Iraq and Afghanistan veterans explained that they have found that Warriors’
families often do not understand their Warrior’s “continuum of care” and what was available so
they could assist in that continuum of care. In their opinion, Warriors’ families were under-
prepared and often found themselves trying to control unrealistic expectations.

C.5. Conclusion
We acknowledge that the WWBn-West’s efforts are targeted at providing the best recovery and
transition for the Warriors. However we observed that there were opportunities to better
prepare Warrior’s families and other support person to contribute to their Warrior’s healing and
transition so they could more effectively enable the efforts of WWBn-West.

C.5. Warrior Speak
Refer to Part III, for “Warrior Speak” that amplifies this observation.

C.5. Recommendations, Management Comments, and Our Response
      C.5.1. We recommend the Commander, WWBn-West, identify all necessary
      programs that prepare Warriors’ families and other significant care givers to
      fully contribute to their Warrior’s recovery and transition.

Commandant of the Marine Corps Comments
The Commandant of the Marine Corps concurred with comment to our recommendation. The
Commandant explained that WWBn-West has established a standardized process through the
published Wounded Warrior Battalion-West Order, 3030-1, “Campaign Plan,” to ensure all
Marines and their families receive the same information and benefits, regardless of their
location. The Commandant commented that WWBn-West is in the process of establishing or
has established standardized and support programs for family members which include:



                                                57
Assessment of DoD Wounded Warrior Matters –                             Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                    August 22, 2012

   •   Currently, the WWBn-West is working with the Defense and Veterans Brain Injury
       Clinic (DVBIC) to schedule quarterly TBI/PTSD classes for spouses and family
       members. WWBn-West is establishing an orientation program to introduce the families
       to the battalion and explain both the medical process as well as the additional program
       provided through the five Lines of Operations programs.

   •   Special Compensation for Assistance with Activities of Daily Living (SCAADL) has
       been implemented and the Wounded Warrior Regiment is working with the Office of the
       Secretary of Defense-Wounded Warrior Care and Transition Policy, to provide training
       to caregivers of SCAADL recipients.

   •   The WWBn-West Family Readiness Officer plans two family events per year that are
       directed toward children.

   •   The WWBn-West Chaplain hosts quarterly weekend “get-aways,” of which two are
       open to children.

   •   The WWBn-West Spirit Line of Operation Program Manager is currently resourcing
       programs and events that are child-friendly, such as a recent joint effort with the San
       Diego Padres.

   •   WWBn-West utilizes programs for children offered through Marine Corps Community
       Services. These programs are publicized regularly. Families Overcoming Under Stress
       (FOCUS) is a specific program in place to help children understand how to talk about
       the physical and mental injuries sustained by their parents and how to deal with their
       feelings associated with those injuries.

   •   WWBn-West has established a weekly coffee meeting dedicated to wives. Different
       events are discussed and questions are answered. eMarine was established to make sure
       information is always available to both the Marine and his or her family.

Furthermore, the Commandant explained that in October 2011, WWBn-West opened the
Warrior Hope and Care Center which provides counseling, reconditioning, and transition
services for wounded, ill, or injured Marines, Sailors and their families. The center is a 30,000
square foot structure and accommodates Wounded Warrior support ranging from Family
Readiness, to Mental Health Recovery, to the Recovery Care Coordinators. The center also
hosts the battalion’s Warrior Athlete Reconditioning program. More specifically, the center
provides transition activities, music therapy, expressive arts education, computer labs and
activities for children.




                                                58
Assessment of DoD Wounded Warrior Matters –                          Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                 August 22, 2012



Our Response
The Commandant of the Marine Corps comments are responsive and the actions meet the intent
of the recommendation. However, in response to the final report, we request that the
Commandant provide a copy of the Wounded Warrior Battalion Order 3030-1, “Campaign
Plan.”
      C.5.2. We recommend the Commander, Wounded Warrior Regiment develop
      the appropriate budget, and resource and staff all appropriate programs
      necessary to prepare Warriors’ families and other significant care givers to
      fully contribute to their Warrior’s recovery and transition.

Commandant of the Marine Corps Comments
The Commandant of the Marine Corps concurred with comment to our recommendation. The
Commandant explained that the Wounded Warrior Regiment’s budget reflects a commitment to
ensuring wounded, ill, and injured Marines’ families and other caregivers fully contribute to
their Warrior’s recovery and transition. Examples include, but are not limited to: caregiver
training, the Recovery Care Coordination Program, the Wounded Warrior Regiment’s Medical
Cell, Hope and Care Centers, the Wounded Warrior Regiment’s family support programs, the
Wounded Warrior Call Center, and the Wounded Warrior Regiment mobile/wireless device
application.

Our Response
The Commandant of the Marine Corps comments are responsive and the actions meet the intent
of the recommendation. No further action is required.




                                              59
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012



C.6. Lack of Adequate Computer Interfaces Used to Track
Warrior Recovery and Transition Progress
     Certain computer programs used to track Warriors’ recovery and transition progress did not
     reliably interface with each other. As a result, there were instances where Warriors’
     information had to be manually re-entered into multiple computer systems, potentially
     compromising the validity of Warrior data. Therefore, Warriors’ recovery and transitions
     were at risk because the accuracy and continuity of data required for effective decision
     making concerning Warriors’ recovery and preparation for transition could not be ensured.

C.6. Background
We learned during our assessment that there were computer information technology programs
used to manage and track Warriors’ recovery and transition processes and progress. Each
program needed to interface with one or more other programs so that different persons or
agencies could work in a coordinated effort to best manage Warriors’ recovery and transition
and make sure it remained timely. The Recovery Coordination Program needed to properly
interface with the Marine Corps Wounded Ill and Injured Tracking System. The Marine Corps
Wounded Ill and Injured Tracking System needed to properly interface with the Medical Board
Online Tri-Service Tracking System. The following is an explanation of each of the programs

Recovery Coordination Program - Support Solution (RCP-SS)
The RCP-SS empowered Recovery Care Coordinators to provide better support to wounded
warriors and their families. The Office of Wounded Warrior Care and Transition Policy worked
with the Military Service Wounded Warrior programs to develop the RCP-SS, an online tool
that automated Comprehensive Recovery Plan workflow and reporting for Recovery Care
Coordinators. It provided secure, web-based access to all the care management, comprehensive
needs assessment, and comprehensive recovery plan tools of the Recovery Coordination
Program. The RCP-SS also streamlined data collection to improve Recovery Coordination
Program oversight and resource management to ensure the program is sufficiently staffed and
the needs of wounded, ill and injured Warriors are being met effectively and efficiently. The
functions of the RCP-SS are:

       • Online access to all necessary care management forms.
       • Elimination of duplicative, hand-written paperwork.
       • Interface capability with other case management systems already in use across the
         military services.
       • Quality control capabilities through the tracking of met and unmet recovering
         service member goals.
       • Transparent reporting on the needs of recovering service members and families,
         which allows care coordinators and the Services’ Wounded Warrior Programs to
         develop best practices. 29



29
     The Office of Wounded Warrior Care and Transition Policy

                                                       60
Assessment of DoD Wounded Warrior Matters –                               Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                      August 22, 2012

Marine Corps Wounded Ill and Injured Tracking System (MCWIITS)
The Marine Corps Wounded, Ill, and Injured Tracking System (MCWIITS) was the official
record-of-actions taken to support Warriors. It was the system used to coordinate Warriors’
non-medical transition efforts. MCWIITS allowed everyone supporting Warriors’ non-medical
transition efforts to share notes on progress. Section Leaders, Recovery Care Coordinators,
Family Support Coordinators, Call Center Representatives and others contributed notes to
MCWITTS and based their actions on the notes of others.

Medical Board Online TriService Tracking System (MedBolts)
The Medical Board Online Tri-Service Tracking System (MedBolts) tracked all aspects of
Medical Evaluation Boards (MEBs) and Medical Evaluation Board Reports. MedBolt’s Patient
Administration function was responsible for maintaining longitude accuracy of the system for
Physical Evaluation Board (PEBs) final findings and limited-duty cases throughout a Marine’s
career and across all military treatment facilities as well as returned-to-full-duty entries.
MedBolts provided views of all current and historical MEBs and was vital to assisting Service
headquarters and parent commands with appropriate personnel management. 30

For background, we have included a copy of a point paper in Figure 3, page 48, that a
Limited Duty Coordinator had drafted at the time of the assessment. Although only in draft
form at the time of our assessment and technical in nature, it outlines the MedBolts to
MCWIITS interface problem and makes it clear that people involved with the Wounded
Warriors were already taking actions to identify and remedy data collection and interface
problems affecting the Warriors’ recovery and transition.




30
 See www.med.navy.mil/bumed/CaseManagement/Pages/lesson11.aspx, “IT Systems Tools Related to Case
Management, MedBolts: Medical Board Online Tri-Service Tracking System.”



                                                 61
Assessment of DoD Wounded Warrior Matters –                                        Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                               August 22, 2012

              Figure 3. Draft MedBolts to MCWIITS Interface Problem Letter

       Problem:
       The Limited Duty Program should be consolidated on MedBolts to allow all Unit Limited Duty
       Coordinators, Military Treatment Facility Medical Boards (Patient Administration), and MMSR-
       4 (The Disability Section, Separation and Retirement Branch, Personnel Management Division,
       Manpower and Reserve Affairs Department, Headquarters United States Marine Corps) to use,
       upload, and update necessary information through a single database.

       Background:
       Currently, MedBolts is updated by Patient Administration and the paperwork is supposed to be
       mailed to the Marine’s command. The main problem is that commands do not always receive the
       paperwork on a timely basis. This paperwork is the required/proper source document that places
       Marines on Limited Duty, processes Marines through Physical Evaluation Boards, or return
       Marines to full duty status. If the commands do not receive this paperwork on a timely basis, then
       the Installation Personnel Administration Center S-1 (IPAC/S-1) (Administrative Office) cannot
       update the Marine’s Limited Duty status. Often, this paperwork seems to get lost or misrouted,
       and it must be re-mailed or the Limited Duty Coordinator must physically go to Patient
       Administration to retrieve it. Cases requiring the approval of higher headquarters must be faxed
       or e-mailed by Patient Administration to MMSR-4. This system could be streamlined and made
       more efficient. The information regarding Limited Duty and Physical Evaluation Boards in
       MedBolts does not always match the information in the Marine Corps Total Force System.

       Discussion:
       Under the current system, commands do not always receive on a timely basis the Limited Duty
       paperwork they need. If the relevant Limited Duty documents were to be uploaded to MedBolts
       and the Unit Limited Duty Coordinators had the ability to retrieve the documents themselves, the
       problems listed above would be alleviated because the Unit Limited Duty Coordinator would
       have direct access. Moreover, this would allow all parties to directly access Limited Duty
       paperwork even when the Marine had come from another military treatment facility or command.

       In addition, if higher headquarters' approval process was within MedBolts, the process would be
       streamlined, all packages could be tracked efficiently, and Unit Limited Duty Coordinators
       would have the ability to see where in the process the request for approval is or to upload any
       necessary documents directly (e.g., Non-Medical Assessment or documents pertaining to legal
       /administrative action). If, upon approval from MMSR-4, an approval letter was uploaded or was
       automatically generated in MedBolts, the command would have the ability to directly access it in
       MedBolts.

       Finally, MedBolts should be linked to MCTFS so that duty limitation codes are automatically
       updated or Limited Duty Coordinators and IPAC S-1 should be able to use "official" MedBolts
       reports to run Limited Duty and Physical Evaluation Board statuses in MCTFS. A "Return-to-
       Full Duty” official MedBolts report should be added to MedBolts so that Limited Duty
       Coordinators and IPAC S-1 can process that information in MCTFS. This will save paper, time,
       and will preserve the Marine’s privacy.

       Conclusion:
       Consolidating the Limited Duty System within MedBolts would increase both its efficiency and
       its effectiveness. For such a system to function, access to MedBolts would be mandatory for all
       Limited Duty Coordinators. Unit Limited Duty Coordinators would have better visibility on the
       progress and status of limited duty cases and would have more efficient communication with
       both Patient Administration and MMSR-4.




                                                      62
Assessment of DoD Wounded Warrior Matters –                           Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                  August 22, 2012

Observation D.4., page 89 of this report, addresses Composite Health Care System/Host
interface problems and Composite Health Care System/Armed Forces Health Longitudinal
Technology Application interface problems, which are the responsibility of the Office of the
Assistant Secretary of Defense for Health Affairs and Commander, Navy Medicine-West.

C.6. Discussion
During our assessment the WWBn-West Commander expressed his concern that there were too
many data bases and information-technology systems used to track and/or manage Warriors’
recovery and transition and that many of the programs did not interface with each other. He
explained that this was one reason metrics and numbers that could potentially be used to
manage recovery and transition processes were not easily accessible. In his opinion, this
directly affected the quality of care, continuity of care, and efficient uses of manpower.

The first interface problem that was revealed during our assessment was that the RCP-SS did
not properly interface with MCWIITs. The ramifications of this interface problem were that
Recovery Care Coordinators had to manually enter Warriors’ information from MCWITTS into
RCP-SS and make duplicate entries into the RCP-SS to ensure the status of Warrior cases were
properly documented program-wide.

The Recovery Care Coordinators (RCCs) explained that the RCP-SS “needed to be tweaked.”
The Recovery Care Coordinators all agreed there was duplication with the RCP-SS and that it
did not properly interface with MCWIITS and other important computer programs. One RCC
stated that he had been involved with review of the RCP-SS web based system and had already
talked with appropriate offices at the Office of the Secretary of Defense-level (OSD). There
were also conversations between the RCCs on how they had to use a shell-document for
resources such as Warrior contact information, and then had to “cut-and-paste” the information
into different computer systems so the information was identical. This made keeping the
information accurate and up-to-date in every computer system a challenge. The RCCs
mentioned that the Federal Recovery Coordinators (FRCs) had a web-based program that was a
good system and easier to use than RCP-SS. The RCCs agreed that it would be more effective
for the Marines to use the same system as the FRCs so that there would be better continuity as
the duty status of Warriors shift from a RCC as active duty members to a FRC when they are no
longer active duty.

Furthermore, the WWBn-West S-1 (Administration Officer) and S-3 (Operations Officer)
explained that that they did not have access to RCP-SS through their MCWIITS. They also
explained that the RCCs were having issues because RCP-SS was not pulling information from
MCWIITS like it was supposed to; therefore RCP-SS was not an effective tool.

The second interface problem revealed during our assessment was that the MCWITTS did not
properly interface with MedBolts. MedBolts did not properly update MCWITTS when Navy
Medical Patient Administrative offices entered a Marine’s Limited Duty Status into MedBolts.
As a result, Navy Medical Administration offices had to mail Marines’ Limited Duty Statuses in
paper form to the Marine’s S-1/Administrative office, which risked delaying the start of the
Marine’s Physical Evaluation Board (PEB).


                                              63
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012

It was the opinion of the Regional Limited Duty Coordinator that the system was “messed up
and nothing seemed to mesh.” The Regional Limited Duty Coordinator expressed that there
were too many points in the system that could cause failure of the system as a whole. He
explained that MedBolts was the system the Navy Medicine uses to track patients and it should
mirror the information in the Marine Corps Total Force System, but it did not.

C.6. Conclusion
Staff members responsible for tracking and managing Warriors’ recoveries and transitions
expressed concern about the timeliness, accuracy, and therefore the usefulness of the
information provided by the IT applications. This may be due to the lack of direct IT interface
between the applications which required data to be manually transferred between systems or to
be printed and mailed between agencies. The lack of direct interface between the IT
applications increased risk of data corruption through human error which, in turn, might delay
Warriors’ recovery and transitions.

C.6. Warrior Speak
Refer to Part III, C.6. for “Warrior Speak” that amplifies this observation.

C.6. Recommendation, Management Comments, and Our Response
       C.6. We recommend the Deputy Commandant for Manpower and Reserve Affairs
       determine the requirements of all necessary computer-based and web-based
       systems and all interfaces required to support Marine Corps Wounded Warrior
       processes, and program for, fund, and resource all valid computer-based and web-
       based systems and interfaces.

Commandant of the Marine Corps Comments
The Commandant of the Marine Corps partially concurred with our recommendation. The
Commandant explained that Manpower and Reserve Affairs will continue to work systems
requirements to ensure internal Marine Corps systems provide the Wounded Warrior Regiment
and its subordinate battalions the functionality needed to effectively manage its Wounded
Warrior population. Additionally, the Marine Corps will coordinate with external agencies at
Department of Defense and Department of Navy levels to ensure interfaces are developed to
allow bi-directional transfer of information.

Our Response
While the Commandant of the Marine Corps partially concurred with comments, his comments
are, in fact, responsive and the actions meet the intent of the recommendation. However, in
response to the final report, we request that the Deputy Commandant for Manpower and
Reserve Affairs provide an update which outlines status of all necessary computer-based and
web-based systems, to include all interfaces required to support Marine Corps Wounded
Warrior processes, and the status of programing for, funding, and resourcing of all valid
computer-based and web-based systems and interfaces.




                                                64
Assessment of DoD Wounded Warrior Matters –                             Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                    August 22, 2012



C.7. Travel Challenges for Warriors at Twentynine Palms
 The Wounded Warrior Battalion Detachment, Twentynine Palms transportation program did
 not effectively support Warriors based there. Warriors had to travel up to approximately 310
 miles round-trip to attend recovery and transition appointments at Navy Medical Center San
 Diego or Camp Pendleton. Arranging for transportation was difficult and consumed
 Warrior and staff time and resources. As a result, sometimes Warriors drove themselves
 regardless of their physical, mental, or medicated state, therefore putting themselves at risk.

C.7. Background
The Wounded Warrior Regiment explained that the mission of the WWBn-West transportation
section was to support the transportation requirements of Warriors and battalion staff of
WWBn-West including the outlying detachments. Transportation operations included
transporting Warriors and family to and from medical appointments, recreational events, drop-
offs and pick-ups to and from local airports, and other critical requirements that pertained to
Warriors and their families.

The WWBn-West detachment at Twentynine Palms had the following transportation assets: one
golf-cart for on-base transportation, one American Disability Act (ADA) equipped bus, one
sedan, and a mini-van. There were three Marines assigned to the WWBn-West transportation
detachment at Twentynine Palms. The structure of the transportation section included one
dispatcher and two drivers.

The WWBn-West detachment at Twentynine Palms could increase its transportation support
with additional vehicle assets provided by Southwest Regional Fleet Command (SWFRT) and
staff support as drivers, if required. If passenger movement of over 15 Warriors was required,
SWFRT could provide a contract driver for up to 14 hours. SWFRT was a regional
organization comprised of Garrison Mobile Equipment fleets located at seven Marine Corps
installations in California. These installations included Marine Corps Base Camp Pendleton,
Marine Corps Recruit Depot San Diego, Marine Corps Air Station Miramar San Diego, Marine
Corps Air Station Camp Pendleton, Marine Corps Ground Combat Center Twentynine Palms,
Marine Corps Logistics Base Barstow, and Mountain Warfare Training Center Bridgeport.

Geographic Reference
It is approximately a 155-mile drive from Twentynine Palms Marine Corps Base to Camp
Pendleton. It is approximately a 195-mile drive from Twentynine Palms Marine Corps Base to
Naval Medical Center San Diego. It is approximately a 40-mile drive from Camp Pendleton to
Naval Medical Center San Diego.




                                               65
Assessment of DoD Wounded Warrior Matters –                               Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                      August 22, 2012

                                Figure 4. Transportation Requirements




                                                               Naval Hospital Twenty-nine Palms




                                                                       Naval Hospital Camp Pendleton




                                                                       Naval Medical Center San Diego (Balboa)




Observation D.3., page 86 of this report, addresses that Navy Medicine’s specialty medical care
appointment practices were not ensuring that Warriors at Twentynine Palms received specialty
medical care appointments in accordance with prescribed TRICARE standard of no more than a
one-hour travel time from the beneficiary’s residence. Travel challenges were one factor that
contributed to that situation.

C.7. Discussion
During this assessment we observed that the Wounded Warrior Battalion Detachment,
Twentynine Palms transportation program did not adequately support the assigned Warriors.
The WWBn detachment at Twentynine Palms depended on Naval Medical Center San Diego
and Camp Pendleton for recovery and transition appointments, which required Warriors to
travel up to 310 miles round trip.

The availability of transportation assets to Warriors at Twentynine Palms was a concern for the
medical staff that supported the Warriors there. The Primary Care Manager (PCM) at Naval
Hospital Twentynine Palms explained that there was difficulty getting transportation to the
Naval Medical Center San Diego and to Camp Pendleton. It was further explained that at one
time Twentynine Palms had a shuttle but once it was shut down, the Warriors were driving
themselves to appointments at the Naval Medical Center San Diego or at Camp Pendleton. The
PCM was concerned that this created a risk to Warriors since some of them were on
medications which impaired their ability to drive safely.


                                              66
Assessment of DoD Wounded Warrior Matters –                               Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                      August 22, 2012

The Nurse Case Managers at Naval Hospital Twentynine Palms explained they were looking
into contracting out local medical services to provide more timely and accessible Traumatic
Brain Injury (TBI) evaluations. It was their opinion that the situation in which Warriors had to
drive themselves from Twentynine Palms to Naval Medical Center San Diego or Naval Hospital
Camp Pendleton for multiple evaluations was difficult and inconvenient for the Warriors. The
Nurse Case Managers stated that arranging transportation at Twentynine Palms was a huge
problem and very time consuming. They explained that this was especially true for getting
Warriors from Twentynine Palms to specialty medical care appointments which were often at
Naval Medical Center San Diego or Naval Hospital Camp Pendleton. The Nurse Case
Managers explained that WWBn-West takes care of their own travel within the battalion;
however, there were many other Marines on base who also needed travel assistance. They
further explained that Twentynine Palms used to provide a shuttle service but it was
discontinued, apparently due to budget constraints. The Nurse Case Managers were concerned
that the transportation situation created the risk that Warriors were driving themselves outside
the base to appointments, often at Naval Medical Center San Diego or Camp Pendleton, when
in fact, some of these Warriors should not be driving at all due to such things as balance issues
or blurred vision due to a TBI.

The Medical Coordinator agreed that the Warriors could use a more robust transportation
system.

Additionally, the Recovery Care Coordinators (RCCs) expressed that transportation was an
issue for the Warriors early on in Warriors’ healing and transition, especially for those that
require handicapped accessible transport.

C.7. Conclusion
Transportation resources at Twentynine Palms appeared to be inadequate to accommodate
transporting Warriors and their families to Naval Medical Center San Diego or Camp Pendleton
for certain recovery and transition appointments. The medical staff at Twentynine Palms was
concerned that the available transportation assets at Twentynine Palms did not always support
the Warriors and that resulted in some Warriors driving themselves to appointments, which
could exceed 390 miles round-trip, when it was unsafe for some Warriors to be driving at all.

C.7. Warrior Speak
Refer to Part III, for “Warrior Speak” that amplifies this observation.

C.7. Recommendations, Management Comments, and Our Response
      C.7.1. We recommend the Commander, WWBn-West identify all requirements
      necessary to fully support all WWBn-West, Detachment Twentynine Palms
      transportation needs.

      C.7.2. We recommend the Commander, Wounded Warrior Regiment program
      for, fund, and resource the required transportation requirements necessary to
      fully support all WWBn-West, Detachment Twentynine Palms transportation
      needs.



                                                67
Assessment of DoD Wounded Warrior Matters –                            Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                   August 22, 2012

Commandant of the Marine Corps Comments
The Commandant of the Marine Corps concurred with comment to our recommendations. The
Commandant stated that during the DoD IG visit, there was not an issue meeting the
transportation requirements for Marines assigned to WWBn-West. The issue was Marines
assigned to other Twentynine Palms-based units were not receiving adequate transportation
support when they had appointments at Naval Hospital Camp Pendleton, Naval Medical Center
San Diego, or other San Diego hospitals. The Commandant further explained that in November
2011, the Marine Corps Air Grounds Combat Center Chief of Staff and the staff at Naval
Hospital Twentynine Palms met to discuss the transportation concerns. As a result of that
meeting, a base shuttle was instituted two days per week and supported through Twentynine
Palms base logistics section.

Our Response
The Commandant of the Marine Corps comments are responsive and meet the intent of our
recommendation. We acknowledge the positive initiatives that have been implemented to
reduce Warrior’s travel distance for medical care. (Reference Observation D.3., Chief of Staff,
Navy Medicine West, Page 86).




                                               68
Assessment of DoD Wounded Warrior Matters –                            Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                   August 22, 2012



C.8. End of Active Duty Service Dates Impact on US
Government Identification Cards and Base Pass/Vehicle
Decal Expiration Dates
 Some Warriors were required to remain on active duty beyond their End of Active Duty
 Service date for medical or administrative reasons. As a result, government identification
 cards and base pass/vehicle registration decals for these Warriors and all their dependents
 expired and were usually only extended in 90-day increments. Therefore, Warriors had to
 take time away from their recovery and transition to renew these documents which risked
 being detrimental to the Warrior and a burden on the Warrior’s family.

C.8. Background
According to the Wounded Warrior Regiment, Warriors who were required to stay on active
duty beyond their End-of-Active-Duty-Service (EAS) date, such as Warriors awaiting medical
boards, had their EAS dates lined out or made a null date (e.g., 999s). The Wounded Warrior
Regiment informed our team that Camp Pendleton did not have a specific policy on renewal
requirements for government identification cards or base pass/vehicle registration decals for
Warriors with lined out or null dated EAS dates. Renewal depended on each Warrior’s
circumstances. Once a Warrior’s government identification card expired, he or she had to go to
his or her Unit Administration office and request a letter for an extension. The extension was
usually granted for an additional 90 days.

C.8. Discussion
During this assessment, we observed that some Warriors had to remain on active duty beyond
their EAS date to allow for necessary medical evaluations and treatments. As a result, they had
to have their personal and dependent government identification cards and base pass/vehicle
registration decals renewed regularly.

The Active Duty Staff Sergeants (E-6) explained that some Warriors who had to remain on
active duty beyond their EAS date no longer had an assigned EAS date or had an EAS listed as
a null date. This meant that these Warriors and their dependents’ government identification
cards and base pass/vehicle registration decals expired. Consequently Warriors were required to
regularly renew their government identification cards and base pass/vehicle registration decals,
as well as their dependents’, usually every 90 days.

According to the Staff Sergeants, this process usually took 3 or 4 hours for the government
identification cards and another 3 to 4 hours for the base pass/vehicle registration decals. This
also required Warriors with a spouse and/or dependents to arrange for the spouse and all other
dependents to plan to spend time for the renewal processes. This put Warriors at risk of missing
important recovery and transition time, medical treatment, or other appointments. This also
created a financial burden for Warriors if working spouses had to repeatedly take time off from
work and/or pay for child care in order to renew the required documents.



                                               69
Assessment of DoD Wounded Warrior Matters –                                    Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                           August 22, 2012

C.8. Conclusion
We observed that conditions existed that caused some Warriors to remain on active duty after
their EAS date. This caused some Warriors to have their EAS dates lined out or made a null
date, which resulted in Warriors and their dependents having to regularly renew their
government identification cards and base pass/vehicle registration decals. This required
Warriors and their dependents to have to regularly dedicate approximately one or two entire
recovery and transition days to renew their government identification cards and base
pass/vehicle registration decals. This could also incur a financial hardship in terms of
dependent spouses taking time off work and/or the cost of child care.

C.8. Warrior Speak
Refer to Part III, C.8. for “Warrior” Speak that amplifies this observation.

C.8. Recommendation, Management Comments, and Our Response
         C.8. We recommend the Commander, Marine Corps Installations-West
         implement policy and procedures that ensure Warriors and Warriors’
         dependents renewal of government identification cards and base pass/vehicle
         registration decals does not interfere with Warriors’ recovery and transition or
         impose a burden on dependents.

Commandant of the Marine Corps Comments
The Commandant of the Marine Corps concurred with comment to our recommendation. The
Commandant explained that contact had been made with the WWBn-West Commanding
Officer, indicating that, in his view, this issue had largely been resolved. It was noted that the
Commanding Officer had assigned his Executive Officer as liaison, to coordinate and/or
implement solutions tailored to accommodate Wounded Warriors. He further explained that
during this discourse, it was determined that the following mechanisms where in place to
accommodate Wounded Warriors and were sufficient and working well. These include:

     •    Warriors and their dependents receive “second-in-line privileges” at each of the three
          Pass and ID centers at Camp Pendleton for DEERS 31 and/or vehicle registration.
          Second-in-line privileges means Warriors and their dependents are the next customers
          following completion of the current transaction at a particular customer service window.
          Whenever a customer service window is open, Warriors and their dependents receive
          “front-of-line” privileges, meaning they do not have to wait for any other customer.

     •    The WWBn-West staff is aware of who to contact at Camp Pendleton Pass and ID to
          coordinate unusual situations that Warriors encounter. Marine Corps Installation-West
          explained that this includes such adjustments as dedicating one or more customer service
          windows at the Camp Pendleton Pass and ID centers to Wounded Warriors during or
          after normal working hours to include weekends whenever required.



31
  DEERS is the worldwide, computerized database of uniformed services members, their family members, and
others who are eligible for military benefits including government identification cards.


                                                    70
Assessment of DoD Wounded Warrior Matters –                           Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                  August 22, 2012

   •   Whenever possible, Pass and ID transactions can be conducted by proxy by WWBn-
       West staff and Pass and ID personnel on behalf of the Warrior and/or dependents.

   •   Government identification cards and vehicle registration decals are either issued per the
       recommendation of the WWBn-West Commander and staff or automatically for 3 years,
       whichever is less. If the WWBn-West cannot assess exactly how long the Warrior will
       remain in the unit, the Pass and ID centers at Camp Pendleton will continue to re-issue
       government identification cards and vehicle registration decals in 90 day increments.

Furthermore, the Commanding General, Marine Corps Installations West, provided the same
response to the recommendation as provided above by the Commandant of the Marine Corps.
See Appendix E for the Commanding General, Marine Corps Installations West comments.

Our Response
The Commandant of the Marine Corps and Commanding General, Marine Corps Installation-
West comments are responsive and the actions meet the intent of the recommendation. No
further action is required.




                                              71
Assessment of DoD Wounded Warrior Matters –                                       Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                              August 22, 2012



C9. Ineligibility to Transfer Unused Post 9-11 GI Bill Benefits
There were Warriors otherwise eligible for the Post 9-11 GI Bill education benefits but not
eligible to transfer their unused benefits to their dependents because they had become
wounded, ill, or injured and could not meet the years-of- service in the Armed Forces
requirement or serve the required additional years. Therefore, the Warriors’ spouse and
children lost this benefit.

C.9. Background
The Post-9/11 GI Bill provides financial support for education and housing to military
personnel with at least 90 days of aggregate service on or after September 11, 2001, or
individuals discharged with a service-connected disability after 30 days. The individual must
have received an honorable discharge to be eligible for the Post-9/11 GI Bill.

According to the United States Department of Veterans Affairs, the following personnel are
eligible to transfer their unused Post 9-11 GI education benefits to their spouse or children:
Any member of the Armed Forces (active duty or Selected Reserve, officer or enlisted) on or
after August 1, 2009, who is eligible for the Post-9/11 GI Bill, and:

     •   Has at least 6 years of service in the Armed Forces on the date of election and agrees to
         serve 4 additional years in the Armed Forces from the date of electing to transfer their
         unused Post 9-11 GI education benefits to their spouse and/or children.
     •   Has at least 10 years of service in the Armed Forces (active duty and/or selected reserve)
         on the date of election, is precluded by either standard policy (service or DoD) or statute
         from committing to 4 additional years, and agrees to serve for the maximum amount of
         time allowed by such policy or statute, or
     •   Is or becomes retirement eligible during the period from August 1, 2009, through
         August 1, 2013. A service member is considered to be retirement eligible if he or she has
         completed 20 years of active duty or 20 qualifying years of reserve service.
     •   For those individuals eligible for retirement on August 1, 2009, no additional service is
         required.
     •   For those individuals who have an approved retirement date after August 1, 2009, and
         before July 1, 2010, no additional service is required.
     •   For those individuals eligible for retirement after August 1, 2009, and before August 1,
         2010, 1 year of additional service after approval of transfer is required.
     •   For those individuals eligible for retirement on or after August 1, 2010, and before
         August 1, 2011, 2 years of additional service after approval of transfer are required.
     •   For those individuals eligible for retirement on or after August 1, 2011, and before
         August 1, 2012, 3 years of additional service after approval of transfer required. 32


32
 See http://www.gibill.va.gov/post-911/post-911-gi-bill-summary/transfer-of-benefits.html , “United States
Department of Veterans Affairs Transfer of Post-9/11 GI-Bill Benefits To Dependents (TEB).”



                                                      72
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012

C.9. Discussion
During this assessment, we observed that there were Warriors eligible for the Post 9-11 GI Bill
but who had to transition out of the Marine Corps for medical reasons before they had at least 6
years of service required by law and could not serve the additional years of service. As a result,
these Warriors could not transfer their unused Post 9-11 GI education benefits to their spouse or
children. This was especially problematic when it was unclear if a Warrior would be able to
attend school and utilize his or her Post 9-11 GI Bill. Transferring the benefit to a spouse could
then become an issue of becoming educationally qualified to obtain employment paying enough
to support the family.

The Wounded Warrior Battalion-West Commander believed that there should be a change to the
policy on the Post 9-11 GI bill that determines when a Service member is eligible to transfer the
unused benefits to a spouse or child. He explained how there are Marines in his Wounded
Warrior units who got “blown up” in combat their first one or two years of service. In his
opinion, being eligible to transfer the unused portion of their Post 9-11 GI education benefits to
their spouse would help their family tremendously if the spouse could get an education and a
good job.

C.9. Conclusion
The WWBn-West Commander was deeply concerned for the economic survivability of
Warriors and their families after they transitioned out of the Marine Corp for medical reasons.
He raised as his top concern the current eligibility requirements to transfer unused portions of
the Post 9-11 GI Bill which precluded many of his Warriors from transferring their benefits to
their spouse or children. We confirmed that there were Warriors who did not meet the
eligibility to transfer their unused portions of the Post 9-11 GI Bill requirements because they
become wounded, ill, or injured and subsequently could not fulfill length of stay of service
requirements.

C.9. Warrior Speak
Refer to Part III, C.9. for “Warrior Speak” that amplifies this observation.

C.9. Recommendation, Management Comments, and Our Response
       C.9. We recommend the Undersecretary of Defense for Personnel and Readiness
       recommend that the Secretary of Defense consider expanding eligibility for
       Warriors assigned to Wounded Warrior units so that they can transfer unused Post
       9-11 GI education benefits to their spouse or children when medical conditions
       preclude the Warrior from meeting the length-of-service eligibility requirements to
       transfer these benefits.

Undersecretary of Defense for Personnel and Readiness Comments
The Assistant Secretary of Defense, Health Affairs responding on behalf of the Acting Under
Secretary of Defense for Personnel and Readiness concurred with comment to our
recommendation. The Assistant Secretary explained that the post 9/11 GI Bill, for purposes of
promoting recruitment and retention, allows members of the Armed Forces to elect to transfer
all or a portion of educational entitlement to a spouse or child. Extending the existing


                                                73
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012

transferability provision for any purpose other than the promotion of recruiting or retention
would not satisfy the intent of the transferability authority, absent a legislative change.

Our Response
The recommendation addressed the requirements of a small, distinct subset of potentially
eligible Warriors for transfer of GI Bill benefits to their spouses or children, i.e., those junior
ranking service members who become wounded, ill, or injured prior to completing their first
enlistment. As an example, a Service member enlists, completes required training, and deploys
to a combat zone in under 12 months. Early in their deployment they are wounded in combat.
Their wounds are severe enough that they cannot take part in a GI Bill educational or vocational
program. Under current rules, they are not allowed to transfer their GI Bill benefits to their
spouse or child, who could become their caregiver for the rest of their life. It is this defined
population that this recommendation covers.

This recommendation was originally directed to the Under Secretary of Defense for Personnel
and Readiness. However, the Assistant Secretary of Defense, Health Affairs was delegated to
provide comments which are partially responsive. While stating that he concurred with the
objective of the recommendation, the Assistant Secretary of Defense, Health Affairs did not
state whether or not he or the Under Secretary of Defense for Personnel and Readiness intends
to recommend that the Secretary of Defense consider expanding eligibility for Warriors
assigned to Wounded Warrior units so that they could transfer unused Post 9-11 GI Bill
education benefits to their spouse or children when medical conditions preclude the Warrior
from meeting the length-of-service eligibility requirements to transfer these benefits.

The Assistant Secretary of Defense, Health Affairs stated that the purpose of the Post 9-11 GI
Bill was to promote recruitment and retention and noted that extending eligibility for any
purpose other than promoting recruitment or retention would not satisfy the intent of the GI Bill
provision without legislative change. However, he did not state whether expanding eligibility to
these Wounded Warriors will promote recruitment. We maintain that providing the proposed
modification to the Post 9-11 GI Bill benefit will have a positive impact on recruitment of new
Service members.

Perhaps even more importantly, beyond any recruitment impact, expanding eligibility to these
Wounded Warriors will redress what we believe is a limitation in the GI Bill that prevents our
most seriously wounded, ill or injured service personnel who are medically unfit and unable to
take advantage of the educational benefit to transfer these benefits to their spouses or children.

In response to the final report, we request that the Under Secretary of Defense for Personnel and
Readiness provide a response to this recommendation. Specifically, we request that the Under
Secretary of Defense for Personnel and Readiness state whether she intends to recommend to
the Secretary of Defense that he consider expanding GI Bill eligibility, either in order to further
promote recruitment and/or proposing an appropriate legislative change to expand the intent of
the Post 9-11 GI Bill transferability authority beyond recruitment and retention to better care for
this small defined population and their families.




                                                74
Assessment of DoD Wounded Warrior Matters –                            Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                   August 22, 2012



Observation D. Challenges for Navy Medicine
Supporting Wounded Warrior Battalion – West
We identified four challenges that need to be addressed by Navy Medicine’s leadership and
staff to facilitate a more effective and successful management and support system for the care,
healing, and transition of Warriors. These challenges are identified as follows:

       D.1. Inconsistent Medical Case Manager Patient Load Guidance

       D.2. Lack of Clarity in Medication Management Policies at Naval Hospital Camp
            Pendleton

       D.3. Non-Adherence to TRICARE Access-to-Care Standards for Specialty Medical Care
            Appointments at Twentynine Palms

       D.4. Lack of Adequate Medical Information Systems Computer Interfaces
We believe that addressing these issues will enhance the quality and timeliness of recovery and
transition of the Marines assigned to the Wounded Warrior Battalion-West.




                                               75
Assessment of DoD Wounded Warrior Matters –                        Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                               August 22, 2012




                              This Page Intentionally Left Blank




                                              76
Assessment of DoD Wounded Warrior Matters –                           Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                  August 22, 2012



D.1. Inconsistent Case Manager Patient Load Guidance
 There was no single standard guidance defining medical case management patient caseloads
 causing uneven distributions of cases and case management overload. As a result, it was not
 clear how many medical case managers were required to fully support the Warriors assigned
 or attached to WWBn-West. Therefore, Warriors were not always receiving needed medical
 case management support, causing delays or other potential adverse impacts on their
 recovery and transition.

D.1. Background
There is no standard guidance used to determine the number of medical case managers required
to adequately support patient loads. Therefore, the correct number of medical case managers
required to fully support all Warriors assigned or attached to WWBn-West was not defined.
The multiple sources of guidance below that determine medical case manager patient loads
differed in numbers from 17 to 30 patients per medical case manager, to a range from 10 to 50
patients depending on acuity.

The Office of the Undersecretary of Defense, Directive Type Memorandum 08-033, “Interim
Guidance for Clinical Case Management for the Wounded. Ill, and Injured Service Member in
the Military Health System,” August 26, 2009, established that the standard number of cases to
be managed by each case manager shall be no more than 30.

The DoD TRICARE Medical Management Guide, Case Management Version 3.0, establishes
that no more than 17 Wounded Warriors in an outpatient setting will be assigned to one Medical
Care Case Managers

In contrast, the Department of the Navy Bureau of Medicine Instruction 6300.17, “Navy
Medicine Clinical Case Management,” November 23, 2009, established that the case load for
Case Managers can range from 10 to 50 patients depending on acuity of the patients.

Assignment of a patient (or a Marine/Warrior) to a medical case manager is the responsibility of
the Bureau of Navy Medicine and Navy Medical Treatment Facilities. The Wounded Warrior
Regiment’s licensed clinical consultants assist the Bureau of Navy Medicine and Navy Medical
Treatment Facilities to identify patients (Marines/Warriors) who may require medical case
management. This partnership between Bureau of Navy Medicine, Navy Medical Treatment
Facilities, and the Wounded Warrior Regiment is aimed at facilitating the assignment of
medical case managers, as appropriate.

All Navy Medical Treatment facilities make assignments to medical case management based
upon guidelines published by the Case Management Society of America and the Department of
Defense Medical Management guidelines.

D.1. Discussion
During this assessment, we observed that there was a difference in the guidance for how many
medical case managers were required to resource Wounded Warrior Battalion-West. It was

                                              77
Assessment of DoD Wounded Warrior Matters –                                        Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                               August 22, 2012

evident from the different definitions of medical case manager patient loads that it was difficult
to determine, justify, request, staff, and resource/fund the correct number of medical case
managers required by Navy Medicine-West to fully support all Warriors assigned or attached to
WWBn-West.

It is important to note that we observed that the medical case managers at WWBn-East were
assigned to the battalion and dedicated to the Warriors. In contrast, the medical case managers,
referred to as Nurse Case Managers, at WWBN-West were not assigned to the battalion and had
mixed patient loads of Warriors as well as patients who were not assigned or attached to
WWBn-West.

The following information was provided about the medical case manager-to-patient and Warrior
ratios at Naval Medical Center San Diego.

                Table 3. Naval Medical Center San Diego Nurse Case Managers
                 NCM Interviewed                            Patients Assigned*
                          A                                          38
                          B                                          22
                          C                                          29
                          D                                          31
                          E                                          36
*At the time of this assessment the five Nurse Case Managers interviewed at Naval Medical Center San Diego
were assigned either to the Comprehensive Combat and Complex Causality Care program or to the Director for
Health Business. Neither group specifically identified patients who were Warriors and who were not Warriors at
the time of this assessment.

The following information was provided by 10 of the 23 Nurse Case Managers at Camp
Pendleton, at the time of this assessment, about the medical case manager-to-patient and
Warrior ratios at Naval Hospital Camp Pendleton.

                Table 4. Naval Hospital Camp Pendleton Nurse Case Managers
                 NCM Interviewed                    Non-Warrior / Warriors Assigned
                         A                                      31 / 10
                         B                                       22 / 3
                         C                                     30 / 9-10
                         D                                       23 / 6
                         E                                    31 / 10-11
                         F                                       31 / 6
                         G                                       31 / 7
                         H                                        9/2
                         I                                      30 / 8-9
                         J                                        7/4

Additionally, the following information was provided by two of the four Nurse Case Managers
at Twentynine Palms, at the time of this assessment, about the medical case manager-to patient
and Warrior ratios at Naval Hospital Twentynine Palms.



                                                      78
Assessment of DoD Wounded Warrior Matters –                                        Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                               August 22, 2012



                Table 5. Naval Hospital Twentynine Palms Case Managers
          NCM Interviewed                   Non-Warrior / Warriors Assigned
                A                                      76 / 7 – 8
                B                                      78 / 7
The Nurse Case Managers at Camp Pendleton indicated that assignments were made based on
the patient’s or Warrior’s acuity as well as the number of patients the medical case manager was
currently assigned. Acuity was based on the number of interventions a medical case manager
may be required to perform and the frequency of follow ups with a patient or Warrior.
Interventions included events such as medication counseling, arranging durable medical
equipment 33, and educating family members. The Nurse Case Managers, at Camp Pendleton
emphasized that there is “never enough time in the day” to adequately handle their work load.

The Nurse Case Managers at Twentynine Palms explained that they usually averaged 55 to 60
patients, but that with the shortage of Nurse Case Manager, even according to Navy Bureau of
Medicine Instruction 6300.17, it seemed they only had time for crisis intervention. The Nurse
Case Managers could no longer manage inpatients (both Warriors and other patients) due to
time constraints caused by the number of cases assigned to each case manager. They often had
to reduce the time they spent with inpatients so they could spend more time with outpatients
(both Warriors and other patients). Warriors, as well as other patients, were only assigned
medical case managers after they were discharged as inpatients and started to receive outpatient
care.

D.1. Conclusion
The Nurse Case Managers expressed concern that because of the number of cases each had
assigned, they did not have enough time to complete their duties and that the Warriors,
especially inpatient Warriors, may not be getting the proper support they needed for recovery
and transition. Furthermore we observed that Warriors assigned or attached to WWBn-West
did not have Nurse Case Managers dedicated to the battalion or medical case managers with a
Warrior-only patient load. This placed the Nurse Case Managers at potential risk of not being
able to effectively support each individual Warrior’s specific medical and/or transition needs.
There was no overarching guidance for medical case managers that identified patient loads
based on care acuity, complexity, and evidence-based practices. 34

D.1. Warrior Speak
Refer to Part III, D.3. for “Warrior Speak” that amplifies this observation.




33
   Durable medical equipment has to be reusable to be considered “durable” and includes such items as
wheelchairs, oxygen equipment, and crutches. This equipment also includes hospital beds, patient lifts, power
scooters and nebulizers. The durable medical equipment must be considered to be necessary due to a patient’s
physical and medical conditions and it must be needed in the home of the patient.
34
   Evidence-based practice, as defined by Nurse Case Managers at Camp Pendleton, was ‘the integration of the best
research evidenced with our clinical expertise and our patient’s unique values and circumstances.”


                                                       79
Assessment of DoD Wounded Warrior Matters –                             Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                    August 22, 2012



D.1. Recommendation, Management Comments, and Our Response
        D.1.1. We recommend the Undersecretary of Defense for Personnel and Readiness
        implement policy that establishes and requires adequate medical case management
        staffing ratios specific to the Wounded Warrior program based on patient acuity,
        complexity and evidence-based practices.

Undersecretary of Defense for Personnel and Readiness Comments
The Assistant Secretary of Defense Health Affairs, responding on behalf of the Under Secretary
of Defense for Personnel and Readiness, concurred with the recommendation. The Assistant
Secretary of Defense, Health Affairs explained that they are working towards establishing case
manager staffing ratios that will consider variables associated with acuity and complexity of
care coordination requirements. Furthermore, the Assistant Secretary explained that the case
manager staffing ratios would be consistent with the statutory requirements of the National
Defense Authorization Act for Fiscal Year 2008, Section 1611 (e) (3) (C), recognizing that the
Secretaries of the Military Departments concerned may waive such limitation with respect to a
given manager for not more than 120 days in the event of unforeseen circumstances. The
expiration date for DTM 08-033 was May 31, 2012. A formal request was submitted for an
additional 6-month extension. A response to this extension request has not yet been received.

Our Response
The Assistant Secretary of Defense Health Affairs comments are responsive and meet the intent
of our recommendation. However, in response to the final report, we request the Assistant
Secretary of Defense Health Affairs provide an update on the status of the requested extension
and an estimated timeline for the DoD Instruction implementation.

       D.1.2. We recommend the Commander, Navy Medicine-West implement policy
       to assign dedicated medical case managers to patients assigned or attached to
       WWBn-West Warriors.

Navy Medicine West Comments
The Chief of Staff, Navy Medicine West concurred with comment to our recommendation. The
Chief explained that while Navy Medicine-West Instruction 6320.1 formally directs the
following items, many of the items were in place before the instruction was promulgated on
November 10, 2011. They include:

   •    All Wounded Warriors will initially be assigned a Clinical Case Manager. Continuing
        Clinical Case Manager services will be contingent upon Wounded Warrior needs.

   •    Clinical Case Managers will be dedicated at medical treatment facilities with a routine
        caseload greater than 36 Warriors, carrying a caseload of no more than 20 Wounded
        Warriors per Clinical Case Manager.




                                               80
Assessment of DoD Wounded Warrior Matters –                                Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                       August 22, 2012

   •    Dedicated Clinical Case Managers will be embedded within the WWBn-West
        detachment whenever possible.

   •    Medical Treatment Facilities will utilize Clinical Case Manager extenders (i.e. licensed
        vocational nurses, licensed practical nurses, administrative staff) if unable to fill Clinical
        Case Manager positions. Clinical Case Manager extenders will work under the
        supervision of the Clinical Case Manager.

Additionally, Warriors currently checking in to WWBn-West Detachment at Camp Pendleton
are assigned a dedicated Wounded Warrior Case Manager that will remain the Warrior’s case
manager throughout their care. Furthermore, the Chief explained that at the time of our visit,
Naval Hospital Twentynine Palms had only 4 of their 8 case manager positions filled. As of
April 13, 2012, they currently have 6 of the 8 their case manager positions filled with three of
the case managers designated to the Twentynine WWBn-West Detachment.

Our Response
The Chief of Staff, Navy Medicine West comments are responsive and the actions meet the
intent of the recommendation. However, in response to the final report, we request the Chief of
Staff, Navy Medicine West provide an update to the hiring actions to ensure the full
complement of clinical case managers have been placed at Twentynine Palms as indicated.

       D.1.3. We recommend the Commander, Navy Medicine-West ensure enough
       medical case managers are assigned to prevent them from being overloaded
       and unable to provide all necessary support required by Warriors.

Navy Medicine West Comments
The Chief of Staff, Navy Medicine West concurred with comment to our recommendation. The
Chief explained that the Navy Medicine West Instruction 6320.1, November 10, 2011 outlines
the Wounded Warrior to Case Manager ratio to be no more than 20:1.

Our Response
The Chief of Staff, Navy Medicine West comments are responsive and the actions meet the
intent of the recommendation. However, in response to our final report, we request that the
Chief, Navy Medicine West, provide a copy of the signed Navy Medicine-West Instruction
6320.1, dated November 10, 2011 which outlines the Wounded Warrior to Case Manager ratio.




                                                 81
Assessment of DoD Wounded Warrior Matters –                                          Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                 August 22, 2012



D.2. Lack of Specificity in Medication Management Policies
at Naval Hospital Camp Pendleton
     The Naval Hospital Camp Pendleton did not have specific medication management policies or
     procedures in place to manage Warriors who were prescribed multiple medications. As a
     result, Warriors were at risk of having an adverse reaction from these medications which could
     negatively affect their health, recovery and transition.

D.2. Background
“Poly-pharmacy” is the use of a number of different drugs, possibly prescribed by different
doctors and filled by different pharmacies, by a patient who may have one or several health
problems. 35

According to the Navy’s Pharmacy Consultant, Navy Bureau of Medicine and Surgery
(BUMED) does not currently have a policy on poly-pharmacy. In a follow up on this issue,
BUMED had requested a copy of the Army’s instruction on poly-pharmacy and planned to have
Wounded Warrior and Behavioral Health subject matter experts review the instruction to see
how a similar instruction may benefit Warriors transitioning through Navy medical care.

D.2. Discussion
This assessment determined that Naval Hospital Camp Pendleton did not have specific
medication management policies or procedures in place to manage Warriors who were
prescribed multiple medications. This was confirmed by the Wounded Warrior Pharmacist at
Naval Hospital Camp Pendleton.

A member of the medical provider staff at the Naval Hospital Camp Pendleton Traumatic Brain
Injury (TBI) clinic also stated the clinic was not aware of a policy or Standard Operating
Procedure to reconcile the use of multiple medications. It was also not clear to the medical
provider staff exactly who was responsible to delete inappropriate medications from Warriors’
medication profiles. The member further explained that Naval Hospital Camp Pendleton did
have a policy for outpatient medication reconciliation, but it did not specifically state who was
responsible, only that it was expected to be done. Additionally, this policy did not specify
procedures to update medication profiles in the Armed Forces Health Longitudinal Technology
Application Interface (AHLTA).

D.2. Conclusion
Managing medications for Warriors was challenging due to the number and types of
medications that were prescribed and the fact that both military and civilian healthcare providers
were prescribing these medications. We also acknowledge that Naval Hospital Camp Pendleton
had policy for medication reconciliation to address this issue. However, we observed that the
existing policy was for outpatients only and did not specify who was responsible to actually

35
     See http://medical-dictionary.thefreedictionary.com/polypharmacy, Mosby's Medical Dictionary, 8th edition.



                                                         82
Assessment of DoD Wounded Warrior Matters –                               Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                      August 22, 2012

execute the policy and conduct the medication reconciliation. Without specific medication
management and poly-pharmacy policies that assign responsibility and identify procedures, the
identification and reduction of potentially harmful Warrior medication-related incidents was
difficult if not impossible.

D.2. Warrior Speak
Refer to Part III, for “Warrior Speak” that amplifies this observation.

D.2. Recommendations, Management Comments, and Our Response
       D.2.1. We recommend the Surgeon General of the Navy and Chief, Navy Bureau of
       Medicine and Surgery update policies and procedures for overall Navy Medicine
       poly-pharmacy management and medical reconciliation.

Bureau of Medicine and Surgery Comments
The Bureau of Medicine and Surgery concurred with comments to our recommendation.
Bureau of Medicine and Surgery explained that the specific language of this recommendation
implies that there should be only one process for poly-pharmacy management and medication
reconciliation throughout the Navy Medicine Enterprise. They explained that the current
BUMED position is that detailed, specific guidance for poly-pharmacy management and
medical reconciliation must be developed and implemented at the MTF level. BUMED also
strongly concurs with the recommendation for updated policies and procedures at Naval
Hospital Camp Pendleton, but maintains that developing and updating local policies under the
authority of the MTF Commanding Officer would best serve patients in that it would match
local policies and capabilities to the needs of the particular patient population. BUMED further
explained that a detailed, centralized policy would be difficult to implement, considering the
wide variation of practice settings in Navy Medicine. That being said, BUMED will continue to
emphasize the requirement for effective medication management policies at the local level to
promote safe and effective care.

Finally, BUMED mentioned that in support for local MTF healthcare operations, BUMED
established the Navy Comprehensive Pain Management Program (NCPMP) to improve the
capability and capacity of the Navy’s pain management resources, and to foster healing and
reduce suffering from acute and chronic pain. Additional information shared by BUMED
regarding this program, to include Telemedicine services, training, and development of future
guidance can be found in Appendix E, page 143-144.

Our Response
The Bureau of Medicine and Surgery comments are partially responsive. We acknowledge the
work being done to establish the Navy Comprehensive Pain Management Program and agree
that developing and updating local policies under the authority of the MTF Commanding
Officer is appropriate. However, in response to the final report, we request that Navy Medicine
West address what is being done at the local level and provide all pertinent local policies and
procedures that address poly-pharmacy management and medication reconciliations practices.




                                                83
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012

       D.2.2. We recommend the Commander, Navy Medicine West implement
       policies and procedures for including all medications ordered in AHLTA or
       not ordered in AHLTA that ensure there are specified responsible personnel
       for poly-pharmacy management and medication reconciliation for all Warriors
       assigned or attached to WWBn-West.

Navy Medicine West Comments
The Chief of Staff, Navy Medicine West concurred with comment to our recommendation. The
Chief explained that while Navy Medicine West Instruction 6320.1 formally directs the
following items, many of the items were in place before the instruction was promulgated on
November 10, 2011. They include:

   •    All medical treatment facilities will identify designated/dedicated clinical pharmacists to
        provide Warrior services.

   •    All Wounded Warriors will receive a deliberate medication review and reconciliation
        conducted by a clinical pharmacist within 3 working days of assignment to the Wounded
        Warrior unit/program.

   •    The deliberate medication review will minimally include the following elements:

           o A review of the Warrior’s medication profile and medical history using
             electronic health record systems (CHCS and AHLTA).

           o A reconciliation of medications listed in the electronic health record compared
             with medications reported by the Warrior.

           o Consideration of medications appropriateness, effectiveness, dosage, and
             monitoring.

           o Assessment of drug-to-drug, drug-to-disease, and drug-to food/herbal
             interactions.

           o Warrior compliance with prescribed therapy.

           o Poly-pharmacy challenges.

           o Assessment of need for restrictive dispensing of opioid, benzodiazepine, tricyclic
             anti-depressant, anti-psychotic, or insomnia relieving medications.

           o Educate the Wounded Warrior about his or her medications.




                                                84
Assessment of DoD Wounded Warrior Matters –                           Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                  August 22, 2012

Additionally, after initial evaluation, the WWBn-West Primary Care Manager at Naval Hospital
Camp Pendleton is responsible for regular follow-up with the Wounded Warriors, typically
once per month, to review medications. If there are any concerns, additional clinical pharmacist
review is conducted.

Our Response
The Chief of Staff, Navy Medicine West comments are responsive and the actions meet the
intent of the recommendation. However, in response to our final report, we request that the
Chief, Navy Medicine West, provide a copy of the signed Navy Medicine West Instruction
6320.1, November 10, 2011, which outlines poly-pharmacy management and medication
reconciliation.




                                              85
Assessment of DoD Wounded Warrior Matters –                                     Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                            August 22, 2012



D.3. Non-Adherence to TRICARE Access-to-Care Standards
for Specialty Medical Care Appointments at Twentynine
Palms
 Navy Medicine’s specialty medical care appointment practices were not ensuring that
 Warriors at Twentynine Palms received specialty medical care appointments in accordance
 with prescribed TRICARE standards of distance and time traveled. Therefore, the lack of
 specialty medical care within standards placed Warriors at risk of potentially delayed
 healing and prolonged transition times.

D.3. Background
For discussion, it is important to understand the terms Specialty Medical Care and Referral.

Specialty Medical Care
Specialty Medical Care is generally defined as care that a Primary Care Manager (PCM) is not
able to provide. A Primary Care Manager is either a military or civilian healthcare provider
(e.g. physician, physician’s assistant, or nurse practitioner) who is the medical point of contact
and healthcare advocate for the Warrior. Primary Care Managers provide primary oversight and
continuity of healthcare and are to ensure the level of care provided is of the highest quality.
They are the gateway to all specialty care (such as behavioral health specialists or orthopedic
surgeons) and they coordinate with other physicians to ensure that the Warriors are getting the
treatment that they need.

Referral
A referral means a patient has been sent, referred, for a second opinion or therapy to a specialist
or sub-specialist because the patient has a disease or condition that the primary or referring
physician cannot, or does not wish to, treat. The expectation is that the patient will continue
seeing the original physician for coordination of total care. The referral is the formal process
when a primary care provider authorizes a patient to receive care from a specialist or hospital.
The Department of Defense (TRICARE) system requires patients obtain a referral from a
primary care manager before seeing a specialist. 36

TRICARE Standards
In accordance with the most recent Office of the Assistant Secretary of Defense (Health
Affairs), TRICARE Policy for Access to Care Memorandum, February 23, 2011, all eligible
beneficiaries must be offered a specialty care medical appointment with an appropriately trained
provider within 4 weeks (28 calendar days) or sooner, if required, and within one hour from the
beneficiary’s residence.

It is important to note that a basic principle of the TRICARE program business design plan is
that if a military treatment facility (MTF) does not have the capability to provide the needed
care, or cannot provide the care within the required access standards, the care will be referred to

36
     See http://medical-dictionary.thefreedictionary.com/referral, “REFERRAL”

                                                        86
Assessment of DoD Wounded Warrior Matters –                          Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                 August 22, 2012

the TRICARE provider network. The determination as to whether the MTF can provide the
needed care should be made by the MTF within one business day of the request.

Geographic Reference
It is approximately a 155-mile or almost 3 hour drive from Twentynine Palms to Camp
Pendleton. It is approximately a 195-mile or 3 ½ hour drive from Twentynine Palms to Naval
Medical Center San Diego. It is approximately a 40-mile or 45 minute drive from Camp
Pendleton to Naval Medical Center San Diego. These commute times can be longer depending
on traffic conditions.




Observation C.7., page 65 of this report, addresses overall transportation challenges for
Warriors at Twentynine Palms for which the Commander, Wounded Warrior Regiment and
Commander, WWBn-West is responsible for.

D.3. Discussion
During this assessment we observed that Warriors at Twentynine Palms were not always
receiving specialty medical care appointments that met the established TRICARE standard of
within a one-hour drive of a beneficiary’s residence. The inability to meet this established
TRICARE standard was compounded by the reliance on Naval Medical Center San Diego and
Naval Hospital Camp Pendleton for specialty medical care in lieu of referring Warriors to
civilian medical facilities when Naval Hospital Twentynine Palms could not meet established
TRICARE access standards for specialty medical care.

A Primary Care Manager at Naval Hospital Twentynine Palms described that the Twentynine
Palms area had limited access to specialty care medical resources and that Naval Medical


                                              87
Assessment of DoD Wounded Warrior Matters –                           Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                  August 22, 2012

Center San Diego and Naval Hospital Camp Pendleton were too far away (155 to 195 miles
away). Nonetheless, the Primary Care Manger recommended that the Naval Hospital
Twentynine Palms needed to establish more access to specialty medical care with local
specialty care medical providers. The Naval Hospital Twentynine Palms Commanding Officer
acknowledged that the two primary military treatment facilities, Navy Medical Center San
Diego and Naval Hospital Camp Pendleton, were beyond TRICARE driving distance standards
from Twentynine Palms.

The Nurse Case Managers at Naval Hospital Twentynine Palms expressed that their challenge
was making appointments for coordinated specialty care between multiple specialty care
providers because the specialty care was located so far away (155 to 195 miles away) at Naval
Medical Center San Diego or Naval Hospital Camp Pendleton. These Nurse Case Managers
explained that access to specialty medical care appointments in the Twentynine Palms area was
not as good as access at Naval Medical Center San Diego or Naval Hospital Camp Pendleton
because of the geographic and isolated location of Twentynine Palms.

The Nurse Case Managers went on to explain that Navy Medicine was looking into contracting
out services for more timely and accessible Traumatic Brain Injuries (TBI) evaluations close to
Twentynine Palms because so many Marines at Twentynine Palms required this type of
specialty medical care. This was necessary because these Marines had to travel to Naval
Medical Center San Diego or Naval Hospital Camp Pendleton for TBI evaluations. Navy
Medicine arranged for neuro-psychology providers to travel to Naval Hospital Twentynine
Palms twice a week to increase access to this specialty medical care. The Nurse Case Managers
suggested that the same type of arrangements were needed for cardiology, neurology,
orthopedics, vestibular, ear-nose-and-throat surgeons, and pain management specialty medical
care. Additionally, the Nurse Case Managers said that Navy Medicine seemed to be reluctant to
authorize patients (Warriors) to seek civilian healthcare sources.

It appeared that the Warriors assigned to Twentynine Palms may have been required to travel
farther than the prescribed TRICARE one-hour travel time for specialty medical care because of
a legacy Navy Medicine-West business plan or appointing model. The Naval Hospital
Twentynine Palms staff explained that under a previous Commander of Navy Medicine-West,
Navy Medicine’s goal was to have all specialty medical care provided in military treatment
facilities regardless of distance and time-of-travel considerations.


D.3. Conclusion
Access to specialty medical appointments within the TRICARE travel time limitation was a
challenge due to the location of Twentynine Palms and could also be attributed to a legacy Navy
Medicine-West business plan or appointing model that strived to have all specialty medical care
provided in military treatment facilities. We observed that Navy Medicine had taken some
proactive measures to provide certain specialty medical care close to Twentynine Palms.
However, we noted that the geographic location of Twentynine Palms, in conjunction with
Navy Medicine’s appointing practices and dependence on Naval Medical Center Dan Diego and
Naval Hospital Camp Pendleton continued to result in some Warriors located at Twentynine



                                              88
Assessment of DoD Wounded Warrior Matters –                               Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                      August 22, 2012

Palms receiving specialty care medical appointments outside prescribed TRICARE standards of
no more than the required one hour travel time.

D.3. Warrior Speak
Refer to Part III, for “Warrior Speak” that amplifies this observation.

D.3. Recommendations, Management Comments, and Our Response
       D.3. We recommend the Commander, Navy Medicine West implement procedures
       to ensure all TRICARE standards are met regarding WWBn-West Warriors’
       access-to-care, including for referring medical care appointments.

Navy Medicine West Comments
The Chief of Staff, Navy Medicine West, concurred with comment to our recommendation.
The Chief explained that since our visit, the Naval Hospital Twentynine Palms has contracted
an in-house TBI program manager, which has decreased the Wounded Warrior travel
requirements, including agreements/utilization of TBI/Vestibular and Occupational Therapy
civilian providers at the Eisenhower Medical Center in Rancho Mirage, CA (68 miles away).
Furthermore, based on demand analyses, Naval Hospital Twentynine Palms has instituted part
time “circuit-rider” specialty providers from Naval Medical Center San Diego. These
specialties include Podiatry (2 days per month), Neurology (2.5 days per month), and
Otolaryngology (2 days every other month).

Our Response
The Chief of Staff, Navy Medicine West comments are responsive. We acknowledge the
significant work that has been implemented to meet access to care for the identified medical
specialty care areas. We also acknowledge that meeting prescribed TRICARE access-to-care
standards could remain a challenge for Warriors at Twentynine Palms. However, in response to
the final report, we request that the Chief of Staff, Navy Medicine West provide an update as to
whether or not the addition of stated specialty providers has allowed Naval Hospital
Twentynine Palms to meet the established TRICARE access to care standards.




                                                89
Assessment of DoD Wounded Warrior Matters –                            Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                   August 22, 2012



D.4. Lack of Adequate Medical Information Systems
Computer Interfaces
 An inability to assure the accuracy of Warrior medical information in information system
 data bases put Warriors at risk of delayed recovery and transition and/or incorrect
 medication reconciliation.

D.4. Background
The Composite Health Care System (CHCS) is a Tri-Service automated medical management
information system used in all Department of Defense military treatment facilities (MTFs)
worldwide to support hospital administration and clinical healthcare. CHCS is the target
automated information system for the clinical area of DoD's Military Health System (MHS). It
is an evolutionary program that unites functionalities of over 50 different DoD and Service-
unique automated information systems in varying stages of computer-based patient records for
all MHS beneficiaries. CHCS integrates all patient record information clinical systems of the
three Services into a single joint system, increasing access to information, taking advantage of
advanced business practices, integrating civilian healthcare sector practice, and allowing MTFs
to be more efficient in protecting lives and resources.

The Armed Forces Health Longitudinal Technology Application (AHLTA) is the clinical
information system that generates and maintains a lifelong, computer-based outpatient record
for every Soldier, Sailor, Airman and Marine, and their family members; and others entitled to
DoD military care who receive care in a military treatment facility.

AHLTA provides secure online access to military health system beneficiary records. It is used
by DoD medical providers in all fixed and deployed military treatment facilities. This
centralized electronic heath record is intended to enable healthcare personnel worldwide to
access complete, accurate health data to make informed patient care decisions at the point of
care. AHLTA allows for the central storage of standardized electronic health record data that is
available for worldwide sharing of patient information. Many users have access to the system;
however, permission to view or retrieve information is based on their particular role. AHLTA
users include: physicians, nurses, corpsmen, medics, technicians, clerks and office managers.

During a follow-up with the Wounded Warrior Regiment concerning this observation, we were
informed that training on the Health Insurance Portability and Accountability Act (HIPAA),
which addresses the security and privacy of all health data, was required for all WWBn-West
staff members, as well as the Warrior Regiment Medical Cell, regardless of their access
requirements to CHCS and/or AHLTA. HIPAA training was also required for all staff assigned
to Naval Medical Center San Diego, Naval Medical Hospital Camp Pendleton, and Naval
Medical Hospital Twentynine Palms regardless of their level of access to CHCS and/or
AHLTA.

Observation C.6., page 60 of this report addresses different computer information technology
program interface problems, for which the Deputy Commandant for Manpower and Reserve
Affairs is responsible.

                                               90
Assessment of DoD Wounded Warrior Matters –                          Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                 August 22, 2012

D.4. Discussion
Composite Health Care System Host/Interface Problem
During this assessment, the first medical information system computer interface problem we
observed was that the CHCS at Naval Medical Center San Diego and the CHCS at the Naval
Hospital Twentynine Palms had difficulty sharing data.

A Nurse Case Manager at Twentynine Palms described multiple difficulties getting timely
processing and accurate referral management requests from Naval Medical Center San Diego’s
CHCS. Specifically, Warriors’ referral medical appointment information that was received by
Naval Medical Center San Diego from Naval Medical Center Twentynine Palms had to be
either re-typed or “cut-and-pasted” into Naval Medical Center San Diego’s CHCS in order to
make the referral-medical-appointment. The Nurse Case Manager went on to describe how
sometimes not all the relevant information was copied into the Naval Medical Center San
Diego’s medical referral appointing system and consequently these referral medical
appointments were incomplete and they were not processed in a timely fashion. The Nurse
Case Manager stated that “sometimes Balboa (Naval Medical Center San Diego) is referred to
as the “Black Hole” in regards to processing referrals.”

Another Nurse Case Manager at Twentynine Palms stated that the non-visibility problem
concerning the Naval Medical Center San Diego appointments affected the efficiency of
managing medical appointments due to difficulty sharing CHCS data between Naval Medical
Center San Diego and Naval Hospital Twentynine Palms.

Composite Health Care System and Armed Forces Health Longitudinal Technology
Application Interface Problem
The second medical information system computer interface problem we observed was that
between the Pharmacy Data Transaction Service (PDTS) and AHLTA. PDTS is a centralized
drug data repository that stores patient prescription data, including Warriors’ prescriptions
ordered outside a military treatment facility. WWBn-West Warriors were often prescribed
and/or obtained medication prescriptions from non-DoD, off-base medical providers and
pharmacies. The dispensing of these medications was documented by the dispensing pharmacy
into the PDTS. However, to be able to monitor Warriors’ medication consumption, Warriors’
medication records in PDTS had to be transferred into AHLTA. An interface was developed so
that all AHLTA users could view the PDTS medication records in AHLTA to have complete
awareness of all medications prescribed to patients to avoid any potential adverse medication
reactions. The Defense Health Information Management System notified all users that not all
medications documented into PDTS were being transferred into AHLTA which could result in
the risk that the medical reconciliation of medications prescribed and taken by Warriors was
inaccurate.

The Naval Hospital Camp Pendleton Traumatic Brain Injury Clinic staff explained that there
was a “disconnect” between CHCS and AHLTA in describing Warriors’ list of active
medications. Providers used CHCS to order Warrior medications, but when reconciling
Warriors’ medications, those doing the reconciliation used AHLTA.




                                              91
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012

In September, 2010 the Defense Health Information Management System office sent an e-mail
to all users notifying them of the interface problems and described potential mitigating actions
that could be taken while their analysis of the issue continued.

In February, 2012 the TRICARE Management Agency, responding for the Office of the
Secretary of Defense, Health Affairs, explained that efforts were underway to address electronic
medication profile update capabilities. Two System Change Requests (SCRs) for funding have
been approved for submission to the DoD Fiscal Year 2014 budget to address medication
profile update capabilities. The intent of the SCRs is to upgrade electronic interfaces so that
users can share medication profiles between AHLTA, CHCS, PDTS, and Veterans Affairs
databases. These system upgrades will include prescription medications and over-the-counter
medication status capabilities with the ability to be updated with or without a patient encounter.

D.4. Conclusion
Concerning the difficulty of sharing CHCS data, we observed that there was a risk of Warrior’s
medical information being incorrect or incomplete when medical treatment facilities (MTFs)
shared information through CHCS. We acknowledge that the MTF staff took steps to work
around the problem by “cutting-and-pasting” or re-typing Warriors information into the
appropriate CHCS system. However, despite the efforts of MTF staff, Warriors will continue to
be at risk of delayed recovery and transition as long as MTFs experience difficulty with the
electronic interface sharing of CHCS data.

We believe it is essential that Navy Medicine-West leadership ensure that procedures are in
place that guarantees the accuracy and completeness of each Warrior’s medical information
when that information is being shared between MTFs.

Concerning the PDTS/AHLTA interface problem, we acknowledge that the Defense Health
Information Management System office acted proactively by identifying the issue and notifying
users to take steps to mitigate the risk. The SCR’s, DoD funding for Fiscal Year 2014 indicates
that there will be no resolution of the interface issue for several more years. Until the interface
problem is addressed, medical care personnel are at risk of not having complete and accurate
medication profiles for Warriors.

We believe it is essential that Navy Medicine-West leadership ensure that procedures are in
place that guarantee the accuracy and completeness of each Warrior’s medication profile and
that medication reconciliations are conducted correctly and in a timely manner.

Both the medical data sharing and the medication profile interface problems must be resolved to
avoid inaccurate clinical and/or management decisions that could negatively affect Warriors’
medical care.

D.4. Recommendations, Management Comments, and Our Response
       D.4.1. We recommend the Office of the Assistant Secretary of Defense for Health
       Affairs develop and resource solutions to CHCS data sharing difficulties.




                                                92
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012



Assistant Secretary of Defense for Health Affairs Comments
The Assistant Secretary of Defense Health Affairs, concurred with comment to our
recommendation. TRICARE Management Activity (TMA) addressed this recommendation
previously in response to “Assessment of DoD Wounded Warrior Matters – Camp Lejeune,” Report
No. DODIG-2012-067, March 30, 2012. As part of their response, they explained that efforts are
underway to enhance the medical reconciliation capability within AHLTA/Composite Health
Care System (CHCS). TMA stated that currently, DoD healthcare providers are able to
document changes to medication orders made by DoD providers, but are unable to do so for
medication orders from non-DoD providers, to include Department of Veterans Affairs and
civilian providers. Two system change requests have been approved to address this, which
include:

   •    Allow users to mark as "Taking/Not Taking" each patient's current medications,
        regardless of the source system. For example, the source systems include, but are not
        limited to, AHLTA, CHCS, VA, or the Pharmacy Data Transaction System (PDTS).
        This update can be done during a patient encounter or without initiating an encounter.

   •    Change the status of a medication to "Taking/Not Taking" when a user marks an over
        the counter (OTC) medication as "Taking/Not Taking."

TMA explained that currently, these enhancements are targeted for funding in Fiscal Year (FY)
2014. The program office is considering other funding options prior to the planned FY 2014
funding.

Our Response
The TRICARE Management Activity, responding on behalf of the Assistant Secretary of Defense
for Health Affairs, provided comments that are responsive and the actions meet the intent of the
recommendation. However, in response to the final report, we request that TMA provide
updates when enhancements with respect to the medical reconciliation capability have been
approved, funded, and implemented.

       D.4.2.a. We recommend the Commander, Navy Medicine West ensure policy
       and procedures are in place to guarantee that all Warriors’ medication profiles
       are maintained accurately and are properly reconciled.

Navy Medicine West Comments
The Chief of Staff, Navy Medicine West concurred with comment to our recommendation. The
Chief explained that while Navy Medicine-West Instruction 6320.1 formally directs the
following items, many of the items were in place before the instruction was promulgated on
November 10, 2011. They include:

   •    All medical treatment facilities will identify designated/dedicated clinical pharmacists to
        provide Warrior services.



                                                93
Assessment of DoD Wounded Warrior Matters –                            Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                   August 22, 2012

   •   All Wounded Warriors will receive a deliberate medication review and reconciliation
       conducted by a clinical pharmacist within 3 working days of assignment to the Wounded
       Warrior unit/program.

   •   The deliberate medication review will minimally include the following elements:

           o A review of the Warrior’s medication profile and medical history using
             electronic health record systems (CHCS and AHLTA)

           o A reconciliation of medications listed in the in the electronic health record with
             medications reported by the Warrior.

           o Consideration of medications appropriateness, effectiveness, dosage, and
             monitoring.

           o Assessment of drug-drug, drug-disease, and drug-food/herbal interactions.

           o Wounded Warrior compliance with prescribed therapy.

           o Poly-pharmacy challenges.

           o Assessment of need for restrictive dispensing of opioid, benzodiazepine, tricyclic
             anti-depressant, anti-psychotic, or insomnia relieving medications.

           o Educate Wounded Warrior about his or her medications.

Furthermore, after initial evaluation, the WWBn-West Primary Care Manager at Naval Hospital
Camp Pendleton is responsible for regular follow-up with the Wounded Warriors, typically
once per month, to review medications.

Our Response
The Chief of Staff, Navy Medicine West comments are responsive and the actions meet the
intent of the recommendation. However, in response to our final report, we request that the
Chief, Navy Medicine West, provide a copy of the signed Navy Medicine-West Instruction
6320.1, November 10, 2011 which outlines poly-pharmacy management and medication
reconciliation.

       D.4.2.b. We recommend the Commander, Navy Medicine-West ensure policy and
       procedures are in place to guarantee that all Warriors’ medical information is
       accurately shared between medical facilities so that Warriors receive proper
       medical treatment within established access-to-care standards.

Navy Medicine West Comments
The Chief of Staff, Navy Medicine West partially concurred with comment to our
recommendation. The Chief explained that given the current enterprise-wide medical
information programs and processes used by Navy Medicine West and other U.S. Navy, Army,


                                               94
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012

and Air Force regional commands, the DoD IG report should distinguish between those issues
which require enterprise-wide action and policy from those which can be changed or impacted
by a specific regional command.

The Chief further commented that Navy Medicine and the Military Health Care System, as an
enterprise, has multiple safety mechanisms in place to ensure safe amounts and combinations of
medications are prescribed to beneficiaries. The Chief stated one example is the Pharmacy Data
Transaction Service (PDTS) Physicians and other authorized prescribers utilize. This is an
extremely robust database that automatically screens prescriptions for interactions against other
prescribed medications when they are entered into the computer. The PDTS captures all
prescription medications that the individual received by incorporating prescription data from
more than 56,000 retail pharmacies and 889 military treatment facilities, regardless of service,
and all prescriptions from the TRICARE/Express Scripts mail service, making it the most
extensive compilation of prescription medication in North America.

The Chief also explained an additional safety mechanism to ensure safe amounts and
combinations of medications are prescribed to beneficiaries, that being the medication
reconciliation performed by the physician, nurse, medical assistant or hospital corpsman at
every visit. A list of medications is generated from the records system and the patient is asked
if the list is what they are actually taking and if they are taking any supplements or medication
that are not on the list.

Furthermore, the Chief included that the Multi-Service Market Office and Naval Medical
Center Sand Diego, Naval Hospital Twentynine Palms has obtained Naval Medical Center San
Diego CHCS access. This access now provides Naval Hospital Twentynine Palms Case
Managers and Referral Management staff to view appointments at Naval Medical Center San
Diego, ensuring Warriors obtain specialty treatment within access-to-care-standards.

Lastly, the Chief of Staff, Navy Medicine West provided additional comments on several other
aspects of the PDTS, to include prescription interactions and duplicates, and warning overrides,
among others. These comments can be found in Appendix E, page 149-150.

Our Response
The Chief of Staff, Navy Medicine West comments are non-responsive. While the Chief
focused on issues that require enterprise-wide action and policy, it is unclear how these issues
are related to specific command level treatment. In response to the final report, we request that
the Chief of Staff, Navy Medicine West provide additional comments to policies and procedures
which are currently in place or being developed that guarantee that all Warriors receiving
medical care in facilities under the responsibility of Commander, Navy Medicine-West have
their medical information accurately shared between medical facilities.




                                                95
Assessment of DoD Wounded Warrior Matters –                        Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                               August 22, 2012




                              This Page Intentionally Left Blank




                                              96
Assessment of DoD Wounded Warrior Matters –           Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                  August 22, 2012




                           Part III - Warrior Speak




                                              97
Assessment of DoD Wounded Warrior Matters –                       Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                              August 22, 2012




                             This Page Intentionally Left Blank




                                              98
Assessment of DoD Wounded Warrior Matters –                             Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                    August 22, 2012



Warrior Speak: Comments from Wounded
Warriors
We believe that it is important to give a “voice” to the Warriors assigned to WWBn-West. The
team interviewed 57 individual Wounded Warriors and five Wounded Warrior cohort groups
assigned to WWBn-West. The following comments are included to further illustrate our
previously made observations, discussions, conclusions and recommendations. These
comments represent a broad sampling of all Warriors interviewed.

A.1. Use of the GOOGLE Calendar
A Reservist Gunnery Sergeant Warrior (E-7) said that: “The use of the GOOGLE calendar is a
really good idea.”

An Active Duty Staff Sergeant Warrior (E-6) also said: “I was not issued Personal Digital
Assistant for tracking my appointments because I have a personal iPhone that I use.”

An Active Duty Sergeant Warrior (E-5) explained that: “The WWBn set everyone up with a
g-mail account and all Warriors are required to post their schedule to their g-mail calendar so
staff has access. Plus, the staff uses g-mail to keep the Warriors informed.”

A.2. Internships and Educational Opportunities
A Reservist Gunnery Sergeant Warrior (E-7) stated that “I am going to medically retire and
want a job with Immigration and Customs Enforcement and will be doing an internship with the
regional Immigration and Customs Enforcement office. I am not required to go to formation. I
go straight to my internship at the regional Immigration and Customs Enforcement office for
four to six hours each morning. I feel that I am definitely filling my days appropriately,
especially since I began my internship.”

A Reservist Gunnery Sergeant Warrior (E-7) indicated: “I have seen a lot more internships and
the pursuit of education than in the past. (NOTE: In order to give a time-reference to the word
“past”; the Gunnery Sergeant had been assigned to the WWBn-West since October 2009.”

An Active Duty Sergeant Warrior (E-5) expressed: “The staff is talking to me about vocational
rehabilitation and they are helping me put together a resume and find a job. I am also looking
into an internship.”

An Active Duty Sergeant Warrior (E-5) expressed the view that: “Every day they push school
and internships; I definitely want to look into school.”

An Active Duty Sergeant Warrior (E-5) said “I will be doing some schooling to get my
Associates degree before I leave the WWBn.”

An Active Duty Sergeant Warrior (E-5) explained: “I started school the end of July (2011) to
get a certification for the police academy and am starting an internship with the FBI. I got the
“green-light” from the First Sergeant to go the police academy and that the WWBn will cut
                                                99
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012

orders to go to school…which is awesome because when you are back in a regular unit you
have to go to school on your own.”

An Active Duty Sergeant Warrior (E-5) stated: “I am at school at National University and want
to go to seminary to become a youth pastor. I am also in an internship at “Gangland Ministry”
working with “gang members.”

An Active Duty Sergeant Warrior (E-5) explained “I am trying to come up with the best
solutions with the doctors to stay in the Marine Corps but I am also taking steps in case this
does not happen. I am involved with college, internships and meetings with companies and
corporations to “keep my foot in the door.”

An Active Duty Corporal Warrior (E-4) expressed: “I had planned to take a six month break
after I separated from the Marine Corps but now that I have a wife and a child on the way, I am
taking general education classes to get me on the right track with my schooling.”

An Active Duty Corporal Warrior (E-4) explained: “I do “ride-alongs” with the Border Patrol
and Police Department and I am discussing my artwork with a mentor in Laguna Beach CA.
The WWBn has good resources; I am aware of all the opportunities through the local colleges.
I feel all opportunities are advertised well and that here are plenty of ways to get tapped in.”

An Active Duty Corporal Warrior (E-4) expressed the view that: “They have internships and all
kinds of resources to help.”

An Active Duty Corporal Warrior (E-4) expressed the view that: “A lot has come down from
the WWBn on education, internships and jobs.”

An Active Duty Corporal Warrior (E-4) said: “I am currently doing an internship with WW
Film Career Foundation and would like to get in with Highland Studios in Carlsbad,
California.”

An Active Duty Corporal Warrior (E-4) explained: “We are required to have five hours of
productive time a day. This week I started an internship with my landlord as a carpenter. I used
to be a carpenter and worked for my father. I have not done carpentry for four and a half years
and am enthusiastically getting back into it. I am ready to get out. I think interning is right for
me.”

An Active Duty Corporal Warrior (E-4) said: “I am taking a class on colleges, admissions, etc.,
so I can have a school picked out and already know what I will study.”

An Active Duty Lance Corporal Warrior (E-3) explained that “When I first arrived all I did was
go to medical appointments. But, they trickled down to one to two appointments per week so I
filled my time by either going to the horse stables or participating in other workshops.
Currently, from 0700 to 1600 daily, I do an internship as a computer tech. I will be starting
school on the 21st of April (2011) for my certification.”




                                               100
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012

An Active Duty Lance Corporal (E-3) stated: “I signed up for classes at Riverside Community
College with the goal to get an Associate’s Degree. I am also enrolled in the Sandler’s Institute
for gun-smithing.”

An Active Duty Lance Corporal Warrior (E-3) explained “I spend my time doing Marine Corps
Institute classes where I basically read a book and answer test questions. There are Marine
Corps Institute classes I can use for college credits.”

An Active Duty Lance Corporal Warrior (E-3) stated: “I do not have a lot of appointments so
that is why I keep school on my schedule.”

An Active Duty Lance Corporal Warrior (E-3) explained “I have been told I am getting out of
the Marine Corps so I am going to vocational training right now for metal fabrication, welding
and milling.”

An Active Duty Lance Corporal Warrior (E-3) explained “I have already visited four different
schools and am hoping to get into a local school- ITT Technical Institute. My Recovery Care
Coordinator has been very helpful. They have looked into ITT Technical Institute and a local
Junior College. I at least want to get started on my general education classes. There are a lot of
people to help; there is a career counselor at the WWBn who will help with schools and Tuition
Assistance concerns. If there is something I am interested in, I just refer it to my section leader
and they do their best to get it for me.”

An Active Duty Lance Corporal Warrior (E-3) explained “I know where to go and who to talk
to for assistance. I recently received help from within the WWBn and enrolled and completed
two economics classes and one history class. My goal is to study history and become a history
teacher.”

A Reservist Lance Corporal Warrior (E-3) stated: “They are doing a pretty darn good job…I am
currently taking one computer class and have been hooked up with an internship with the
Balboa Parks Association IT department.”

B.1. Equal Access to Medical Care
An Active Duty First Sergeant Warrior (E-8) stated there was no difference in access to medical
care between the Active Duty and Reserves; they all have equal access.”

A Reservist Gunnery Sergeant Warrior (E-7) indicated there was no difference in access to
medical care between the Active Duty and Reserve. The Gunnery Sergeant stated: “For both
these groups, across-the- board, they get equal access to care.”

A Reservist Gunnery Sergeant Warrior (E-7) expressed the view that all Warriors in Transition
(both Reserve and Active Duty Warriors) received equal access to patient care and services.

An Active Duty Staff Sergeant Warrior (E-6) and his spouse said they believed there was no
difference in access to medical care between the Active Duty and Reserves. They agreed that:
“It is pretty straight forward; if a guy needs care, he gets it.”


                                               101
Assessment of DoD Wounded Warrior Matters –                            Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                   August 22, 2012

A Reservist Staff Sergeant Warrior (E-6) also said that all Warriors in Transition (both Active
Duty and Reserve Warriors) received equal access to patient care and services.

A Reservist Staff Sergeant Warrior (E-6) stated that all WWBn Recovering Service Members
(Warriors) had equal access and treatment within the medical facilities. He thought the biggest
problem was that Reservists in the unit on Active Duty would sometimes revert from Active
Duty status to Reservist status because the administrative procedures to keep them in an Active
status had not been followed. It took approximately a month to administratively correct this
issue when it occurred. During this time, a Reservist technically did not have TRICARE
medical insurance benefits. It has been a challenge for unit administrative personnel to
adequately support Reservists in this situation.

An Active Duty Sergeant Warrior (E-5) indicated that all Recovering Service Members (both
Active Duty and Reserve Warriors) received equal access to medical services. She explained
that she really did not know of any differences and that she had not heard of any unequal access
to care.

A Reservist Sergeant Warrior (E-5) expressed the view that all Recovering Service Members
(both Active Duty and Reserve Warriors) received equal access to medical services.

An Active Duty Corporal Warrior (E-4) said there was no difference in access to medical care
between the Active Duty and Reserve. The Corporal stated: “As far as the medical care, we are
all treated the same.”

An Active Duty Lance Corporal Warrior (E-3) also said there was no difference in access to
medical care between the Active Duty and Reserves. The Lance Corporals stated: “We are all
“Active Duty” while we are in this battalion.” (WWBn-West)

A Reservist Duty Lance Corporal Warrior (E-3) stated: “Yes, everyone has the same access and
treatment within the medical facilities.”

B.2. Consolidation of Warrior Services
The following comment was received during a group interview with Active Duty Senior NCO
Warriors (E-7 and E8). The group explained: “The entire process should be a ‘One-Stop-Shop.’
Paperwork seems to get lost when it moves from one office to another, especially when the
offices are not in the same location.”

B.3. Post-Traumatic Stress Disorder Services
The following comment was received during a group interview with Active Duty Sergeant
Warriors (E-5). The group expressed: “We list one accomplishment towards transitioning as
attending OASIS, which is an intensive inpatient course.”

C.1. Lengthy Transition Times
An Active Duty Sergeant Warrior (E-5) explained that she feels bad for the Warriors because a
lot of the Warriors have been at WWBN-West for a long time and they just want to get away.



                                              102
Assessment of DoD Wounded Warrior Matters –                                        Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                               August 22, 2012

An Active Duty Corporal Warrior (E-4) explained that he had hit a certain level when his
appointments slowed down and there was only so much he could do. Now he feels like he is
wasting his time. He fills part of his time by going to physical training twice each day. He
summed it up by saying: “The waiting process can be “soul sucking”…there is only so many
times you can fix your resume.”

An Active Duty Lance Corporal Warrior (E-3) explained that the WWBn used to be the best
place for him. He went on to say: “But now the day-in and day-out routine is consuming and I
feel like I am getting stale. The medical board process and the separation process take too
long.” He explained he gets anxiety about being in limbo and he worries about everything.
He said, “I would rather be in Afghanistan than sitting here.”

An Active Duty Lance Corporal Warrior (E-3) stated: “The only problem is that the healing and
transition process takes too long.”

An Active Duty Lance Corporal Warrior (E-3) said: “The process is just too long and too drawn
out.”

An Active Duty Lance Corporal Warrior (E-3) explained that after a while the medical
appointments start dwindling and Warriors…“start scrounging for schedule fillers.” He
expressed that the process needs to speed up. He stated: “Warriors spend years here. There is
only so much transition you can do before it becomes busy work.”

An Active Duty Private First Class Warrior (E-2) explained that the medical board process is
way too long for most people and recommended that the Marine Corps go back to “Home
Awaiting Orders.” 37

C.2. Lack of Dedicated Primary Medical Care for Camp Pendleton
Warriors
An Active Duty Gunnery Sergeant Warrior (E-7) stated that: “The situation with not having a
dedicated Primary Care Manager (PCM) is ‘absolutely a problem.’ The Wounded Warrior
doctor is an Internal Medicine doctor with “one million” other responsibilities. WWBn-West
needs at least one full time position and it could be an Independent Duty Corpsman.”

An Active Duty Staff Sergeant Warrior (E-6) stated he was concerned that the Warrior
battalion did not have its own Medical Officer and that there was only one PCM
assigned to the Warrior battalion. He explained that the Warrior battalion’s PCM was
actually an Internal Medicine Doctor at the Naval Hospital Camp Pendleton and was
responsible for 500 or more patients plus 160 Warriors.




37
   Marine Corps Separation Manual (MARCORSEPMAN). A Marine on active duty found Unfit by the PEB,
whose continued treatment is not warranted, and who has unconditionally accepted the preliminary findings of the
Informal PEB may, subject to the Marine's consent and the command’s approval, be ordered home to await final
disposition of proceedings.


                                                      103
Assessment of DoD Wounded Warrior Matters –                            Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                   August 22, 2012

An Active Duty Staff Sergeant Warrior (E-6) indicated: “We compete with the rest of the
Marine Corps for appointments. The Wounded Warrior Battalion should have a doctor and a
mental health doctor of their own.”

A Reservist Staff Sergeant Warrior (E-6) stated that: “We only have one doctor but he does not
only see us. They can only fit three appointments a day to see him. They have to prioritize. It
took over a month to see him to get an appointment for an MRI. We need our own doctors who
have training to deal with what we actually have. If you fix the doctor issue, Marines could
move on faster, have fewer financial problems, and make room for other Marines.”

An Active Duty Sergeant Warrior (E-5) explained that she believed the WWBn needed a
Battalion Aid Station where they would have one or two medical officers to focus on the
Warriors and take care of sick call and appointment referrals. She stated: “I have not seen my
PCM yet because it is next to impossible.” (This Warrior had been attached to the WWBn for
two and a half months at the time of the interview.)

An Active Duty Sergeant Warrior (E-5) explained that the WWBn required its own PCM for
sick call and for other medical appointments because there were scheduling problems to see the
naval hospital’s PCM. He stated: “We need our own PCM.”

An Active Duty Sergeant Warrior (E-5) expressed: “It is ridiculous to have to get an
appointment with the only medical officer we have. Our PCM is an Internal Medicine doctor
for the whole hospital; and this is the Wounded Warrior Battalion.”

An Active Duty Corporal Warrior (E-4) expressed his concern when he described how “our
PCM has changed seven times in the past two years and our current PCM has many other
patients besides the Warriors. We need a Battalion Aid Station to function as an actual
battalion.”

An Active Duty Corporal Warrior (E-4) stated: “Our primary care doctor has to see his other
internal medicine patients so he is extremely busy, which has a negative impact on the Warriors.
We need a medical officer on site.”

An Active Duty Corporal Warrior (E-4) said: “Getting in with the PCM is a nightmare”

An Active Duty Corporal Warrior (E-4) expressed: “They should have one doctor that is our
doctor. The doctors at the hospital take forever to see you. It is like a cat and mouse game. We
have 150 guys, seventy in transit and eighty to ninety here, and need our own doctor in the
barracks.”

An Active Duty Lance Corporal Warrior (E-3) explained: “I’ve had times when I could not get
in to see my PCM and had to wait a week or so. One day I woke up vomiting and had to wait
four hours to see a doctor because Warriors only have three slots for sick call and the PCM also
takes care of other patients at the Navy hospital.”




                                              104
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012

An Active Duty Lance Corporal Warrior (E-3) said: “There is no Medical Officer assigned to
the battalion.”

An Active Duty Lance Corporal Warrior (E-3) expressed: “We need our own medical officer
for the battalion. We are the only battalion in the Marine Corps that does not have a Medical
Officer and our name is “Wounded Warriors”. I think we need a medical officer.”

An Active Duty Private First Class Warrior (E-2) said: “We need a full time physician on call
24 hours a day.”

C.3. Use of Warriors for Battalion Staff Duties
An Active Duty Gunnery Sergeant Warrior (E-7) simply stated that he believed that: “Warriors
should not be section leaders.”

An Active Duty Staff Sergeant (E-6) Warrior explained that many of the section leaders have
been wounded and gone through the system themselves.

An Active Duty Staff Sergeant Warrior (E-6) said that there are problems when a leader is also
a Warrior. He stated: “We have patient-staff (Wounded Warrior who are staff) types and it is
hard for them to balance their own recovery with dealing with all the Warriors issues. Anybody
“normal” (a staff person who is not also a Wounded Warrior) is going to be hard pressed to
have to deal with Warrior issues.”

A Reservist Sergeant Warrior (E-5) explained that the First Sergeant who is also a Warrior is a
roadblock in the Chain-of-Command dealing with discipline issues. He stated: “This First
Sergeant is not consistent and is too nice because he is also a patient (Warrior) and identifies too
much with the patients (Warriors).”

An Active Duty Corporal Warrior (E-4) stated: “It is stressful for the guys coming into the
WWBn and it seems pretty chaotic because the WWBn is understaffed. This leads to all kinds
of negative issues when Warriors become section leaders.”

An Active Duty Corporal Warrior (E-4) explained that her relationship with her Squad
Leader/Platoon leader “kind of gets her a little.” She explained that other patients (Warriors)
are in charge of her and that she did not like to have her medical information exposed to another
patient (Warrior).”

C.4. Incomplete Consideration for Warriors Healing and Transition
Location Preferences
An Active Duty Sergeant Warrior (E-5) explained that his main goal was to get back home to
his wife no matter what it takes to get there and that he was looking for internships near his
home.

An Active Duty Corporal Warrior (E-4) stated: “I got hit in 2009 and I am just starting my
medical board now; one and a half years later. I cannot afford to move my wife and child here.”



                                                105
Assessment of DoD Wounded Warrior Matters –                                          Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                 August 22, 2012

An Active Duty Corporal Warrior (E-4) explained that he had trouble getting Temporary
Assignment Duty orders for his wife to move from Washington State and ended up paying
$2000 to move her, which was not reimbursed.

An Active Duty Lance Corporal Warrior (E-3) explained that he is enrolled at the University of
Minnesota and will wait to go home to do his schooling there.

An Active Duty Lance Corporal Warrior (E-3) also explained that he was going to start classes
but is waiting on his Expiration of Active Duty date. He will go to school near his home in
Florida.

An Active Duty Private First Warrior Class (E-2) stated: “I did not want to go to college here. I
want to move to Georgia near my family and go to school there at Savannah Technical College;
I have not decided on a major yet. The medical board process is way too long for most people
and the Marine Corps needs to go back to “Home Awaiting Orders.”

C.5. Lack of Sufficient Support for Warriors Family Members and
Support Persons
An Active Duty First Sergeant Warrior (E-8) explained that there is nothing for the spouses
outside the occasional “pamper me” stuff like Spa Day or Big Bear Dinner. He went on to
explain that he does not believe there are many, if any, programs for the children of Warriors.

An Active Duty Staff Sergeant Warrior (E-6) who was accompanied by his wife during his
interview explained that it would have been nice to have some type of home healthcare aide
training. The Warrior’s spouse explained that she was a bit overwhelmed by all the care and
activities she was involved in and did have a fear about flushing her husband’s PICC lines. 38

A Reservist Staff Sergeant Warrior (E-6) simply stated: “Wives need to be more involved.”

An Active Duty Sergeant Warrior (E-5) explained that that the family support is not provided as
much as his wife would like.

An Active Duty Sergeant Warrior (E-5) explained that he did not remember if the Family
Readiness Officer called his wife to introduce herself. He went on to state: “But either way, I
do not get any family support.”

An Active Duty Sergeant Warrior (E-5) recommended that the biggest program the DoD needs
is for kids.

An Active Duty Sergeant Warrior (E-5) explained that the WWBn needs to incorporate the wife
more. He stated: “A lot of people do not realize the spouse gets dragged through the same stuff.



38
  A Peripherally Inserted Central Catheter (PICC) is a long catheter introduced through a vein in the arm, then
through the sub-clavian vein into the superior vena cava or right atrium to administer parenteral fluids or
medications or to measure central venous pressure.


                                                       106
Assessment of DoD Wounded Warrior Matters –                            Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                   August 22, 2012

Your spouse is your number one caregiver and when you go down your spouse needs to know
the chain of command; who does what, and where to go for resources.”
An Active Duty Sergeant Warrior (E-5) stated: “My comment on Spouse Education- My wife is
trying to attend college here and has been trying to contact the spouse education program but
receives no calls back. The education office seems to be blind-sided when I ask about
scholarships available for my wife.”

An Active Duty Corporal Warrior (E-4) explained that there was nothing for the children to
help them deal with Warriors’ situations.

A Reservist Lance Corporal Warrior (E-3) expressed” “We need more accessibility for
spouses.”

C.6. Lack of Adequate Computer Interfaces Used to Track Warrior
Healing and Transition Progress
 The following comment was received during a group interview with Active Duty NCO
Warriors (E-5 thru E-7). The group expressed: “Clear out the redundancy; we, as Warriors,
seem to enter the same data in multiple areas and spend too much time typing it all in which is
problematic here because computers often go down. This seems too often be the case with
Common Access Card (CAC) enabled computers.”

C.7. Travel Challenges for Warriors at Twentynine Palms
The following comment was received during an interview with a Reservist Staff Sergeant
Warrior (E-6). The Staff Sergeant said that: “Transportation could be a problem at times.”

C.8. End of Active Duty Service Dates affect on US Government
Military Identification Cards and Base Pass/Vehicle Decals Expiration
Dates
The following comment was received during a group interview with Active Duty Staff Sergeant
Warriors (E-6). The group explained that renewing ID cards and vehicle stickers usually takes
3-4 hours for ID cards and another 3-4 hours for vehicle stickers. It also requires arranging for
the spouse and family to plan to spend one day taking care of this. This can cause a financial
burden if the spouse has to repeatedly take off from work and/or child care.

C.9. Ineligibility to Transfer Unused Post 9-11 G.I. Bill Benefits
The following comment was received during an interview with an Active Duty Sergeant
Warrior (E-5). The Sergeant explained that he would like to reach the required mark in the
Marine Corps so he can give his GI Bill to his daughter. He suggested that Warriors be exempt
from having to reach the required mark to transfer the benefits to their children.

D.1. Inconsistent Medical Case Manager Patient Load Guidance
An Active Duty Staff Sergeant Warrior (E-6) said that: “The Nurse Case Managers are ‘great’
but there are just not enough of them.”




                                              107
Assessment of DoD Wounded Warrior Matters –                          Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                 August 22, 2012

D.2. Lack of Specificity in Medication Management Policies for Naval
Hospital Camp Pendleton
An Active Duty First Sergeant Warrior (E-8) expressed the view that: “Abusing meds is an
issue attributed to no continuity with doctors and Warriors having to depend on the Emergency
Room for sick-call. There are two issues. First, the Emergency Room could prescribe
medications while unaware of Warriors’ current medications. Second, the Emergency Room
could prescribe medications that Warriors’ doctors were unaware of.”

A group interview with Active Duty Staff Sergeant Warriors (E-6) claimed: “The Naval
Hospital Camp Pendleton relies on drugs instead of real therapy.”

An Active Duty Staff Sergeant Warrior (E-6) stated: “Some guys build up a tolerance for
medications; some are drug-seekers. The doctors do not know the Warriors that well so they
keep upping the medications.”

An Active Duty Staff Sergeant Warrior (E-6) spouse said “Some of the Warriors who are mad
at the world are also on heavy narcotics.”

An Active Duty Sergeant Warrior (E-5) said: “Some of the medications have bad side effects.”

D.3. Twentynine Palms Non-Adherence to TRICARE Travel-Time
Requirements for Specialty Care Medical Appointments
An Active Duty Junior Enlisted Warrior explained: “I was at WWBn-West Detachment
Twentynine Palms. Naval Medical Center San Diego told me they would take care of my TBI
specialty medical care but the WWBn at Camp Pendleton was responsible for fixing my
wounds. So, I had to go to Naval Medical Center San Diego twice a week for my TBI specialty
medical care, which was approximately 285 miles roundtrip. Twentynine Palms only had
orthopedics and physical therapy for specialty medical care so I gave up and moved from
Twentynine Palms to Camp Pendleton to get my wounds healed.”

D.4. Lack of Adequate Information Systems Computer Interfaces
There were no specific Warrior comments concerning either the Composite Health Care System
or the Armed Forces Health Longitudinal Technology Application.




                                              108
Assessment of DoD Wounded Warrior Matters –                             Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                    August 22, 2012



Appendix A. Scope, Methodology, and
Acronyms
We announced and began this overall assessment of Wounded Warrior programs on April 16,
2010. Based on our objectives, the assessment was planned and performed to obtain sufficient
evidence to provide a reasonable basis for our observations, conclusions, and recommendations.
The team used professional judgment to develop reportable themes drawn from multiple
sources, to include interviews with individuals and groups of individuals, observations at visited
sites, and reviews of documents.

The geographic spread of WWBn-West is different than any other we had encountered during
this project. Because the bulk of the battalion is split between three separate Southern
California locations, there are some variances in who we interviewed as compared to previous
locations. We visited the Wounded Warrior Battalion-West as well as the Naval Medical
Center San Diego, Naval Hospital Camp Pendleton and Naval Hospital Twentynine Palms from
11 thru 22 April, 2011. During our site visits to these locations we observed battalion
operations and formations; viewed living quarters, campus facilities, and selected activities at
the medical facilities; and examined pertinent documentation. We also conducted meetings and
interviews – ranging from unit commanders, staff officers, and cadre, to civilian staff and
contractors – as shown below:

   •   WWBn-West Commander, and Staff                     Naval Medical Center San Diego
   •   WWBn-West Operations and Personnel Officers          • Hospital Director and Staff
   •   WWBn-West Platoon Sergeants                          • Primary Care Managers
   •   WWBn-West Section Leaders                            • Nurse Case Managers
   •   WWBn-West Staff Corpsman                             • Recovery Care Coordinators
   •   WWBn-West Chaplain                                   • Office of Neuro-Trauma
   •   VA Federal Coordinator                               • C-5 Program
   •   VA Military Service Representative                   • OASIS
   •   Veterans Service Organization Liaison                • Volunteers
   •   PEBLO                                                • Naval Hospital Camp Pendleton
   •   Internal Transition Office                           • Hospital Director and Staff
   •   Transition Center External Staff                     • Primary Care Managers
   •   Transition Coordinator                               • Nurse Case Managers
   •   Regional Limited Duty Officer                        • Recovery Care Coordinators
   •   Family Readiness Officer                             • Office of Neuro-Trauma
   •   Family Support Coordinator                           • Sleep Medicine Clinic Center of
   •   DES Supervisor                                          Excellence
   •   DES Attorney                                         • TBI Clinic
   •   Medical Transcriptions Supervisor                    • Pharmacy
   •   Call Center                                          • Naval Hospital Twentynine
   •   Deployment Health Center                                Palms
   •   Medical Coordinator                                  • Hospital Director and Staff
                                                            • Primary Care Managers
                                                            • Nurse Case Managers
                                               109
Assessment of DoD Wounded Warrior Matters –                           Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                  August 22, 2012

Further, we performed interviews with WTB recovering Service members, to include 68
individual interviews with Marines, and five group interviews with additional Marines grouped
by rank. The five group interviews were comprised of the following participants:

   •   Marine Gunnery Sergeant Warriors and Above (E-7 and above)
   •   Marine Staff Sergeant Warriors (E-6)
   •   Marine Sergeant Warriors (E-5)
   •   Marine Corporals (E-4)
   •   Marine Junior Enlisted Warriors (E-1 thru E-3)

We prepared standardized sets of questions that were used during individual and group sessions,
which were tailored to the type or group of personnel being interviewed. Those interviews
primarily included but were not limited to recovering Marines and key members of the
transition team: primary care managers, medical services providers, medical case managers,
transition personnel and battalion leadership. The standardized interview questions for these
groups included topics such as access to care, use of Comprehensive Recovery Plans, job
responsibilities for these key members, working relationships amongst staff, and discipline
issues within the battalion.

Use of Technical Assistance and Computer-Processed Data
The DOD Office of the Inspector General, Deputy Inspector General for Audit, Quantitative
Methods and Analysis Division, used a simple random sample approach to determine the
number of recovering Marines we should interview at WWBn-West to obtain a representative
sample. The random sample was used to avoid any biases that might have been introduced by
selecting interviewees non-statistically.

The analysts used an alpha roster provided by the Wounded Warrior-West that identified
Warriors by name, rank, and WWBn-West company or detachment assignment. As of 15
March 2011, there were 230 Marines in WWBn-West assigned to Naval Medical Center San
Diego, Camp Pendleton and Twentynine Palms, comprising the total population from which we
drew our random sample.

The analysts used a program called the Statistical Analysis System and its internal random
number generator to assign random values to each individual, then sorted all 230 Marines into
random number sequence. The analysts then calculated a sample size of 53 Warriors for
individual interviews. The sample size is based on a 90 percent confidence level, a planned
margin of error of 10 percent, and the statistically conservative assumption of a 50 percent
occurrence rate.

The team used this approach to first determine whether any reportable themes (noteworthy
practices, good news, issues, concerns, and challenges) were identified by those most impacted
by their assignment to the WWBn-West, the recovering Marines. We met with or interviewed
others – ranging from, unit commanders, staff officers, and cadre, to civilian staff and
contractors – to corroborate the identified themes or to identify other reportable themes not
readily known to the Warriors.



                                              110
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012

On 28 March, 2011, we provided the list of Warriors to be interviewed from our randomly
generated sample to WWBn-West. With a requirement of 53 interviews, we selected from the
randomized roster the first 23 Warriors from the Detachment at Naval Hospital, San Diego, the
first 32 from Camp Pendleton and the first five from the Detachment at Twentynine Palms and
sent them to the Battalion to schedule the Warriors into the available time slots. If the Battalion
was unable to fill all time slots due to a Marine being unavailable we provided additional names
as needed until the roster was full. We advised the Command that a justification must be
provided for any individuals in that sequence that were unable to attend an interview. Below
are the results from our individual Warrior interviews at WWBn-West.

Of the 60 Warriors (53 plus an additional seven) initially selected based on the random number
ordered roster with random order numbers 1 through 60 (of 230):
   •   28 were interviewed/32 were excused
   •   39 additional Warriors were interviewed in accordance with the random ordered roster
       (designated alternates)/ 40 were excused; random order numbers 61 through 139 (of
       230)
   •   At an individual Warrior’s request, we did conduct one interview with a Warrior who
       was not on the provided list.
The Battalion provided an acceptable excuse for all Warriors who were unavailable for the
interviews. We believe that the information obtained from the 53 Warriors interviewed who
were selected in random number sequence, the 14 additional individuals interviewed who were
on the random number ordered roster, and the one individual who requested an individual
interview, provided a credible indication of the views of the total population.

Acronym List
The following acronyms were used in this report.

AHLTA                  Armed Forces Health Longitudinal Technology Application Interface
CHCS                   Composite Health Care System
CTP                    Comprehensive Recovery Plan
DES                    Disability Evaluation System
DODI                   Department of Defense Instruction
DOD IG                 Defense of Defense Inspector General
DVA                    Department of Veterans Affairs
DVBIC                  Defense Veterans Brain Injury Center
EAS                    End of Active Duty Service
FIRP                   Federal Individual Recovery Plan
GAO                    Government Accountability Office
HIPAA                  Health Insurance Portability and Accountability Act
IDES                   Integrated Disability Evaluation System
LDRP                   Labor Delivery Recovery and Postpartum
LIMDU                  Limited Duty
MCTFS                  Marine Corps Total Force System
MCWITTS                Marine Corps Wounded Ill and Injured Tracking System


                                               111
Assessment of DoD Wounded Warrior Matters –                          Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                 August 22, 2012

MEB                    Medical Evaluation Board
MedBolts               Medical Board Online Tri-Service Tracking System
MEBLO                  Medical Board Liaison Officer
MSW                    Multi-Service Ward
MSC                    Military Service Coordinator
NCO                    Non-Commissioned Officer
NMCSD                  Naval Medical Center San Diego
NJP                    Non-Judicial Punishment
PDA                    Personal Digital Assistant
OASIS                  Overcoming Adversity & Stress Injury Support
PCM                    Primary Care Manager
PEB                    Physical Evaluation Board
PEBLO                  Physical Evaluations Board Liaison Officer
PTSD                   Post-Traumatic Stress Disorder
PTSD IOP               Post Traumatic Stress Disorder Intensive Outpatient Program
RCC                    Recovery Care Coordinators
RCP-SS                 Recovery Coordination Program - Support Solution
SWFRT                  Southwest Region Fleet Transportation
UCMJ                   Uniform Code of Military Justice
USNS                   United States Navy Ship
TBI                    Traumatic Brain Injury
TBI/PTSD               Traumatic Brain Injury and Post Traumatic Stress Disorder
VA                     Department of Veterans Affairs
WARP                   Warrior Athletic Reconditioning Program
WTB                    Warrior Transition Battalion




                                              112
Assessment of DoD Wounded Warrior Matters –                          Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                 August 22, 2012



Appendix B. Summary of Prior Coverage
During the last six years, there has been a multitude of prior coverage on DOD and Department
of Veterans Affairs (DVA) healthcare services and management, disability programs, and
benefits. The Government Accountability Office (GAO), the Department of Defense Inspector
General (DOD IG), and the Naval Audit Service have issued 19 reports specific to DOD
Warrior Care and Transition Programs. Unrestricted GAO reports can be accessed over the
Internet at http://www.gao.gov. Unrestricted DOD IG reports can be accessed at
http://www.dodig.mil/PUBS/index.html. Naval Audit Service reports are not available over the
Internet.

GAO
GAO Report No. GAO-12-718T, “Military Disability System, Preliminary Observations on
Efforts to Improve Performance,” May 23, 2012

GAO Report No. GAO-12-27R, “DOD Mild Traumatic Brain Injury,” October 24, 2011

GAO Report No. GAO-11-551, “Defense Health Care: DOD Lacks Assurance That Selected
Reserve Members Are Informed about TRICARE Reserve Select,” June 3, 2011

GAO Report No. GAO-11-572T, “Federal Recovery Coordination Program Enrollment,
Staffing, and Care Coordination Pose Significant Challenges,” May 13, 2011

GAO Report No. GAO-11-633T, “Military and Veterans Disability System: Worldwide
Deployment of Integrated System Warrants Careful Monitoring,” May 4, 2011

GAO Report No. GAO-11-32, “VA Health Care: VA Spends Millions on Post-Traumatic Stress
Disorder Research and Incorporates Research Outcomes into Guidelines and Policy for Post-
Traumatic Stress Disorder Services,” January 24, 2011

GAO Report No. GAO-11-69, “Military and Veterans Disability System: Pilot Has Achieved
Some Goals, but Further Planning and Monitoring Needed,” December 6, 2010

GAO Report No. GAO-09-357, “Army Health Care: Progress Made in Staffing and Monitoring
Units that Provide Outpatient Case Management, but Additional Steps Needed,” April 20, 2009

GAO Report No. GAO-09-31, “Defense Health Care: Additional Efforts Needed to Ensure
Compliance with Personality Disorder Separation Requirements,” October 31, 2008

GAO Report No. GAO-08-635, “Federal Disability Programs: More Strategic Coordination
Could Help Overcome Challenges to Needed Transformation,” May 20, 2008

GAO Report No. GAO-08-615, “DOD Health Care: Mental Health and Traumatic Brain Injury
Screening Efforts Implemented, but Consistent Pre-Deployment Medical Record Review
Policies Needed,” May 30, 2008



                                              113
Assessment of DoD Wounded Warrior Matters –                         Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                August 22, 2012



GAO Report No. GAO-08-514T, “DOD and VA: Preliminary Observations on Efforts to
Improve Care Management and Disability Evaluations for Service Members,” February 27,
2008

GAO Report No. GAO-07-1256T, “DOD and VA: Preliminary Observations on Efforts to
Improve Health Care and Disability Evaluations for Returning Service Members,” September
26, 2007

GAO Report No. GAO-06-397, “Post-Traumatic Stress Disorder: DOD Needs to Identify the
Factors Its Providers Use to Make Mental Health Evaluation Referrals for Service Members,”
May 11, 2006

DOD
Department of Defense Recovering Warrior Task Force, 2010-2011 Annual Report, September
2, 2011

DOD IG
DODIG Report No. 2012-067, “Assessment of DoD Wounded Warrior Matters – Camp
Lejeune,” March 30, 2012

DOD IG Report No. SPO-2011-010, “Assessment of DOD Wounded Warrior Matter- Fort
Drum,” September 30, 2011

DOD IG Report No. SPO-2011-004, “Assessment of DOD Wounded Warrior Matters – Fort
Sam Houston,” March 17, 2011

DOD IG Report No. IE-2008-005, “DoD/VA Care Transition Process for Service Members
Injured in Operation Iraqi Freedom/Operation Enduring Freedom,” June 12, 2008

DOD IG Report No. IE-2008-003, “Observations and Critique of the DoD Task Force on
Mental Health,” April 15, 2008

Army
Army Audit Report No. A-2011-0008-IEM, “Army Warrior Care and Transition Program,”
October 21, 2010

Navy
Naval Audit Service Report No. N2009-0046, “Marine Corps Transition Assistance
Management Program – Preparation Counseling Requirement,” September 15, 2009

Naval Audit Service Report No. N2009-0009, “Department of the Navy Fisher Houses,”
November 4, 2008




                                              114
Assessment of DoD Wounded Warrior Matters –                             Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                    August 22, 2012



Appendix C. Reporting Other Issues
We are performing the Assessment of DOD Wounded Warrior Matters at multiple Army and
Marine Corps locations and plan to report on each location separately. As its predecessors, this
report focused on whether the programs for the care, management, and transition of Wounded,
Ill and Injured Marines at the Wounded Warrior Battalion-West, Camp Pendleton, California,
were managed effectively and efficiently.

We also plan to report on issues, concerns, and challenges that were common among most, if
not all, the Wounded Warrior Battalions and detachments at the conclusion of our Army and
Marine Corps site visits. That report or multiple reports will be provided to appropriate
organizations to provide information on or identify corrective actions addressing those issues,
concerns, and challenges. Those organizations may include but are not limited to the Office of
the Deputy Undersecretary of Defense for Wounded Warrior Care and Transition Policy; the
Deputy Commandant for Manpower and Reserve Affairs; the Wounded Warrior Regiment; and
the U.S. Navy Bureau of Medicine and Surgery.

This appendix captures issues, concerns, and challenges we identified at the WWBn-West and
Naval Medical Center San Diego. Naval Hospital Camp Pendleton and Twentynine Palms (with
observation references noted) that may likely be included in an additional report(s). We may
issue an additional report(s) before the conclusion of our Marine Corps site visits if we consider
these other matters of interest urgent.

                          Table 6. Potential Items for Future Reports

                                                                                    Report
                       Issue, Concerns, and Challenges
                                                                                 Reference(s)
 Is there a difference in the delivery of healthcare for Active Duty, Guard,    Observation B.1
 and Reserve Warriors?                                                             Page 22
 How does the total time required to heal and transition in the Wounded         Observation C.1
 Warrior Battalion affect Warriors’ healing and transition?                        Page 35
 How can the uses of “Home Awaiting Orders: and the Temporary                   Observation C.1
 Disabled/Retired (TDRL) lists affect Warriors’ healing and transition?            Page 35
 How does the location of Wounded Warrior Battalions affect Warriors’           Observation C.4
 healing and transition?                                                           Page 53
 How do the current eligibility requirements to transfer unused Post 9-11       Observation C.9
 G.I. Education Bill benefits to family members affect Warriors’ healing
 and transition?                                                                   Page 72

 How does Warriors’ access to medical care affect Warriors’ healing and         Observation D.3
 transition?                                                                       Page 85
 What is the effect on healing and transition of wounded, ill, or injured
 Marines not attached or assigned to Wounded Warrior Battalions?                      N/A

                                               115
Assessment of DoD Wounded Warrior Matters –                         Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                August 22, 2012


 How does the current military structure of Wounded Warrior Battalions
 affect Warriors’ healing and transition?                                         N/A
 How do current PCS/TAD pay, re-imbursement, and entitlement policies
 affect Warriors’ healing and transition?                                         N/A
 How do current non-medical attendant policies affect Warriors’ healing
 and transition?                                                                  N/A
 How can the use of the National Disaster Medical System improve
 Warriors’ recovery and transition?                                               N/A
 How can a longitudinal study to track the long-term results of the
 Wounded Warrior program improve Warriors recovery and transition?                N/A




                                              116
Assessment of DoD Wounded Warrior Matters –              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                     August 22, 2012



Appendix D. Wounded Warrior Battalion-West
Patient Referral Questionnaire




         WOUNDED WARRIOR BATTALION–WEST (WWBn-W)
                     PATIENT REFERRAL

                   All sections must be filled out completely.

Date of Request:

Patient information

Rank:

Name:

Last 4:

Phone:

Short description of wound/illness/injury:

Date of Injury:

Combat related (check one): Yes No

Unit Information

Unit:

Unit POC:

Phone:


                                              117
Assessment of DoD Wounded Warrior Matters –                            Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                   August 22, 2012

Email:

Unit Executive Officer Name:

Unit Executive Officer E-mail:
*This document may contain information covered under the Privacy Act, 5 USC 552(a), and/or
Health Insurance Portability and Accountability Act (PL 104-191) and its various implementing
regulations and must be protected in accordance with those provisions. Healthcare information is
personal and sensitive and must be treated accordingly. If this correspondence contains
healthcare information, it is being provided to you after appropriate authorization from the
patient or under circumstances that do not require patient authorization. Redisclosure without
additional patient consent or as permitted by law is prohibited. Unauthorized redisclosure or
failure to maintain confidentiality subjects you to application of an appropriate sanction. If
you have received this correspondence in error, please notify the sender at once and destroy any
copies you have made. "A covered entity may use AND DISCLOSE the protected health information of
individuals who are Armed Forces personnel for activities deemed necessary by appropriate
military command authorities to assure the proper execution of the military mission..."




                                              118
Assessment of DoD Wounded Warrior Matters –                            Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                   August 22, 2012

                              UNITED STATES MARINE CORPS
                                    CAMP PENDLETON, CALIFORNIA 92055
                                                                                       IN REPLY REFER TO:
                                                                                                6202
                                                                                                 ADJ

From: Commanding Officer,
To: Commanding Officer, Wounded Warrior Battalion-West
Subj: RECOMMENDATION FOR ASSIGNMENT TO WOUNDED WARRIOR BATTALION-WEST ICO
      USMC

1. The following assessment is submitted to assist the Commanding Officer of
Wounded Warrior Battalion-West in the determination of transferring subject
named service member to Wounded Warrior Battalion-West:
      a. Summary of Service Member’s wound/illness/injury causing this
      referral to Wounded Warrior Battalion-West:

       b. Service member’s MOS/Description:

       c. Service member’s current billet:

       d. Is member currently working out of his specialty because of the
       medical condition:

       e. What are the member’s current physical limitations?

       f. Member’s current height: and weight:

       g. Is the member within weight and body fat standards:

       h. If not within height/weight standards, is the member currently on
       weight control?

       i. To your knowledge, is the member fully complying with the prescribed
       appointments and treatment for the therapy?

       j. Has the member complied with prescribed appointments/treatments for
       the therapy in the past?

       k. What is the average number of work hours per week that the member’s
       condition has required the member to be away from current duties for
       treatment, evaluation, and/or recuperation?

       l. Is member pending disciplinary action or involuntary administrative
       separation for misconduct? If yes, explain.

       m. Does the member have a history of disciplinary issues or misconduct?

       If yes, explain:

       n. Is a Line of Duty Investigation required surrounding the
       circumstances of the injury/accident? (If yes, please forward a copy to
       WWBN-W)

       o. If a Line of Duty Investigation is required but not complete, when
       will it be complete? Date: Point of Contact:




                                                 119
Assessment of DoD Wounded Warrior Matters –                    Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                           August 22, 2012

       p. What is the member’s marital status?

       q. Does the Marine have any children? If so, how many?

       r. Is the member’s family co-located with the member or do they live
          elsewhere? If they live elsewhere, state where they live?

       s. Where is the service member currently billeted/living?

       t. Will the service member require billeting at the Wounded Warrior
          Battalion-West Barracks?

       u. Is the service member medically and legally cleared to drive? If no,
          explain:

       v. Does the service member or spouse own a vehicle?

       w. If the service member lives off base, will he/she have
          transportation to get to Wounded Warrior Battalion?

       x. Are there any other known transportation issues? Explain:

       y. Does the member have a history of substance abuse or alcohol abuse
          or dependency? If yes, explain:

       z. Does the member have a history of suicidal or homicidal ideations?
          If yes, explain:

       aa. Does the member own a firearm?

       bb. Was the injury incurred while deployed in support of OIF/OEF? -

       cc. Was the injury combat related?

       dd. Does the Service Member have any Fitness Report Date Gaps? If yes,
            confirm they will be complete before the Service Member is sent to
            WWBn-W:

2. Commanding Officer; explain in your opinion, why would Wounded Warrior
   Battalion-West be the best place for the member: (Usually a couple
   paragraphs long.) Provide any additional information or concerns that may
   be relevant.

3. POC at this command is Phone Number: E-mail address:



                                                    (sign name)
                                                    (print name)
                                                    Commanding Officer

All referrals must be completely filled out and endorsed by the service
member’s Commanding Officer. It is up to the service member’s parent command
to ensure a referral package is completely filled out. Once complete, send to
wwbnw_referrals@usmc.mil or to respective WWBn-W Detachment Officers-in-
Charge for entry into the referral boarding process.



                                              120
Assessment of DoD Wounded Warrior Matters –         Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                August 22, 2012

Medical Case Manager Comments
If no Medical Case Manager is assigned state why:

Name:

Phone:

Email:

1. Describe the primary diagnosis or mechanism of injury causing
   this referral to Wounded Warrior Battalion-West:

2. Which Military Treatment Facility (hospital) would provide the
   most appropriate care for this service member?

3. Average number of appointments per week, what are they for, and
   location (NHCP, NMCSD, Scripps, etc):

4. Number of missed appointments in past 90 days: Reasons why
   missed (if known):

5. Who is the service member’s primary physician?

6. Does the service member have any upcoming surgeries?

7. If so, what is the surgery for?

8. When and where will the surgery take place?

9. Estimated length of Convalescent Leave:

10. Has the Marine been screened for PTSD and/or TBI?

11. If Service Member was screened for PTSD and/or TBI, what were
    the results?

12. Is there a history of suicidal/homicidal ideations or attempts?
    If yes, explain:

13. Is the service member medically cleared to drive?

14. If not cleared to drive, explain:

15. Does the service member have any specific medical needs for
    billeting/housing? If yes, explain:

16. What is the medical care plan for the service member?



                                              121
Assessment of DoD Wounded Warrior Matters –              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                     August 22, 2012

17. Is the service member on Limited Duty?

18. If the service member is on Limited Duty, for what period?

19. Is the service member most likely to receive a PEB?

20. Why, in your opinion, would the Wounded Warrior Battalion be
the best place for the service member (be descriptive/convincing)

21. Other considerations, comments:




                                                      (sign name)
                                                      (print name)




All referrals must be completely filled out and endorsed by the service
member’s Commanding Officer. It is up to the service member’s parent command
to ensure a referral package is completely filled out. Once complete, send to
wwbnw_referrals@usmc.mil or to respective WWBn-W Detachment Officers-in-
Charge for entry into the referral boarding process.




                                              122
Assessment of DoD Wounded Warrior Matters –                    Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                           August 22, 2012

Unit Medical Officer/Primary Care Provider Comments
Rank/Name:

Phone:

Email:

1. Describe the primary diagnosis or mechanism of injury causing
   this referral to Wounded Warrior Battalion-West:

2. Which Military Treatment Facility (hospital) would provide the
   most appropriate care for this service member?

3. Estimated recovery period:

4. Do you feel that the member is capable of returning to full
   duty?

5. Why, in your opinion, would the Wounded Warrior Battalion be the
   best place for the service member: (be descriptive/convincing)

6. Other considerations, comments:




                                                    (sign name)
                                                    (print name)




All referrals must be completely filled out and endorsed by the service
member’s Commanding Officer. It is up to the service member’s parent command
to ensure a referral package is completely filled out. Once complete, send to
wwbnw_referrals@usmc.mil or to respective WWBn-W Detachment Officers-in-
Charge for entry into the referral boarding process.



                                              123
Assessment of DoD Wounded Warrior Matters –                       Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                              August 22, 2012




                             This Page Intentionally Left Blank




                                              124
Assessment of DoD Wounded Warrior Matters –                                      Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                             August 22, 2012



Appendix E. Management Comments
      Commandant of the Marine Corps Comments



                                           DEPARTMENT OF THE NAVY
                                      HEADQUARTERS UNITED STATES MARINE CORPS
                                            3000 MARINE CORPS PENTAGON
                                             WASHINGTON. DC 20350-3000            IN AEPl'f REFER TO.
                                                                                  7500
                                                                                  RFR-80
                                                                                 MAY 12 2012
                 From:    Commandant of the Marine Ccrps
                 To:      Office of the Deputy Inspector General , Special Plans
                          and Operations , Department of Defense

                 Subj :   COMMANDANT OF THE MARINE CORPS (CMC) RESPONSE TO
                          DEPARTMENT OF DEFENSE INSPECTOR GENERAL (DODIG) DRAFT
                          REPORT PROJECT NO. D2010-DOOOSP0-0209 . 003, "ASSESSMENT OF
                          DOD WOUNDED WARRIOR MATTERS - WOUNDED WARRIOR BATTALION -
                          WEST HEADQUARTERS AND SOUTEERN CALI FORNIA UNITS "

                 Ref :    (a) DODIG Memorandum dtd 27 Mar 2012

                 Encl :   (1) HQMC Official Comments to DODIG Recommendations

                 1 . Official responses required by the reference are provided at
                 enclosure (1) .

                 2 . Based on corrective actions completed, the Ma r ine Corps
                 requests DODIG close recommendations A. 1 . 1 . , B . 1 ., C.1.2 . , C.4. ,
                 C . S . 1 ., C.5 . 2 ., C . 7 . 1 ., C . 7 . 2 . , and C.B.

                 3 . The Marine Corps appreciates t he opportunity to respond to
                 the report .




                                                     t~ER
                                                      Deputy Commandant
                                                      for Programs and Resources


                 Copy t o :
                 NAVINSGEN (N4)
                 DMCS
                 CMC (HS)
                 CG MARFORPAC
                 CO WWR




                                                     125
Assessment of DoD Wounded Warrior Matters –                                                    Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                           August 22, 2012




                                                        UNCLASSIPIED


                                  DODIG DRAFf REPORT DATED MARCH 27,2012
                                           D2010-DOOSP0-0209.003

                     "ASSESSMENT OF DOD WOUNDED WARRIOR MATTERS- WOUNDED
                       WARRIOR BATTALION-WEST HEADQUARTERS AND SOUTHERN
                                        CALIFORNIA Ul"''ITS"

                                          US MARINE CORPS COMMENTS
                                        TO THE DODIG RECOMMENDATIONS

                 RECOMMENDATION A.l.l: The DODlG recommends that the Commander,
                 Wounded Warrior Regiment (WWR) ensure all procedures for bandUng electronic
                 protected health information are compliant with Health Insurance Portability and
                 Accountability Act (HlPAA) requirements. (See page 15/DODIG Draft Report.)

                 USMC RESPONSE: Concur. WWR ensures 1-!IPAA compliance. to include annual
                 personnel training requirements.

                 RECOMMENDATION A.l.2.: The DODlG recommends d1e Commander, Wounded
                 Warrior Regiment implement policy that ensures the use of HJPAA compliant, wireless
                 electronic communkations to notify Warriors of medical appointments is only done with
                 the consent of the Warrior, and that the notifications contain applicable privacy notices,
                 the minimum amount of information needed, and are only e-mailed to confirmed
                 addresses. (See page I 5/DODIG Draft Report.)

                 ·USMC RESPONSE: Concur. WWR will implement, within 90 days, the recommended
                  policy regarding the handling of wireless electronic commun ications.

                  RECOMMENDATION A.2.: The DODIG recommends WWBn-West's noteworthy
                  practice of having Warriors engage in work internships and educational opportunities
                  based upon Warriors' desires and needs, and their commitment to productive use of
                  Warrior's time in support of their recovery and transition may be applicable for utilization
                  at other WWBn's, as well as Army Warrior Transition Units, and should be considered
                  for prompt implementation, where appropriatP.. (See pagel7/DODTG D raft Report.)

                  USMC RESPONSE: Concur with comment. Medical Officer of the Marine Corps
                  (Health Services) will work with Wounded Warrior Regiment (M&RA), Navy Bureau of
                  Medicine and Surgery (responsible for in-garrison care mission), and other stakeholders
                  to iueulify hc:altl1 service supportmauuiug n~yuirc:Jut:ul~ 10 provide heal th se1vice staff
                  functions, dedicated primary care management, and coordination of health care services
                  for Marine and Sailors at Wounded Warrior Battalion-West, as well as otber Wounded
                  Warrior units. A proposed health services maonjng solution w ill be fonnulated by 01
                  June 2012.

                                                                                                 8nclosure ( l)




                                                           126
Assessment of DoD Wounded Warrior Matters –                                                 Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                        August 22, 2012




                                                      UNCLASSIFIED


                 REC OMMENDATION B.l.: The DODIG recommends the Commander, Wounded
                 Warrior Regiment ensure relevant battalion staff and admin istration personnel who
                 support Reservist Warriors receive adequate training so that Reservist Warriors' recovery
                 and transitions are not delayed or negatively affected by administrative procedures. (See
                 page 20/DODIG Draft Report.)

                 USMC RESPONSE: Concur with comment. All personnel within the WWR and
                 WWBn-W staff should have adequate knowledge of the unique administrative
                 requirements of reservists on Medical Ho ld who are in the Integrated Disability
                 Evaluation System (.IDES) process. There is no difference between how a mobilized
                 reserve Marine is administratively handled in comparison to an active duty Marine at the
                 end of current contract. WWR provides staff reserve-specific computer-based training
                 modules and the Regiment's virtual resource center includes information on reserve-
                 specific issues.

                 RECOMMENDATION C.1.2.: TheDODIG recommends the Commander, Wounded
                 Warrior Regiment implement processes to determine if Warriors' conditions improve to
                 the point they can be released from the Wounded Warrior Battalion and complete their
                 transition at an alternate appropriate location. (See page 32/DODIG Draft Report.)

                 USMC RES PONSE : Non-concur with comment. The Commnndnnt of the Marine
                 Corps has established that the WWR has primary oversight of the non-medical care of
                 wounded, ill, and injured (Wll) Marines. This care includes transition and discharge.
                 Generally, only the most acute cases are joined to the WWR. Transferring a WIT Marine
                 from the WWR to "an alternate location," presumably another unit, would defeat the
                 purpose of having a single unit with oversight and potentially place the wn Marine in a
                 position of being served by a unit less prepared to assist with his/her non-medical care
                 needs.

                 RECO MMENDATION C.2.: The DODIG recommends the Medical Officer of the
                 Marine Corps (Health Services) identify the correct configuration for a Battalion Surgeon,
                 Medical Officer, Battalion Aid Station or other appropriate equivalent medical services to
                 provide dedicated Primary Care Management (PCM) support for Warriors at Camp
                 Pendleton. (See page 36/DODJG Draft Report.)

                 USMC RESPONSE: Concur with comment. Medical Officer of the Marine Corps
                 (Health Services) will work with Wounded Warrior Regiment (M&RA), Navy Bureau of
                 Medicine and Surgery (responsible for in-garrison care mission), and other stakeholders
                 to identify health service support manning requirements to provide health service staff
                 functions, dedicated prin:tary care management, and coordination of health care services
                 for Marines and Sailors at Wounded Warrior Battalion-West, as well as other Wounded
                 Warrior units. A proposed health services manning solution will be formulated by 01 Jun
                 2012.

                                                                                             Enclosure (I)

                                                             2




                                                         127
Assessment of DoD Wounded Warrior Matters –                                                    Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                           August 22, 2012




                                                        UNCLASSIFIED


                 RECOMMENDATION C.3.2.: The DODIG recommends the Commander, Wounded
                 Warrior Regiment implement policy that Warriors assigned to Warrior battaHons to
                 recover and transition will not be assigned staff positions that require Warriors to lead or
                 have authority over other Warriors. (See page 41/DODIG Draft Report.)

                 USMC RESPONSE: Non-concur with comment. Depending upon the overall
                 comprehensive transition plan of a WII Marine, as well as his/her compliance with the
                 five Lines of Operation programs, we have estabHsbed that some Marines flourish in staff
                 positions. Staff positions provide certain WII Marines a feeling of self-worth, especially
                 those Marines who wish to return to full duty. WWBn-W will establish a policy within
                 90 days to address this matter and allow for wn Marines to serve in staff positions only
                 on a case-by-case basis.

                 RECOMMENDATION C.3.3.: The DODIG recommends the Commander, Wounded
                 Warrior Regiment implement policy that Corpsman Warriors assigned to Warrior
                 battalions to recover and transition will not be assigned corpsman responsibilities. (See
                 page 4l!DODIG Draft Report.)

                 USMC RESPONSE: N on-concur with comment. Please see rationale from C.3.2.
                 above.

                 RECOMMENDATION C.4.: The DODIG recommends the Commander, Wounded
                 Warrior Regiment, implement official policy that determines the location of Warriors'
                 recovery and transition based on factors that include Warriors' preferences. (See page
                 43/DODIG Draft Report.)

                 USM C RESPONSE: Non-concur with comment. Existing policy, Marine Corps Order
                 6320.20 (Administration and Processing of Hospitalized Marines) and WWR Order
                 6300.IA (Administrative Procedures for Acceptance of Wounded, Ill, Injured, or
                 Hospital.ized Personnel to the Wounded Warrior Regiment) addresses the location of
                 warriors' recovery and transition. Additional policy is not required to satisfy the IG's
                 recommendation.

                 RECOMMENDATION C.S.l.: The DODIG recommends the Commander, WWBn-
                 West, identify aU necessary programs that prepare Warriors' families and other
                 sig11ificant care givers to fully contribute to their Warrior's recovery and transition. (See
                 page 45/DODIG Draft Report.)

                 USMC RESPONSE: Concu1 with couuuent. WWBn-W ha:; established a staudardi:l:ed
                 process through a published campaign plan, Wounded Warrior Battalion-West Order
                 3010. 1, to ensure all Marines and theirfamilies receive the same information and
                 benefits, regardless of their location. Some of the standardized programs for family
                 members and support programs that WWBn-W is establishing or has established are as
                 follows:
                                                                                              Eoclosme (I)

                                                               3




                                                           128
Assessment of DoD Wounded Warrior Matters –                                                   Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                          August 22, 2012




                                                       UNCLASSTl'illD


                         (I) Currently, WWBn-W is working with the Defense and Veterans Brain Injury
                 Clinic (DVBIC) to schedule quarterly TBl!PTSD classes for spouses and family
                 members. WWBn-W is establishing an orientation program to introduce the families to
                 the battalion and explain both the medical process as well as the additional programs
                 provided through the five Lines of Operation programs.

                      (2) Special Compensation for Assistance with Activities of Daily Living
                 (SCAADL) has been implemented and the WWR is working with the OSD Office of
                 Wounded Warrior Care and Transition Policy to provide training to the caregivers of
                 SCAADL recipients.

                         (3) The WWBn-W Family Readi.ness Officer plans two family events per year that
                 are directed toward children.

                        (4) The WWBN-W Chaplain hosts quarterly weekend getaways, of which two are
                 open to children.

                        (5) The WWBn-W Spirit Line of Operation Program Manager is currently
                 resourcing programs/events that are child-friendly, such as a recent joint effort with the
                 San Diego Padres.

                         (6) WWBn-W utilizes programs for children offered through Marine Corps
                 Community Services. These programs are publicized regularly. Families OverComing
                 Under Stress (FOCUS) is a specific program in place to help children understand how to
                 talk about the physical and mental injuries sustained by their parent, and how to deal with
                 their feelings associated with those injuries. FOCUS also offers parenting classes through
                 New Parent Support, a communication class.

                        (7) WWBn-W has established weekly coffee meetings dedicated to wives.
                 Different events arc discussed and questions arc answered . cMarinc was established to
                 make sure information is always available ro both the Marine and his/her family.

                 RECOMI~NDATION C.5.2.: The DODIG recommends the Commander, Wounded
                 Warrior Regiment develop the appropriate budget, and resource and staff all appropriate
                 programs necessary to prepare Warriors' families and other significant care givers to fully
                 contribute to their Warrior's recovery and transition. (See page 45/DODIG Draft
                 Report)

                 USMC RES PONSE: Concur with comment. The WWR's budget reflects a
                 commitment to ensuring Wll Marines' families and other caregivers fu ll y contribute to
                 their recovery and transition. Examples include, but are not limited to: caregiver
                 trainings, the Recovery Care Coordination Program, our Medical Cell, Hope and Care
                 Centers, our fanlily support programs, the Wounded Warrior Call Center and the
                 Wounded Warrior Regiment Mobile App.
                                                                                               Enclosure ( I)


                                                              4




                                                           129
Assessment of DoD Wounded Warrior Matters –                                                Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                       August 22, 2012




                                                           UNCLASSIFIED


                 RECOMMENDATION C.6.: The DODIG recommends the Deputy Commandant for
                 Manpower and Reserve Affairs determine the requirements of all necessary computer-
                 based and web-based systems and all interfaces required to supp01t Marine Corps
                 Wounded Warrior processes, and program for, fund, and resource aU valid computer-
                 based and web-based systems and interfaces. (See page 50/DODIG Draft Report.)

                 USMC RESPONSE: Partially concur with comment. M&RA will continue to work
                 systems requirements to ensure internal Marine Corps systems provide the Wounded
                 Warrior Regiment and its subordinate battalions the functionality needed to effectively
                 manage its wounded Marine population. Additionally, we will coordinate with external
                 agencies at the CON and DoD levels to ensure interfaces are developed to allow bi-
                 directional transfer of information.

                 RECOMMENDATION C.7.1.: The DO DIG recommends the Commander, WWBn-
                 West identify all requirements necessary to fully support all WWBn-West, Detachment
                 Twentynine Palms transportation needs. (See page 53/DODIG Draft Report.)

                 USMC RESPONSE: Concur with comment. During the DoD IG visit, there was not an
                 issue meeting the rransportation requirements for Marines assigned to WWBn-W. The
                 issue was Marines assigned to other Twentynine Palms-based units were not receiving
                 adequate transportation support when they had appointments at Naval Hospital Camp
                 Pendleton, Naval Medical Center San Diego, or other San Diego hospitals. In November
                 2011, the Marine Corps Air Ground Combat Center Chief of Staff and Naval Hospital
                 Twentynine Palms met to discuss the transportation concerns. As a result, a base shuttle
                 was instituted two days per week and supported through Twentyn.ine Palms base logistics
                 section.

                 RECOMMENDATION C.7.2.: The DODIG recommends the Commander, Wounded
                 Warrior Regiment program for, fund, nnd resource the required trnnsportation
                 requirements necessary to fully support all WWBn-West, Detachment Twentynine Palms
                 transportation needs. (See page 53/DODIG Draft Report.)

                 USMC RESPONSE: Concur with comment. Please see rationale from C.7.1.

                 RECOMMENDATION C.S.: The DODIG recommends the Commander, Marine Corps
                 Installations-West implement policy and procedures that ensure Warriors and Warriors'
                 dependents renewal of government identification cards and base pass/vehicle registration
                 decals does not interfere with Warriors' recovery and transition or impose a burden on
                 <.lepem.h::olli. (St::t:: pagt:: 55/DODIG Drafl Report.)




                                                                                             Enclosure ( 1)

                                                                  5




                                                              130
Assessment of DoD Wounded Warrior Matters –                                                       Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                              August 22, 2012




                                                        UNCLASSIFIED


                 USM C RESPONSE: Concur, with comments as follows:

                         (1) Contact was made with the wounded Wanior Bn (WWBn) Commanding
                 Officer. He indicated that in his view this issue had largely been resolved. He assigned
                 his XO as liaison to coordinate and/or implement solutions tailored to accommodate
                 wounded warriors.

                       (2) During the ctiscourse, it was determ ined that the mechanisms ill place to
                 accommodate wounded warriors were sufficient and working well:

                                 - WWBn Marines and their dependants receive "second-in-line" privileges
                 at any of the three Pass & ID centers aboard Camp Pendleton for DEERS and/or vehicle
                 registration. Second in line means the WWBn inctividual is next following completion of
                 the transaction ongoing at a particular window. If on the rare occasion a window is open,
                 the individual would have "front of line" privileges.

                               - WWBn Staff knows who to contact within the Pass and ID hierarchy to
                 coordinate unusual situations. This could include dedicating one or more windows within
                 a Pass & ID center to WWBn personnel - during or after normal working hours to include
                 weekends.

                             -Where possible, Pass & ID transactions are conducted via proxy (i.e.,
                 WWBn Staff and Pass & ID personnel on behalf of a WWBo Marine or Dependent).

                        (3) Vehicle decals and ID cards are issued per the recommendation of the WWBn
                 CO or his Staff or 3 years - whichever is less. If they do not know, or if it is ctifficult for·
                 them ro assess, Pass & ID centers will re-issue ID cards and decals in 90 day increments.

                 ADDITIONAL COMMENTS:

                 I. ln addition to the required comments, we provide the following additional comments
                 for consideration and inclusion in the fmal report

                        a. Subsequent to the DoDIG's April 2011 assessment, the following changes have
                 taken place at WWBn-W that have significantly enhanced care:




                                                                                                   Enclosure (I)



                                                                 6




                                                             131
Assessment of DoD Wounded Warrior Matters –                                                  Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                         August 22, 2012




                                                      UNCLASSIFTED


                                 ( 1) In October 20 11, WWBn-W opened the Warrior Hope and Care Center
                 (WHCC). The WHCC provides counseling, reconditioning and transition services for
                 wn Marines, Sailors, and their families. The WHCC is a 30,000 square foot structure
                 and accommodates wounded warrior support ranging from family readiness, mental
                 health, Recovery Care Coordinators, and hosts the battalion's Warrior Athlete
                 Reconditioning Program. More specifically, the WHCC provides activities for children,
                 has computer labs, provides music therapy and expressive arts, education, and various
                 transition activities.

                                 (2) In September 2011, WWBn-W organized an Operational Platming
                 Team to assess best practices and shortfalls across the battalion. As a result, on 20 Feb
                 12, WWBn-W Order 3010.1 Campaign Plan was published in order to focus the battalion
                 effmts and standardize processes across alJ five Lines of Operation (Medical, Mind,
                 Body, Spirit, and Family). The standardization of these processes allows the battalion's
                 main effort, the Recovery Team. to accurately track the individual wn Marine through
                 four defined phases within their medical recovery as well as focus all approved
                 assets/resources on the individual Marine at the appropriate time.

                              (3) WWBn-W an.d its higher headquarters have significantly improved
                 manpower strength, most notably in the Section Leader-to-patient ratio.

                                (4) In November 2011, the Naval Hospital Camp Pendleton's Integrated
                 Disability Evaluation System (DES) office moved imo a building less than 100 yards
                 from the current WWBn-W barracks. The building consolidated the entire IDES team to
                 include: PEBLOs, both civilians who initiated the DES process and military who advise
                 the service members on their ratings; the Veterans Administration Military Service
                 Coordinator, who reviews the service member's medical records and schedules the VA
                 clinic examinations; and the IDES attorney who reviews the package with the service
                 member before it is signed and sent to the Physical Evaluation Board in Washington,
                 D.C. as well as assists the service member in the event the findings are different than
                 expected and a reconsideration or formal board hearing is requested. Additionally, more
                 administrative support and leadership was identified and hired. These actions, in
                 conjunction with WWBn-W diligence in ensuring that necessary documentation for the
                 IDES process was submitted in a timely manner resulted in advancing from one of the
                 poorest IDES performing military treatment facilities to one of the top performers within
                 the Department of the Navy. Currently, the number of WWB.n-West Camp Pendleton
                 Marines who have been in the MEB Phase beyond the 100 day goal is less than five
                 percent.

                 2. WWR also provides the foUowing comments on recommendation C.2: we strongly
                 support this recommendation and will work with the Medical Officer of the Marine Corps
                 and Navy Medicine to address tbe recommendation.


                                                                                             Enclosure ( 1)


                                                             7




                                                          132
Assessment of DoD Wounded Warrior Matters –                                               Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                      August 22, 2012




                                                      UNCLASSIFIED


                 3. Additional editorial comments provided for accuracy are as follows:

                        a. Throughout the report, Comprehensive Transition Plan should be amended to
                 read "Comprehensive Recovery Plan."

                       b. On page 2, the mission of the WWR should be amended to include assistance to
                 "wounded, ill and injured Marines."

                         c. On page 6, Wounded Warrior Battalion-West organization chart should reflect
                 the following organizational chart:




                                                                                           Enclosure ( I)


                                                             8




                                                         133
Assessment of DoD Wounded Warrior Matters –            Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                   August 22, 2012




                        WWBn-West Taslk Organization




                                              134
Assessment of DoD Wounded Warrior Matters –                                             Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                    August 22, 2012




      lVIarine Corps Installations West - Marine Corps Base, Camp
      Pendleton Comments


                                       UNITED STATES MARINE CORPS
                                  MARINE CORPS INSTALLATIONS W EST- MARINE CORPS BASE
                                                      BOX 555010
                                         CAMP PENDLETON, CALIFORNIA 92055-5010

                                                                                             1000
                                                                                             CG
                                                                                             3 0 PPR 2012
                From :   Commanding General
                To :     Commandant of the Marine Corps, Programs and Resources
                         (RFR)

                Subj :   ASSESSMENT OF DOD WOUNDED WARRIOR MATTERS: WOUNDED
                         WARRIOR BATTALION-WEST HEADQUARTERS AND SOUTHERN
                         CALIFORNIA UNITS

                Ref :    (a) Department of Defense Office of the Inspector General
                             Draft Report dated 27 March 2012; Project No .
                             D2010-D00SP0- 0209 . 003

                1 . Per the requirements set forth in reference (a), the
                following is submitted :

                c .s. Topic . End of Active Duty Service Dates Affect on u.s .
                Government Identification Cards and Base Pass/Vehicle Decal
                Expiration Dates

                ~        Some Warriors were required to remain on active duty
                beyond their End of Active Duty Service date for medical or
                administrative reasons . As a result, government iden tificat ion
                cards and base pass/vehicle regi stration deca ls for these
                Wa rriors and all their depende nts expi red and were usually only
                ext ended in 90-day increments. Therefore, Warriors had to take
                time away from their recovery and transition to renew these
                documents which risked being detriment al to the Warrior and a
                burden on the Warrior's family .

                C.B . Recommendation. We recommend the Commander, Marine Corps
                Instal lations-West implement policy and procedures that ensure
                Warriors and Warriors ' dependents renewal o f government
                identifi cation cards and base pass/vehicle registration deca ls
                does not int erfere with War riors' recovery and transition or
                impose a burden on dependents.

                Response

                1 . Contact was made with the Wounded Warrior Bn (WWBn)
                Commanding Officer. He indicated that in his view this issue
                had l argely been resolved . He assigned his XO as liaison to




                                                       135
Assessment of DoD Wounded Warrior Matters –                             Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                    August 22, 2012




              Subj :     ASSESSMENT OF DOD WOUNDED WARRIOR MATTERS :   WOUNDED
                         WARRIOR BATTALION- WEST HEADQUARTERS AND SOUTHERN
                         CALIFORNIA UNITS

              coordinate and/or implement solutions tailored to accommodate
              wounded warriors .

              2 . During the discourse, it was determined that the mechanisms
              in place to accommodate wounded warriors were sufficient and
              working well :

                       WWBn Marines and their dependants receive "second-i n-line"
                       privileges at any of the three Pass & ID centers aboard
                       Camp Pendleton for DEERS and/or vehicle registration .
                       Second in line means the WWBn individual is next following
                       completion of the transacticn ongoing at a particular
                       window . If on the rare occasion a window is open , the
                       i ndividual would have "front of line• privileges .

                 - WWBn Staff knows who to contact within the Pass & ID
                   hierarchy to coordinate unusual situations. This could
                   include dedicating one of more windows within a Pass & ID
                   center to WWBn personnel - during or after normal working
                   hours to include weekends .

                 -   ~Jherepossible, Pass & ID transactions are conducted via
                     proxy (i.e . WWBn Staff and Pass & I D personnel on behalf of
                     a WWBn Marine or Dependant) .

              3 . Vehicle decals and ID cards are issued per the
              recommendation of the WWBn CO or his Staff or 3 years -
              whichever is less . If they do not know, or if it is difficult
              for them to assess, Pass & ID centers will re-issue ID cards and
              decals in 90 day increments.

                                               ~c;:--
                                                  D. J . TERANDO
                                                  Chief of Staff
              Copy to :
              COMMCICOM
              COMMARFORPAC
              co, Scty Bn
              CIG
              AC/S G-3/5




                                                136
Assessment of DoD Wounded Warrior Matters –                                               Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                      August 22, 2012




     Department of the Navy, Office of the Assistant Secretary
     Manpower and Reserve Affairs Comments

                                         D E P AR T M EN T OF T H E NAVY
                                        OFF I CE OF THE A SS I STANT StCAET AAV
                                         (MANPO W ER AND RESERV E AFF AIRS)
                                                1000 N AVY PfNJAGON
                                            WA SHINGTO N , 0 C   20350·f000




               MEMORANDUM FOR CHrEF, MEDICAL ASSESSMENT DIVISION, OFFICE OF
                                THE DEPARTMENT OF DEFENSE INSPECTOR
                                GENERAL

               SUBJECT: Department of Defense Inspector General Report (DODIG-2010-DOOSP0-
                        0209.003) - Assessment of DoD Wounded Warrior Matters - Camp
                        Pendleton

                     Thank you for the opportunity to review and provide additional feedback to the
               DoD final report. Please see attachment I for the Department of the Navy's
               supplemental responses.




                                                            Russell W. Beland
                                                            Deputy Assistant Secretary of the Navy
                                                            (Military Manpower & Personnel)

               Attachments:
               As stated




                                                           137
Assessment of DoD Wounded Warrior Matters –                                                      Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                             August 22, 2012




                              Assessment of DoD Wounded Warrior Matters - Camp Pendleton
                                       (Report No. DODIG-2010-DOOSP00209.003)


             C.l .l. We recommend the Secretary of the Navy take action to ensure that each phase of the
             Integrated Disability Evaluation System process is accomplished within the established timelines
             for every Warrior assigned or attached to the Wounded Warrior Battalions.

                •   The Secretary of the Navy is committed to ensuring the fair and timely disability
                    evaluation of Recovering Warriors. Under the current IDES structure, 295 days appears
                    to be an unrealistic goaL The Department of the Navy (DoN) is continually reviewing
                    staffing, procedures, and technology to implement the seamless transition of its Marines
                    and Sailors within the lmegrated Disability Evaluation System (IDES) and reduce the
                    average number of days to compl ete the processing. Recognizing portions of the IDES
                    process are dependent on processing outside of our control, the DoN notes important
                    accomplishments in the areas within our controL

                •   The IDES timeline goal of 295 days was established to reduce the legacy joint DoDN A
                    DES processing of 540 days. In April 2012, processing time for USMC was 316 days
                    and 355 days for Navy. Within the 295 day goal, there arc four phases: Medical
                    Evaluation Board (MEB) Phase ( 100 days); Physical Evaluation Board (PEB) Phase ( 120
                    days); Transition Phase (45 days); and VA Benefits Phase (30 days). Although DoN is
                    meeting the MEB and PEB phase goals, we are exceeding the Transition Phase and VA
                    Benefits Phase by an average of 22 days and 31 days respectively.

                •   To come closer to the 295 day overall IDES goal in a fair and timely manner, the DoN
                    implemented the following major actions:

                        ):>    Convened monthly Video Teleconferencing (VTC) involving key [DES personnel
                               from BUMED, PEB, VA, and Service Headquarters.

                        ~      Improved staffing at MESs in FY 11 by hiring 10 doctors and 37 additional case
                               managers for those locations needing additional, targeted support. The dedicated
                               MEB physician staff is also essential to a vision of program sustainment through
                               local education and training, as weU as actively moving the day-to-day MEB
                               caseload. Hiring of 23 additional MEB doctors in FY 13 will complete resource
                               requirements.

                        ~      Increased PES staffing by 47% and leveraged a point-to-point case file transfer
                               methodology. DoN is currently moving 75% of Navy and 69% of USMC PEB
                               cases through the PEB Phase in less than 120 days.

                        ~      Significantly reduced average time spent in the MEB Phase by leveraging existing
                               technology, via DoD's Armed Forces Health Longitudinal Technology
                               Application (AHLTA), to streamline development of the Narrative Summary




                                                              138
Assessment of DoD Wounded Warrior Matters –                                                       Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                              August 22, 2012




                                (NARSUM). Currently, 86% of Navy and 73% of USMC cases are meeting the
                                100-day phase goal.

                         :.>-   Leveraged existing technology by instinuing the Electronic File transfer of all
                                IDES cases to and from the PES and VA using the SAFE transfer site. Sec
                                htlps://safe.:mudcc.army.mil/safe2/Welcorne.aspx.

                         >-     Leveraged e xisting, desk-top IT applications to build operational reponing
                                capabilities at the MTF using the Veteran ' s Tracking Application (VTA), which
                                has led to sign ificant improvements in IDES case file workflow management and
                                greatly improved processing timeliness.

                         ;.. Presently developing a techno logy sol ution and/or process improvement between
                             the VA and Service Headquarters regarding the DD-214 transfer to shorten the
                             Transition Phase and VA Bene tits Phase.

                         :;. Conducted an Industrial-Engineer-Study to validate, improve, and recommend
                             MTF manning and resource solu tions at Camp Lejeu ne Military Treatmelll
                             Facility.

                         }>     Conducted an Industrial-Engineer-Study to validate, improve, and recommend
                                PES manning and resou rce solutions.

                         >-     Senior leadership participation and collaboration across the DoN, within the
                                Office of the Secretary of Defense (OSD) and with the Departmem of Veterans
                                Affairs (VA) contributes significantly to im proved IDES processing time.


              C.3.1. We recommend the Secretary of the Navy full y staff Wounded Warrior Battalions with
              non-Warrior Marine Corps and Navy personnel.

                  •   Concur with commenr. Staffing the Wounded Warrior Baualions is supportetl lJy existing
                      resourcing and programming processes. The management of the wounded warrior
                      populatio n shou ld leverage Marine and Sailor assignment to staff positions where
                      appropriate. particularly in support of Mari nes who intend ro return to fu iJ duty.

              C.3.2. We recommend the Commander. Wounded Warrior Regiment implement policy that
              Warriors assigned to Warrior banalions to recover and transition w ill not be assigned staff
              positions that require Warriors to lead or have au thority over other Warriors.

                  •   Concur with comment. Wounded Warrior Battalion will establish a policy within 90
                      days to address this malier and allow for Wll Marines to serve in staff positions on ly on
                      a case-by-case basis. Depending upon the overall comprehensive transition plan of a
                      W II Marine, as well as his/her compli ance with the live Lines of Operation programs, we
                      have established th at some Marines flou rish in staff positions. Staff positions provide
                      certain Wll Marines a feeling of self-worth. especially those Marines who wish to rcmrn
                      to full duty.




                                                               139
Assessment of DoD Wounded Warrior Matters –                                                     Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                            August 22, 2012




             C .3.3. We recommend the Commander, Wounded Warrior Regiment implement policy that
             Corpsman Warriors assigned to Warrior batta li ons to recover and transition wi ll not be assigned
             corpsman responsibi lities.

                 •   SeeC.3.2.




                                                            140
Assessment of DoD Wounded Warrior Matters –                                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                     August 22, 2012




                                       DEPARTMENT OF T HE NAVY
                                      OF F" ICE OF lHE A SS I St ANT SECRETARY
                                       ( MA NPO W ER ANO AESEAVE A fF AI RS)
                                                1000 N A VY PENT A GON
                                          W A Sti i NGfON , D.C. 20350 1000




             MEMORANDUM FOR CHIEF, MEDICAL ASSESSMENT DIVIS ION, OFFICE OF
                              THE DEPARTMENT OF DEFENSE TNSPECTOR
                              GENERAL

             SUBJECT: Department of Defense inspector General Report (DODIG-2012-067)-
                      Assessment of DoD Wounded Warrior Matters - Camp Lejeune

                   Thank you for the opportunity to review and provide additional feedback to the
             DoD final report. Please see attachment I for the Department of the Navy's
             supplemental responses.




                                                            Russell W. Beland
                                                            Deputy Assistant Secretary of the Navy
                                                            (Military Manpower & Personnel)

             Attachments:
             As stated




                                                          141
Assessment of DoD Wounded Warrior Matters –                                                    Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                           August 22, 2012




                             Assessment of DoD Wounded Warrior Matters- Camp Lejeune
                                            <Report No. DODIG-2012-067)


             D.2. We recommend the Secretary of the Navy take action to ensure that each phase of the
             Integrated Disability Evaluation System (IDES) process is accomplished within the established
             timelines for every Warrior assigned or attached to the Wounded Warrior Battalions.

                •   The Secretary of the Navy is committed to ensuring the fair and timely disability
                    evaluation of Recovering Warriors. Under the current IDES structure, 295 days appears
                    to be an unrealistic goal. The Department of the Navy (DoN) is continual ly reviewing
                    staffing, procedures, and technology to implement the seamless transition of its Marines
                    and Sailors within the Integrated Disability Evaluation System (IDES) and reduce the
                    average number of days to complete the processing. Recognizing portions of the IDES
                    process are dependent on processing outs ide of our control, the DoN notes important
                    accomplishments in the areas within our control.

                •   The IDES timeline goal of 295 days was established to reduce the legacy joint DoDN A
                    DES processing of 540 days. In Apri l 2012, processing time for USMC was 316 days
                    and 355 days for Navy. Within the 295 day goal, there are four phases: Medical
                    Evaluation Board (MEB) Phase (100 days); Physical Evaluation Board (PEB) Phase ( 120
                    days); Transition Phase (45 days); and VA Benefits Phase (30 days). Although DoN is
                    meeting the MEB and PEB pha~e goaas, we are exceeding the Transition Phase and VA
                    Benefits Phase by an average of 22 days and 31 days respectively.

                •   To come closer to the 295 day overall IDES goal in a fair and timely manner, the DoN
                    implemented the following maj or actions:

                        )>   Convened monthly Video Teleconferencing (VTC) involving key IDES personnel
                             from BUMED. PEB, VA, and Service Headquarters.

                        )>   Improved staffi.ng at MESs in FY I I by hiring 10 doctors and 37 additional case
                             managers for those locations needing additional, targeted support. The dedicated
                             MEB physician staff is also essential to a vision of program sustainment through
                             local education and training, as well as actively moving the day-to-day MEB
                             caseload. Hiring of 23 additional MEB doctors in FY 13 wi ll complete resource
                             requirements.

                        )>   Increased PEB staffi ng by 47% and leveraged a point-to-point case fLie transfer
                             methodology. DoN is currently moving 75% of Navy and 69% of USMC PEB
                             cases through the PEB Pha~e in less than 120 days.

                        )>   Significantly reduced average ·time spent in the MEB Phase by leveraging existing
                             technology, via DoD's Armed Forces Health Longitudinal Technology
                             Application (AHLTA). to streamline development of the Narrative Summary




                                                            142
Assessment of DoD Wounded Warrior Matters –                                                      Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                             August 22, 2012




                              (NARSUM). Currenlly, 86% of Navy and 73% of USMC cases are meeting the
                               I00-da y phase goal.

                        :.:. Leveraged existing technology by instituting the Electronic File transfer of all
                             TOES cases to and from the PEB and VA using the SAFE transfer site. See
                             https://safe.amrdec.army.mi l/safe2/Welcome.aspx.

                        i' Leveraged existing, desk -top IT applications to build operational reporting
                           capabilities at the MTF using the Veteran's Tracking Application (VTA), which
                           has led to significant improvements in IDES case fi le worktlow management and
                           greatly improved processing timeliness.

                        ;;. Presently developing a technology solution and/or process improvement between
                            the VA and Service Headquarters regarding the DD-214 transfer to shorten the
                            Transition Phase and VA Benefits Phase.

                         )>   Conducted an Industrial-Engineer-Study to validate, improve, and recommend
                              MTF manning and resource solutions at Camp Lejeune Military Treatment
                              Facility.

                         ).. Conducted an lndustriaJ- Engineer.. Study to vaJidate, improve, and recommend
                              PEB manning and resource solutions. ·

                         ;.:.. Senior leadership participation and collaboration across the DoN, within the
                               Office of the Secretary of Defense (OSD) and wi th the Department of Veterans
                               Affairs (VA) contributes significantly to improved TOES processing time.




              0.2.1. We recommend the Surgeon General of the Navy and Chief, Navy Bureau of
              Medicine and Surgery update policies and procedures for overall Navy Medicine poly-
              pharmacy management and medical reconciliation.

             BUM ED concurs with this recommendation, although with the following comments: The
             specific language of this recommendation implies that there should be one process for poly-
             pharmacy management and medication reconciliation throughout the Navy Medicine Enterprise.
             However, the current BUM ED position is that detailed, specific guidance for poly-pharmacy
             management and medical reconciliation must be deve loped and implemented at the MTF level.
             BUM ED strongly concurs with the recommendation for updated policies and procedures at
             Naval Hospital Camp Pendleton, but we maintain that developing and updating local policies
             under the authority of the MTF Commanding Officer would best serve patients, in that it wou ld
             match local policies and capabilities to the needs of the particular patient popu lation. A detailed ,
             centralized policy would be difficult to implement, considering the wide variation of practice
             se ttings in Navy Mcdkine. That being said, BUMED will con tinue to emphas ize Lhe
             requirement for effecti ve medication management policies at the local level to promote safe and
             effective patient care.




                                                             143
Assessment of DoD Wounded Warrior Matters –                                                    Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                           August 22, 2012




             In support of local MTF healthcare operations, BUMED established the Navy Comprehensive
             Pain Management Program (NCPMP) to improve the capabi li ty and capacity of the Navy' s pain
             managemem resources, and to foster healing and reduce s uffering from acute and chronic pain.
             Key NOAA and ASD(HA) directives are to ensure the availability of standardized and
             mu ltidisciplinary comprehensive pain management programs throughou t ihe MHS. The NCPMP
             is de ploying pain management manpower assets, initiall y focusing on "pain hotspots'' to enable
             and promote multidisciplinary pain care, including Complementary and Alternative Medicine
             (CAM) techniques. In addi tion, the NCPMP has implemented Tclemedicine services to increase
             access to pain specialty care. and to prov ide education and consultation with pain medicine
             specialists for patients and primary care prov iders. The NCPMP is also enhancing the training of
             providers throughout Navy Medici ne in CAM techniques. initially focusing o n battlefield (first
             a ide) and medical acupuncture, to increase the number of therapeutic options for providers.

             These activities are key to optimiz ing pain care "medicatio n management," as they give
             providers non-pharmacologic therapeu tic options. These c linical procedures are bolstered by
             policy dissemination and training. Specifically, the NCPMP is finalizing Interim Guidance for
             Pain Management, which aims to standardize and optimize a biopsychosocial approach to Pai n
             Management, in accordance with state-of-the-art DoDN A and civilian Clinical Pathway
             Guidelines (C PGs). Areas of focus inc lude a requirement for a qualitative assessment of pain, an
             appropriate referral for multidisciplinary care, and a Chronic Opioid Therapy Safety (COTS )
             program. COTS requires screening for the appropriateness of any opioid prescriptio n, the use of
             Opioid Care Agreements (OCAs}, so le providers, and surveillance for adherence with urine drug
             tesL~ (UDTs). A BUM ED Publication wi ll foll ow the lnterim Guidance for sustainment. Two
             training programs have al so been created to address prescriptio n medicatio n misuse. The training
             programs, ·o o No Harm' and 'The War at Ho me' , arc being hosted on MRS-Learn for providers
             and service members, respectively.




                                                            144
Assessment of DoD Wounded Warrior Matters –                                          Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                 August 22, 2012



                                     DEPARTMENT OF THE NAVY
                                     OFFIC E OF THE ASS I STANT SECRETARY
                                      ( MA NPOWER A ND RESER VE AFFAIRS)
                                             1000 NAVY PENTAGO N
                                        WA,SHING TO N , D.C.   203!0·1000




            MEMORANDUM FOR CHIEF, MEDICAL ASSESSMENT DIVISION, OFFICE OF
                             THE DEPARTMENT OF DEFENSE INSPECTOR
                             GENERAL

            SU BJ ECT: Department of Defense Inspector General Report (OODIG-2010-DOOSP000-
                       0209.003) - Assessment of DoD Wounded Warrior Matters - Navy Medicine
                       West Response

                   This letter provides additional information to the Department of the Navy (DoN)
            Official Response signed by Or. Russell Beland on 2 July 20 12 for the Wounded Warrior
            DODIG Assessment. Please see Navy Medicine West and Commandant of the Marine
            Corps comments at attachment I .




                                                        ~ Captain, Medkal Service Corps
                                                          Special Assistant for Health Affairs
                                                          (Military Manpower & Personnel)

            Allachments:
            As stated




                                                       145
Assessment of DoD Wounded Warrior Matters –                                   Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                          August 22, 2012




     Navy Medicine West Comments



                                         DEPARTMENT OF THE NAVY
                                                NAvY MEDICINE WEST
                                          •110 NORMAN SCOTT ROAD SUITE 5
                                              SAN DIEGO, CA 9<136·5521       IN REPLV RUER TO:

                                                                             5041
                                                                             Ser MOOA/ 0257
                                                                             l3 APR 12

                MEMORANDUM FOR CHIEF BUREAU OF MEDICINE AND SURGERY

                Subj :   DODIG DRAFT REPORT ON ASSESSMENT OF DOD WOUNDED     I~ARRIOR
                         MATTERS - NAVY MEDI CINE WEST RESPONSE

                Ref :    (a) EKM Tasker DCN 2012UGENERAL - 005428c
                         (b) DODIG Draft report on Assessment of DoD Wounded
                             Warrior Mat ters , Project No . D2010-DOOSP0-0209 . 003
                             dated 27 March 2012

                  1 . In accordance with reference (a), the following is provided
                in response to reference (b) .

                      (a) General . Navy Medicine West recommends consistency
                throughout the report with respect to the naming of t he Military
                Treatment Facilities visited/assessed. For example , Naval
                Medical Center, San Diego is called "Balboa" and "Naval
                liospital" in some portions of the report and in other portions
                it is called Naval Medical Center, San Diego . The correct names
                for the three facilities visited are Naval Medical Center San
                Diego (NMCSD) , Naval Hospital , Camp Pendleton (NHCP) and Naval
                Hospi tal Twentynine Palms (NHTP) .

                     (b) General. Navy Medicine West believes the DODIG
                Report does not adequately reflect NMCSD' s true mission
                statement and scope of care (pages 8 & 9 of the report refer) .
                Request that the DODIG Report incorporate the following changes :

                           (1) There are approximately 250 , 000 people in San
                Diego Coun t y eligible to receive care at Naval Medica l Center
                San Diego (NMCSD) , the largest academic medical center in Navy
                Medicine . Over 95 , 000 beneficiaries are enrolled for primary
                care and many thousands mo re receive specialty care . This care
                is provided by more than 6, 600 military and civilian staff . To
                augment that staff and to expand the scope of services available
                to its patient popul a tion , Naval Medical Center San Diego has
                taken the lead in introducing many innovative partnership and
                resource sharing programs with the Veteran ' s Administration and
                other civilian health systems and providers .

                          (2) Naval Medical Center San Diego is firs t and
                foremost a military command . The center has five medical




                                                       146
Assessment of DoD Wounded Warrior Matters –                             Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                    August 22, 2012




              Subj :   DOD DRAFT REPORT ON ASSESSMENT OF DOD WOUN DED WARRIOR
                       MATTERS - NAVY MEDICINE WEST RESPONSE

              mobilization teams incl udi ng the hospital ship USNS Mercy. These
              teams deploy to the Western Pacific and Southeast Asia at
              various times during the year . It is the center ' s mission to
              deliver top-quality , patient centered healthcare; Prepare and
              deploy military personnel in support of Combatant Commander
              requirements ; Shape the future of mi litary medicine through
              education , training, and research .

                    (c) General. Navy Medicine West does not understand
              the NMCSD Case Manager and Client data presented i n Table 3
               (page 60 of the report) . While t he paragraphs preceding Table 3
              speak to Case M.anagement support to WW , the data reflected in
              Table 3 indicates t hat the five NMCSD Nurse Case Managers
              interviewed had no WW assigned . This may be a simple error of
              data transposition within the table (of Non- warriors and
              Warriors) , and is meant to reflect case management provided by
              NMCSD Combat and Comprehensive Complex Casualty Care (CS) case
              managers . Alternatively, t his da ta may reflect case management
              performed by NMCSD' s Directorate of Healthcare Business case
              managers (who provide primarily non- warrior services) . In
              either case , clarification or correction is necessita t ed .

                   (dl General. Navy Medicine West believes Table Four (page
              60 of the report) reflects less than 50% of Case Managers at
              Naval Hospital Camp Pendleton (NHCP) . Table should be an not ated
              as reflecting a " sample" of NHCP case load .

                    (e) Response to recommendation C.2. We recommend the
              Medical Officer of the Marine Corps (Health Services) identify
              the correct configuration for a Battalion Surgeon, Medical
              Officer, Battalion Aid Stations or other appropriate equivalent
              medical services to provide . dedicated Primary Care Management
              (PCM) support for Warriors at Camp Pendleton. (Non-concur) . In
              September 2011 , NHCP embedded within the WWBn as a Primary Care
              Manager one of their own providers whose sole patient
              empanelment is 220 WW patients . (This starkly contr asts with
              typical civilian ' concierge ' panel s of 850- 900 pa tients , typical
              military and ci vilian empanelment of 1300 and 2400 patients ,
              respectivel y) . Wi t h this NHCP MTf PCM assi gnment , WWs reap the
              benefits of enrol lment within a Medical Home Port , including
              same day access , secure messaging abilities with their
              healthcare team, and active management of their heal thcare .
              Proposed Wounded Warrior Primary Care Management , provided by
              Mari ne Corps Health Services Personnel (vice Navy Medi c i ne , NHCP
              staff) will create more problems t han it would solve , including


                                                 2




                                               147
Assessment of DoD Wounded Warrior Matters –                             Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                    August 22, 2012




              Subj :   DOD DRAF'l' REPORT ON ASSESSMENT OF DOD WOUN DED WARRIOR
                       MATTERS - NAVY MEDICINE WEST RESPONSE

              fragmen tation of care and communication challenges as the WW
              accesses Speci a l ty Services at the MTF.

                    (f) Response to recommendation 0.1.2. We recommend the
              Commander , Navy Medicine-West implement policy to assign
              dedicated medical case managers to patients assigned or attached
              to WWBn-West Warriors. (Concur). While Navy Medicine West
              Instruction 6320 . 1 formally d irects the fol l owing items , many
              were in place before the Instruc tio n was promulgated on 10
              November 201 1 .

                         (1) All WWs will initially be assigned a Cli nical
              Case Manager (CCM) . Continuing CCM services wi l l be contingent
              upon W~l needs .

                         (2) CCMs will be dedicated at MTFs with routinely
              greater than 36 WWs , carrying a case load of no more t han 20 WWs
              per CCM .

                         (3) Dedica ted CCMs will be imbedded within the WWBn
              West detachment whe never possibl e .

                        (4) MTFs will utilize CCM extenders (i . e . , LVN/LPNs ,
              admin support staff) if unable to fill CCM positions . CCM
              extenders will work unde r the supervision of the CCM .

                   Additional Information NHCP: Warriors currently checking
              in to WWBn-West Detachment at Camp Pendleton are assigned a
              dedica ted WW Case Manager that will remain their case manager
              throughout their ca re .

                   Additional Information Naval Hospital 29 Palms (NHTP) : At
              the time of the DODIG visit , NHTP only had 4 of thei r 8 case
              managers positions filled . They currently have six positions
              filled with three of those designated to the 29 Palms WWBn- West
              Detachment .

                   (g) Response to recommendation 0 . 1.3 . We recommend the
              Commander Navy Medicine- West ensure enough medical case
              managers are assigned to prevent them from being overloaded and
              unable to provide all necessary support required by Warriors.
              (Concur). Navy Medicine West instruction 6320 . 1 dated 10
              November 2011 outlines the WW to Case Manager rati o to be no
              more than 20 : 1 .



                                                 3




                                               148
Assessment of DoD Wounded Warrior Matters –                              Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                     August 22, 2012




             Subj :   DOD DRAFT REPORT ON ASSESSMENT OF DOD WOUNDED WARRIOR
                      MATTERS - NAVY MEDICINE WEST RESPONSE

             medications . If there are any cor:cerns additional clinical
             pharmacist review is conducted .

                   (i) Response to recommendation 0.3 . We recommend the
             Commander, Navy Medicine-West implement procedures to ensure all
             TRICARE standards are met regarding WWBn-West Warrior's access
             to care, including for referring med.i cal care appointments .
             (Concur) . NHTP has a contracted 'fBI program manager in house .
             Since t he DODIG visit , they have decreased WW tra vel
             requirements , including agreements/utilization of TBI/Vestibular
             and OT civilian providers at Eisenhower Medica l Center in Rancho
             Mirage , CA (68 miles away) . Also , since the DODIG visit , based
             on demand analyses , NHTP has instituted part - time "circuit
             riders " from NMCSD . These specialties include Podiatry (2 days
             per month) , Neurology (2 . 5 days per month), and Otolaryngology
             (2 days every other month) .

                   (j)  Response to recommendations D.4.2.a. We recommend the
             Commander , Navy Medicine West ensure policy and procedures are
             in place to guarantee that all Warriors' medication profiles are
             maintained accurately and are properly reconciled (Concur) .
             While Navy Medici ne West Instruction 6320 . 1 formally directs the
             fol lowing items , many were in place before the Instruction was
             promulgated on 10 November 2011:

                        (1) MTF' s wil l identify designa ted /dedicated
              clinical pharmacists to provide WW services .

                         (2) All WWs wil l recei ve a delibe rate medication
              review and reconciliation conducted by a clinical pharmacist ,
              ~1ithin three working days of assignment to the WW unit/program .

                         (3) The deliberate med:cation review will minimally
              include the following elements :

                             a . A review of the patient's medication profile
              and medical history, using electronic heal th record (EHR)
              information systems (CHCS and AHLTA) .

                             b . A reconci liation of medications listed i n the
              EHR with medications reported by patient.

                             c. Consideration of medications appropriateness,
              effectiveness, dosage and monitoring .

                               d . Assessment of drug-drug , drug- disease , and

                                                 5




                                               149
Assessment of DoD Wounded Warrior Matters –                             Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                    August 22, 2012




              Subj :   DOD DRAFT REPORT ON ASSESSMENT OF DOD WOUNDED WARRIOR
                       MATT8RS - NAVY MEDICINE WEST RESPONSE

              drug-food /herbal interactions .

                               e . WW compliance with prescribed therapy .

                               f. Polypharmacy challenges .

                              g . Assessment of need for restrictive dispensing
              of opioid, benzodiazepine, tricyclic antidepressant , anti-
              psychotic , or insomnia relieving medications .

                               h. Educate WW about his/her medications .

                     Additional Information NHCP : After initial evaluation , the
              WW ' s Primary Care Manager (PCM) is responsible for regular
              follow - up with the WW (typically once per month) to review
              medications .

                     (k) Response to recommendation D.4.2.b. We recommend the
              Commander, Navy Medicine West ensure policy and procedures are
              in place to guarantee that all Warriors' medical information is
              accurately shared between medical facilities so that Warriors
              receive proper medical treatment within established access-to-
              care standards (Partially Concur. Given the current enterprise-
              wide medical information programs and processes used by Navy
              Medicine West and other Navy, Army and Air Force Regional
              Commands, the DOD IG Report should distinguish between those
              issues which require enterprise action/policy (like linking data
              systems) from those which can changed/impacted by a specific
              Regional command) . Navy Medicine and the MHS as an enterprise
              h-'ls mu ltiple safety mechanisms in place to ensure -safe amounts
              and combinations of medications are prescribed to beneficiaries .
              One example of this is POTS (Pharmacy Data Transaction Service) .
              Physicians and other authorized prescribers uti lize an extremely
              robust database called POTS (Pharmacy Data Transaction Service)
              that automatically screens prescriptions for interactions
              against other prescribed medications when they are entered into
              the computer . This database captures all prescription
              medications that the indivi dua l received by incorporating
              prescription data from more than 56 , 000 retai l pharmacies , 889
              mill.tary treatme nt facilities regardless of service , and all
              prescriptions from t he TRICAR8/Express Scripts mail service ,
              making it the most e xtensi ve compila tion of prescription
              information in North America . The PDTS allows DoD to improve
              the quality of its prescription service and reduce
              pharmaceutical costs by conducting Prospective Drug Utilization
              Reviews (ProDURs) on each new and refill prescription against

                                                 6




                                               150
Assessment of DoD Wounded Warrior Matters –                               Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                      August 22, 2012




              Subj :   DOD DRAFT REPORT ON ASSESSMENT OF DOD WOUNDED WARRIOR
                       MATTERS - NAVY MEDICINE WEST RESPONSE

              the benefi ciary ' s complete drug profile . The central data
              repository also allows DoD to monitor and track patient usage
              and provider pr escribing patterns throughout the MHS .

                   Interactions and duplicates immediately bounce back
             electronically from POTS to the prescriber to be evaluated and
             action must be taken to override the warning i f warranted/
             desired for the individual patient . Prescribers frequently
             balance the risks and benefits to determine if the interaction
             warrants consideration of a different medication or if the
             initial choice will be the best choice . Since inception in
             2000 , the system has identified more than 540 , 000 potential
             level 1 drug interactions , resulting in 13% of these
             prescriptions being cancelled . Other outcomes were
             discontinuation of the interacting medication , adjustment of
             dosi ng , or continuing therapy i f warranted .

                    Additionally, t he warning again shows up at the pharmacy
              during processing . The pharmacist will check the reason entered
              for    the prescriber ' s override and if t hey agree, they will
              continue to process. If the pharmacist is uncertain, they
              con·tact the prescriber and discuss the interaction and
              implicat.ions to resolve any concent::> uefure e.iLiler cuoL.irauiuy O.L
              canceling the prescription in favor of another medication .

                   As an additi onal safety mechanism, medication
             reconciliation is performed by the physician, nurse , medical
             assistant or hospital corpsman at every visit . A list of
             medications is generated from the records system and the pat1ent
             is asked if the list is what they are actually taking and if
             t hey are taking any supplements or medications that are not on
             the Jist and need to be added .

                  Additional information NHTP: Working with NMW, t he Multi-
             Service Market Office and NMCSD, NHTP has obtained NMCSD CHCS
             access . NHTP Case Mangers and Referral Management staff can now
             view appointments at NMCSD, ensuring WWs obtain specialty
             treatment ~1ithin access -to-care standards .




                                                  7




                                                151
Assessment of DoD Wounded Warrior Matters –                          Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                 August 22, 2012




              Subj :   DOD DRAFT RE~ORT ON ASSESSMENT OF DOD WOUNDED WARRIOR
                       MATTE:RS - NAVY ME:DICINE: WE:ST RE:SPONSE:

                                              ,/ _.,/ ; - /    __,
                                                              ~«)
                                                .r M. E: . BROUKER
                                                   Chief of Staff




                                                                                            !




                                                   8




                                                  152
Assessment of DoD Wounded Warrior Matters –                                                            Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                                   August 22, 2012




      Office of the Assistant Secretary of Defense Health Affairs
      Comments



           A
                                    OFFICE OF THE ASSISTANT SECRETARY OF DEFENSE
                                                     REALTH AFFAJRS


           w  T N.tCAK t:
            MANAGEM&.'"ff
                                            7700 ARLJNGTON BOULEVARD, SUITE 5101
                                                 FALLS CHURCH, VA 22042-5101



                                                                                                         JIJN 1 !   ZDil
              .ACfiVtTV



                     MEMORANDUM FOR DEPUTY INSPECTOR GENERAL, DEPARTMENT OF DEFENSE

                     SUBJECT: Department of Defense Response to Department of Defense [nspector General Draft
                              Report, "Assessment of DoD Wounded Warrior Matters- Wounded Wanior
                              Battalion-West Headquarters and Southern California Units," Project No. D201 0-
                              DOOSP0-0209.003, March 27,2012

                             This is the Office ofthc Assistant Secretary of Defense for Health Affairs' (OASD(HA))
                     response to the Department of Defense Inspector General (DoD IG) Draft Report, "Assessment of DoD
                     Wounded Warrior Matters- Wounded Warrior Banalion-West Headquarters and Southern California
                     Units," Project No. D20 I0-DOOSP0-0209.003, March 27, 2012. We concur with recommendation
                     D.4. 1 assigned to ASD(HA).

                            Additionally, I have been asked by the Acting Under Secretary of De fense for Personnel and
                     Readiness (USD(P&R)) to respond and provide concurrence with recommendation C.9. We have
                     provided detailed responses to these recommendations (Attachment I).




                     Attachment:
                     As stated




                                                                  153
Assessment of DoD Wounded Warrior Matters –                                                        Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                               August 22, 2012




                                        RESPONSES TO RF.COMMENl)ATIONS


             .RECOMIVI:EN ))ATION DA.l : We recommend U1e Office of the A~sistani Secretary of
              Defense for Health Affairs develop and resource solutions to Composite Healtl1 Care System
             (CHCS) data sharing diJ'ficulties.
             TRlCARE Managem ent Activitv (TMA) Res ponse: Concur. TMA addressed this
             recommendation previously in response to "Assessment of DoD Wow1ded Wan·ior M alters -
             Camp Lejuene, .. Proj ect 1o. 020 I 0-000SP0-0209.00, December 9, 2011 .

             As stated i.n U1at response, eflorts are underway to enhance the medical reconciliation capability
             within the Anued Forces Health Longitudinal Technology Application (AHLTA)/CHCS.
             Cunently, Department of Defense (DoD) health care provide.rs ar<: able to docum<Jn! changes to
             medication orders made by DoD providers but are unable to do so for medication orders from
             noo-DoD providers. to itlclude Dcpartm~ut of Veterans Aflairs (VA) and civilian providers.
             Two system change re(J uests have been approved to address this:


                 •   All ow users to mark as "TakingfNot Taking'' each patient's current medications
                     regardless of the source system. Por example, the source systems include but are not
                     limited to AHLTA. CHCS. VA. or th e Phammcy Data Transaction System. This update
                     can be done during a patient encounter or without in itiating an encoumer.

                 •   Change the status of a medication to "Taking!Not Taking" when a user marks an over the
                     counter medication as "TakingtNot Taking."

             Currerllly, these enhancements are targeted for nmding in Fiscal Year (FY) 2014. 'll1e program
             office is considering other funding options prior to the planned FY 2014 funding.

             R ECOMMEN))ATION C.9: We recommend the Actin g Under Secretary of Defense fo r
             Personnel and Readiness (USD(P&R)) recommend that the Secretary of Defense (S<JcDef)
             consider expanding eligi bility for waniors assigned to Wounded Wani or units so that they can
             transfer unused Post 9111 Govennuenl Issued (Gl) education benefits to U1eir spouse or children
             when medical conditions preclude the warrior from meeting the length-of-sen ,ice eligibility
             requirements to Lnmsfer U1ese benefits.
             USD(P&R) Response; Concur with U1e objective of the recommendation to maximize U1e
             ability of Wounded Warriors to transfer benefits under the Post-9/ 11 01 Bill. The Post-9/ 11 GI
             Bill, for purposes of promoting recruitment and retention, allows members of the Ann ed Forces
             to elect to transfer all or a portion of educatio•tal entitlement to a spouse or child. Ell.1endiug the
             e>dstin:g transferability provision for 1t11y purpose other than the promotion of recmiting or
             retention would not satisfy U1e intent of the transferability authority absent a legislative change.




                                                              154
Assessment of DoD Wounded Warrior Matters –                                            Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                   August 22, 2012




                          OFFICE OF THE ASSISTANT SECRETARY OF DEFENSE
                                            WASHINGTON, DC 20301-1200



                                                                                               AUG 0 7 2012
       HEALTH AFFAIRS




           MEMORANDUM FOR DEPUTY INSPECTOR GENERAL, DEPARTMENT OF DEFENSE

           SUBJECT: Department of Defense Response to Department of Defense Inspector General Draft
                    Report, "Assessment of DoD Wounded Warrior Matters - Wounded Warrior
                    Battalion-West Headquarters and Southern California Units," Project No. D2010-
                    DOOSP0-0209.003, March 27, 2012
                                                /

                 Attached please find the Office of the Assistant Secretary of Defense Health Affairs
           (OASD(HA)) additional response to the Department of Defense Inspector General (DoD IG)
           Draft Report, "Assessment of DoD Wounded Warrior Matters- Wounded Warrior Battalion-
           West Headquarters and Southern California Units," Project No. D2010-DOOSP0-0209.003 ,
           March 27,2012. Recommendation D. I. I was assigned to the Under Secretary of Defense
           (Personnel & Readiness), but falls under my OASD(HA) responsibility.

                Responses were previously provided on April24, 2012 and June 12,2012 addressing
           recommendations D.4.1 and C.9, respectively (attached).



                                             Sincerely,


                                          ;1~Allen W. Middleton, SES
                                               Chief Financial Officer
                                        Office of the Chief Financial Officer


           cc:
           OUSD(P&R) (Eric Wetzel)




                                                          155
Assessment of DoD Wounded Warrior Matters –                                               Report No. DODIG-2012-120
Wounded Warrior Battalion – West                                                                      August 22, 2012




           DEPARTMENT OF DEFENSE INSEPCTOR GENERAL DRAFf REPORT- DATED
                                    Marcb 27, 2012

                                       (D2010-DOOSP0-209.003)
              "Assessment of DoD Wounded Warrior Matters-Wounded Warrior Battalion-West
                               Headquarters and Southern California Units"



             OFFICE OF THE ASSIST ANT SECRETARY OF DEFENSE (HEALTH AFFAIRS)
                                        COMMENTS


          RECOMMENDATION D.l.l: We recommend the Undersecretary of Defense for Personnel
          and Readiness implement policy that establishes and requires adequate medical case
          management staffing ratios specific to the Wounded Wanior program based on patient acuity,
          complexity and evidence-based practices.

          DOD RESPONSE: Concur. We concur with the recommendation and are working towards
          establishing case manager staffing ratios that will consider variables associated with acuity and
          complexity of care coordination requirements, and consistent with the statutory requirements of
          the National Defense Authorization Act for Fiscal Year (FY) 2008, Section 16!l(c)(3)(C)
          recognizing that the Secretaries of the Military Departments concerned may waive such
          limitation with respect to a given manager for not more than 120 days in the event of unforeseen
          circumstances. The expiration date for DTM 08-33 was May 31,2012 (attached). A formal
          request was submitted for an additional 6-month extension. A response to this extension request
          has not yet been received.




                                                          156
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Provide assessment oversight that addresses priority national security
                                                                                                                     objectives to facilitate informed, timely decision-making by senior
                                                                                                                     leaders of the DOD and the U.S. Congress.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations

                                                                                                                                                Department of Defense Inspector General

             of Defense personnel, programs and operations to support the
                                                                                                                                                              4800 Mark Center Drive

                  Department's mission and serve the public interest.
                                                                                                                                                            Alexandria, VA 22350-1500





                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference    Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                  Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900    Unauthorized Disclosures of Classified Information
